App. 1
950 F.3d 155 (2d Cir. 2020)
United States Court of Appeals, Second Circuit
Maria CASTILLO, James Cochran, Luis Gomez, Bienbenido Guerra, Richard Miller, Carlo Nieva, Kenji Takabayashi, Nicholai Khan, Plaintiffs-Appellees,
Jonathan Cohen, Sandra Fabara, Luis Lamboy, Esteban
Del Valle, Rodrigo Henter De Rezende, William Tramontozzi, Jr., Thomas Lucero, Akiko Miyakami, Christian
Cortes, Carlos Game, James Rocco, Steven Lew, Francisco
Fernandez, Plaintiffs-CounterDefendants-Appellees,
Kai Niederhause, Rodney Rodriguez, Plaintiffs,
v.
G&M REALTY L.P., 22-50 Jackson Avenue Owners, L.P.,
22-52 Jackson Avenue LLC, ACD Citiview Buildings,
LLC, and Gerald Wolkoff, Defendants-Appellants.
Nos. 18-498-cv (L), 18-538-cv (CON)
August Term 2019
Appeal from the United States District Court
for the Eastern District of New York
Nos. 15-cv-3230 (FB) (RLM), 13-cv-5612 (FB) (RLM),
Frederic Block, District Judge, Presiding.
Argued August 30, 2020
Decided February 20, 2020
Amended February 21, 2020
Attorneys and Law Firms
ERIC M. BAUM (Juyoun Han, Eisenberg & Baum, LLP, New
York, NY, Christopher J. Robinson, Rottenberg Lipman
Rich, P.C., New York, NY, on the brief), Eisenberg & Baum,
LLP, New York, NY, for Plaintiffs-Appellees.
MEIR FEDER (James M. Gross, on the brief), Jones Day, New
York, NY, for Defendants-Appellants.

App. 2
Before: PARKER, RAGGI, and LOHIER, Circuit Judges.
BARRINGTON D. PARKER, Circuit Judge:
Defendants‐Appellants G&M Realty L.P., 22‐50 Jackson Avenue Owners, L.P., 22‐52 Jackson Avenue LLC,
ACD Citiview Buildings, LLC, and Gerald Wolkoff (collectively “Wolkoff”) appeal from a judgment of the United
States District Court for the Eastern District of New York
(Frederic Block, J.). The court concluded that Wolkoff violated the Visual Artists Rights Act of 1990, 17 U.S.C.
§ 106A (“VARA”), by destroying artwork of Plaintiffs‐Appellees, artists who created and displayed their work at the
5Pointz site in Long Island City, New York. We hold that
the district court correctly concluded that the artwork created by Appellees was protected by VARA and that Wolkoff’s violation of the statute was willful. Furthermore, the
damages awarded involved no abuse of discretion. Accordingly, we affirm the judgment below.
The facts as found by the district court established that
in 2002, Wolkoff undertook to install artwork in a series of
dilapidated warehouse buildings that he owned in Long Island City, New York. Wolkoff enlisted Appellee Jonathan
Cohen, a distinguished aerosol artist, to turn the warehouses into an exhibition space for artists. Cohen and other
artists rented studio spaces in the warehouses and filled
the walls with aerosol art, with Cohen serving as curator.
Under Cohen’s leadership, the site, known as 5Pointz,
evolved into a major global center for aerosol art. It attracted thousands of daily visitors, numerous celebrities,
and extensive media coverage.
“Creative destruction” was an important feature of the
5Pointz site. Some art at the site achieved permanence, but
other art had a short lifespan and was repeatedly painted
over. An elaborate system of norms—including Cohen’s
permission and often consent of the artist whose work was
overpainted—governed the painting process. Cohen divided the walls into “short-term rotating walls,” where
works would generally last for days or weeks, and
“longstanding walls,” which were more permanent and reserved for the best works at the site. During its lifespan,

App. 3
5Pointz was home to a total of approximately 10,650 works
of art.
In May 2013, Cohen learned that Wolkoff had sought
municipal approvals looking to demolish 5Pointz and to
build luxury apartments on the site. Seeking to prevent
that destruction, Cohen applied to the New York City
Landmark Preservation Commission to have 5Pointz designated a site of cultural significance. The application was
unsuccessful, as were Cohen’s efforts to raise money to purchase the site.
At that point, Cohen, joined by numerous 5Pointz artists, sued under VARA to prevent destruction of the site.
VARA, added to the copyright laws in 1990, grants visual
artists certain “moral rights” in their work. See 17 U.S.C.
§ 106A(a). Specifically, the statute prevents modifications
of artwork that are harmful to artists’ reputations. Id.
§ 106A(a)(3)(A). The statute also affords artists the right to
prevent destruction of their work if that work has achieved
“recognized stature” and carries over this protection even
after the work is sold. Id. § 106A(a)(3)(B). Under §§ 504(b)
and (c) an artist who establishes a violation of VARA may
obtain actual damages and profits or statutory damages,
which are enhanced if the artist proves that a violation was
willful.
Early in the litigation, Plaintiffs applied for a temporary restraining order to prevent the demolition of the site,
which the district court granted. See Cohen v. G&M Realty
L.P., 988 F. Supp. 2d 212, 214 n.1 (E.D.N.Y. 2013). As the
TRO expired, Plaintiffs applied for a preliminary injunction. On November 12, 2013, the court denied the application in a minute order but told the parties that a written
opinion would soon follow. See id. at 214.
That night, Wolkoff began to destroy the artwork. He
banned the artists from the site and refused them permission to recover any work that could be removed. Several
nights later (and before the district court’s written opinion
could issue), Wolkoff deployed a group of workmen who, at
his instruction, whitewashed the art.

App. 4
On November 20, 2013, the district court issued its
opinion denying the preliminary injunction. Judge Block
concluded that, although some of the 5Pointz paintings
may have achieved recognized stature, resolution of that
question was best reserved for trial. The court also decided
that, given the transitory nature of much of the work, preliminary injunctive relief was inappropriate and that the
monetary damages available under VARA could remediate
any injury proved at trial.
Following the destruction of the art, nine additional artists sued Wolkoff. The two lawsuits were consolidated for
trial, which would primarily address whether the artwork
had achieved recognized stature and, if it had, the value of
the art Wolkoff destroyed. The three-week trial included
testimony from 29 witnesses and saw the admission of voluminous documentary evidence.
Although Plaintiffs had initially demanded a trial by
jury, near the conclusion of the trial, the parties agreed to
waive a jury, and the district court converted it to an advisory jury. On November 15, 2017, the advisory jury returned its verdict. It made individualized findings as to
each artist and work and found violations of VARA as to 36
of the 49 works that were whitewashed. More precisely, the
advisory jury found that 28 works had achieved recognized
stature and had been unlawfully destroyed and that 8
other works had been mutilated or distorted to the detriment of the artists’ reputations. It recommended an award
of $545,750 in actual damages and $651,750 in statutory
damages.
On February 12, 2018, the district court issued its findings of fact and conclusions of law. Drawing on a vast record, the court found that 45 of the works had achieved recognized stature, that Wolkoff had violated VARA by destroying them, and that the violation was willful. More specifically, the court observed that the works “reflect[ed]
striking technical and artistic mastery and vision worthy
of display in prominent museums if not on the walls of
5Pointz.” S. App’x at 13. The findings emphasized Cohen’s
prominence in the world of aerosol art, the significance of
his process of selecting the artists who could exhibit at

App. 5
5Pointz, and the fact that, while much of the art was temporary, other works were on display for several years.
Judge Block credited the artists’ evidence of outside recognition of the 5Pointz works and expert testimony as to the
works’ stature. The court declined to impose liability with
respect to the four remaining works because they had not
achieved long-term preservation, were insufficiently discussed outside of 5Pointz, and were not modified to the detriment of the artists’ reputations.
Where a violation of VARA is established, the statute
permits the injured party to recover either actual damages
and profits or statutory damages. 17 U.S.C. § 504. The statute fixes statutory damages between $750 and $30,000 per
work but authorizes damages of up to $150,000 per work if
a litigant proves that a violation was “willful.” Id. § 504(c).
There was extensive expert testimony as to actual damages. Elizabeth Littlejohn, the artists’ expert, testified that
each of the works in question had a substantial monetary
value, employing a complex formula that attempted to
scale that value to account for the relative merit and recognition of each work. On the other hand, Christopher Gaillard, Wolkoff’s expert, testified that, given the difficulties
of removing and selling the 5Pointz paintings and the
5Pointz artists’ limited sales history, the destroyed works
did not have a reliable market value. Ultimately, the district court concluded that it could not reliably fix the market value of the destroyed paintings and, for that reason,
declined to award actual damages. The court said that Littlejohn’s formula was flawed and that Gaillard credibly testified to challenges that would impede calculation of a market value.
Nonetheless, the court did award statutory damages. It
determined that statutory damages would serve to sanction Wolkoff’s conduct and to vindicate the policies behind
VARA. In addition, and in accord with the advisory jury’s
verdict, the court found that Wolkoff had acted willfully.
This finding was based on Wolkoff’s awareness of the ongoing VARA litigation and his refusal to afford the artists the
90- day opportunity provided by the statute to salvage their
artwork, some of which was removable. See 17 U.S.C.

App. 6
§ 113(d)(2)(B). Judge Block was unpersuaded by Wolkoff’s
assertion that he whitewashed the artwork to prevent the
artists from engaging in disruption and disorderly behavior at the site. Instead, he found that Wolkoff acted out of
“pure pique and revenge for the nerve of the plaintiffs to
sue to attempt to prevent the destruction of their art.” S.
App’x at 44. Judge Block awarded the maximum amount of
statutory damages: $150,000 for each of the 45 works, for
a total of $6.75 million.
Appellants then moved, pursuant to Fed. R. Civ. P.
52(b) and 59(a), to set aside the court’s findings of fact and
conclusions of law and to retry the case. The district court
denied this motion and, in a lengthy appendix, marshalled
the evidence in the record supporting the court’s findings
as to the recognized stature of each work in question.
The court also offered additional support for its finding
of willfulness. The court concluded that Wolkoff’s affidavit
testimony submitted during the preliminary injunction
proceedings contained material untruths. Wolkoff’s affidavit stated that the demolition of 5Pointz had to be completed by the beginning of 2014, with construction to commence in April 2014. At trial, however, Wolkoff testified
that he did not apply for a demolition permit until March
2014. The district court stated that it would have granted
the preliminary injunction had Wolkoff testified earlier
that demolition could be delayed until March. This appeal
followed.
DISCUSSION
In reviewing a district court’s decision in a bench trial,
we review the district court’s findings of fact for clear error and its conclusions of law de novo. Mixed questions of
law and fact are also reviewed de novo. White v. White
Rose Food, 237 F.3d 174, 178 (2d Cir. 2001).
I.
VARA creates a scheme of moral rights for artists. “The
right of attribution generally consists of the right of an artist to be recognized by name as the author of his work or to
publish anonymously or pseudonymously . . . .” Carter v.

App. 7
Helmsley-Spear, Inc., 71 F.3d 77, 81 (2d Cir. 1995). It further includes the right to prevent the artist’s work from being attributed to another and to prevent the use of the artist’s name on works created by others. Id. “The right of integrity allows the [artist] to prevent any deforming or mutilating changes to his work, even after title in the work
has been transferred.” Id.1
Most importantly for this appeal, VARA gives “the author of a work of visual art” the right “to prevent any destruction of a work of recognized stature” and provides that
“any intentional or grossly negligent destruction of that
work is a violation of that right.” 17 U.S.C. § 106A(a)(3)(B);
see also Carter, 71 F.3d at 83. VARA further permits the
artist “to prevent any intentional distortion, mutilation, or
other modification of [his or her work] which would be prejudicial to his or her honor or reputation,” and provides that
“any intentional distortion, mutilation, or modification of
that work is a violation of that right.” 17 U.S.C.
§ 106A(a)(3)(A). The latter provision applies regardless of
a work’s stature. These rights may not be transferred, but
they “may be waived if the author expressly agrees to such
waiver in a written instrument signed by the author.” Id.
§ 106A(e)(1).
Additionally, the statute contains specific provisions
governing artwork incorporated into a building. If the artwork is incorporated “in such a way that removing the work
from the building will cause the destruction, distortion,
mutilation, or other modification of the work,” then the artist’s rights may be waived if and only if he “consented to
the installation of the work in the building . . . in a written
instrument.” Id. § 113(d)(1). This instrument must be
“signed by the owner of the building and the author” and

1 The statute recognizes that, unlike novelists or composers, for example, visual artists depend on the integrity of the physical manifestations of their works. Artists’ moral rights “spring from a belief that
an artist in the process of creation injects his spirit into the work and
that the artist’s personality, as well as the integrity of the work, should
therefore be protected and preserved.” Carter, 71 F.3d at 81.

App. 8
must “specif[y] that the installation of the work may subject the work to destruction, distortion, mutilation, or other
modification, by reason of its removal.” Id.2 However, “[i]f
the owner of a building wishes to remove a work of visual
art which is a part of such building and which can be removed from the building without the destruction, distortion, mutilation, or other modification of the work,” then
the artist’s rights prevail unless one of two things has occurred. Id. § 113(d)(2). First, the building’s owner “has
made a diligent, good faith attempt without success to notify the author of the owner’s intended action affecting the
work of visual art.” Id. Or second, the owner has “provide[d] such notice in writing and the person so notified
failed, within 90 days after receiving such notice, either to
remove the work or to pay for its removal.” Id.
Damages for violations of VARA’s rights of attribution
and integrity are governed by general copyright law and
include both actual and statutory damages. Statutory damages may range from $750 to $30,000 per work “as the
court considers just.” Id. § 504(c)(1). However, if “the [artist] sustains the burden of proving, and the court finds,
that [a violation of VARA] was committed willfully, the
court in its discretion may increase the award of statutory
damages to a sum of not more than $150,000 [per work].”
Id. § 504(c)(2).
II.
The crux of the parties’ dispute on this appeal is
whether the works at 5Pointz were works of “recognized
stature,” thereby protected from destruction under
§ 106A(a)(3)(B). We conclude that a work is of recognized
stature when it is one of high quality, status, or caliber that
has been acknowledged as such by a relevant community.
See Carter v. Helmsley-Spear, Inc., 861 F. Supp. 303, 32425 (S.D.N.Y. 1994), aff’d in part, vacated in part, rev’d in

2 The statute contains additional provisions regarding works installed prior to its effective date, but those provisions are impertinent
here, as all relevant events transpired long after VARA became effective.

App. 9
part, 71 F.3d 77; see also, e.g., Martin v. City of Indianapolis, 192 F.3d 608, 612 (7th Cir. 1999). A work’s high quality,
status, or caliber is its stature, and the acknowledgement
of that stature speaks to the work’s recognition.
The most important component of stature will generally
be artistic quality. The relevant community will typically
be the artistic community, comprising art historians, art
critics, museum curators, gallerists, prominent artists, and
other experts. Since recognized stature is necessarily a
fluid concept, we can conceive of circumstances under
which, for example, a “poor” work by an otherwise highly
regarded artist nonetheless merits protection from destruction under VARA. This approach helps to ensure that
VARA protects “the public interest in preserving [the] nation’s culture,” Carter, 71 F.3d at 81. This approach also
ensures that the personal judgment of the court is not the
determinative factor in the court’s analysis. See Christopher J. Robinson, The “Recognized Stature” Standard in
the Visual Artists Rights Act, 68 Fordham L. Rev. 1935,
1945 n.84 (2000).
After all, we are mindful of Justice Holmes’s cautionary
observation that “[i]t would be a dangerous undertaking for
persons trained only to the law to constitute themselves final judges of the worth of [visual art],” Bleistein v. Donaldson Lithographing Co., 188 U.S. 239, 251, 23 S.Ct. 298,
47 L.Ed. 460 (1903); accord Pollara v. Seymour, 344 F.3d
265, 271 (2d Cir. 2003) (“We steer clear of an interpretation
of VARA that would require courts to assess . . . the worth
of a purported work of visual art . . . .”). For that reason,
aside from the rare case where an artist or work is of such
prominence that the issue of recognized stature need not
be tried, expert testimony or substantial evidence of nonexpert recognition will generally be required to establish
recognized stature.
III.
Accordingly, to establish a violation of VARA in this
case, the artists were required to demonstrate that their
work had achieved recognized stature. Judge Block found
that they did so. He concluded that “the plaintiffs adduced

App. 10
such a plethora of exhibits and credible testimony, including the testimony of a highly regarded expert, that even
under the most restrictive of evidentiary standards almost
all of the plaintiffs’ works easily qualify as works of recognized stature.” S. App’x at 30. These findings of fact are
reviewable only for clear error. See Drew Thornley, The
Visual Artists Rights Act’s “Recognized Stature” Provision,
67 Clev. St. L. Rev. 351, 365 n.81 (2019) (“[R]ecognized
stature is a question of fact.”). “A finding is ‘clearly erroneous’ when although there is evidence to support it, the reviewing court on the entire evidence is left with the definite
and firm conviction that a mistake has been committed.”
Wu Lin v. Lynch, 813 F.3d 122, 132 (2d Cir. 2016) (quoting
United States v. U.S. Gypsum Co., 333 U.S. 364, 395, 68
S.Ct. 525, 92 L.Ed. 746 (1948)). Appellants do not hurdle
this high bar.
In attempting to do so, Wolkoff takes issue with a number of the decisions Judge Block made in the process of
reaching his conclusions. The proceedings below were contested by able counsel and involved voluminous exhibits
and extensive lay and expert testimony. On this appeal,
Wolkoff would have us revisit and reconsider a number of
those decisions that were debatable. But on this appeal,
Wolkoff must demonstrate that Judge Block abused his
discretion or that findings of fact he made were clearly erroneous, not simply debatable.
Initially, Wolkoff contends that the great majority of the
works in question were temporary ones which, for that reason, could not meet the recognized stature requirement.
We disagree. We see nothing in VARA that excludes temporary artwork from attaining recognized stature. Unhelpful to this contention is the fact that Wolkoff’s own expert
acknowledged that temporary artwork can achieve recognized stature.
The statute does not adopt categories of “permanent”
and “temporary” artwork, much less include a definition of
these terms. VARA is distinctive in that “[a] work of visual
art is defined by the Act in terms both positive (what it is)
and negative (what it is not).” Carter, 71 F.3d at 84. In narrowing the scope of the statute, Congress adopted a highly

App. 11
specific definition of visual art. See 17 U.S.C. § 101. In light
of this specificity, we see no justification for adopting an
additional requirement not included by Congress, even if
that requirement is styled as a component of recognized
stature. To do so would be to upset the balance achieved by
the legislature.
Additionally, at least as recently as 2005, New York
City saw a clear instance where temporary artwork
achieved recognized stature. That winter, artists Christo
Vladimirov Javacheff and Jeanne-Claude Denat, known
collectively as “Christo,” installed 7,503 orange draped
gates in Central Park. This work, known as “The Gates,”
lasted only two weeks but was the subject of significant
critical acclaim and attention, not just from the art world
but also from the general public. See Richard Chused,
Moral Rights: The Anti-Rebellion Graffiti Heritage of
5Pointz, 41 Colum. J.L. & Arts 583, 597-98 (2018). As Wolkoff concedes, “The Gates” achieved recognized stature and
would have been protected under VARA.
In recent years, “street art,” much of which is “temporary,” has emerged as a major category of contemporary
art. As one scholar has noted, “street art” has “blossomed
into far more than spray-painted tags and quickly vanishing pieces . . . painted by rebellious urbanites. In some
quarters, it has become high art.” Id. at 583. For example,
noted street artist Banksy has appeared alongside President Barack Obama and Apple founder Steve Jobs on Time
magazine’s list of the world’s 100 most influential people.3
Though often painted on building walls where it may be
subject to overpainting, Banksy’s work is nonetheless
acknowledged, both by the art community and the general
public, as of significant artistic merit and cultural importance. Famously, Banksy’s Girl with a Balloon self-destructed after selling for $1.4 million at Sotheby’s, but, as

Shepard Fairey, Banksy, Time (Apr. 29, 2010), http://content
.time.com/time/specials/packages/article/0,28804,1984685_1984940_1
984945,00.html.
3

App. 12
with Banksy’s street art, the temporary quality of this
work has only added to its recognition.4
A Banksy painting at 5Pointz would have possessed recognized stature, even if it were temporary.5 Even if “The
Gates” had been replaced with another art exhibit, that
work would have maintained its recognized stature. Although a work’s short lifespan means that there will be
fewer opportunities for the work to be viewed and evaluated, the temporary nature of the art is not a bar to recognized stature.
The district court correctly observed that when Congress wanted to impose durational limits on work subject
to VARA, it knew how to do so. For example, the statute
provides that “[t]he modification of a work of visual art
which is a result of the passage of time or the inherent nature of the materials is not a distortion, mutilation, or other
modification described in subsection (a)(3)(A).” 17 U.S.C.
§ 106A(c)(1). For that reason, the gradual erosion of outdoor artwork exposed to the elements or the melting of an
ice sculpture does not threaten liability. Congress also imposed a durational limit insofar as the statute protects only
works that are “fixed”—“sufficiently permanent . . . to be
perceived . . . for a period of more than transitory duration.” Id. §§ 101, 102(a). We have held that a work that exists for only 1.2 seconds is of merely transitory duration but
have noted with approval cases holding that a work “embodied . . . for at least several minutes” is of more than
transitory duration. Cartoon Network LP, LLLP v. CSC
Holdings, Inc., 536 F.3d 121, 127-28 (2d Cir. 2008). It is
undisputed that the 5Pointz works survived far longer

Scott Reyburn, How Banksy’s Prank Might Boost His Prices: ‘It’s
a Part of Art History’, N.Y. Times (Oct. 7, 2018), https://www.nytimes
.com/2018/10/07/arts/design/banksyartwork-painting.html.
5 Banksy himself has participated in creative destruction, which
has only drawn further attention to his work. The documentary Graffiti Wars (2011), for example, describes a creative feud between Banksy
and rival artist King Robbo, which involved repeated modification and
overpainting of each other’s work. The feud did not detract from the
recognition or stature of either artist’s work.
4

App. 13
than this and therefore satisfied the statute’s minimal durational requirement.
As a variation on the theme that temporary artwork
does not merit VARA protection, Wolkoff contends that because the artists were aware that the 5Pointz buildings
might eventually be torn down, they should have expected
their work to be destroyed.6 The district court correctly observed, however, that VARA accounts for this possibility.
Under § 113(d), if the art at 5Pointz was incorporated into
the site such that it could not be removed without being
destroyed, then Wolkoff was required to obtain “a written
instrument . . . that [was] signed by the owner of the building and the [artist] and that specifie[d] that installation of
the work may subject the work to destruction, distortion,
mutilation, or other modification, by reason of its removal.”
17 U.S.C. § 113(d)(1)(B). It is undisputed that no such instrument was executed. If, on the other hand, the 5Pointz
art could have been safely removed, then Wolkoff was required to provide written notice of the planned demolition
and to allow the artists 90 days to remove the work or to
pay for its removal. See id. § 113(d)(2)(B). Again, it is undisputed that Wolkoff did none of this.
IV.
In addition to his contention that temporary artwork
cannot achieve recognized stature, Wolkoff argues that the
district court erred in several other respects. He contends
that the court erroneously focused on recognized quality,
rather than recognized stature, and that, contrary to the
approach allegedly taken by the district court, recognized
stature must be assessed at the time of a work’s destruction, not at the time of trial. He argues that the court improperly credited the testimony of Renee Vara, the artists’
expert, because she had not actually seen certain of the
works prior to their destruction and had based her testimony on images she had examined. Finally, Wolkoff objects

Although Cohen acknowledged his awareness that the buildings
would eventually be torn down, other plaintiffs testified that they were
unaware of Appellants’ plans.
6

App. 14
to the district court’s reliance on Jonathan Cohen’s testimony about his curation of the artwork, as well as its consideration of the overall quality of 5Pointz as a site.
None of these contentions, considered separately or in
the aggregate, convinces us that any of Judge Block’s findings were clearly erroneous. There is no merit to Wolkoff’s
contention that the court improperly focused on recognized
quality as opposed to recognized stature. The court’s detailed findings are dispositive on this point. Nor are we persuaded that the district court evaluated the works’ recognition at the time of trial, since it explicitly stated that the
“focus of [its] decision was the recognition the works
achieved prior to the whitewash.” S. App’x at 126. In any
event, the quality of a work, assessed by an expert after it
has been destroyed, can be probative of its pre-destruction
quality, status, or caliber.
Nor do we see merit in Wolkoff’s criticism of the court’s
decision to credit the artists’ experts. As is almost always
the case where competing expert testimony is adduced, the
trier of fact accepts one side’s experts over the other’s.
Judge Block did so here and gave sound reasons for his
choice. Renee Vara, the artists’ expert, testified to the high
artistic merit of the 5Pointz art but also testified that she
had not seen the works before their destruction and had
assessed them on the basis of images. We see nothing
wrong and certainly nothing clearly erroneous with this approach, one well within a district court’s broad discretion
to accept or reject evidence.
Next, Appellants object to the district court’s reliance
on Jonathan Cohen’s testimony about his curation of the
artwork. The district court reasoned that Cohen’s selection
process, which involved review of a portfolio of an artist’s
work and a plan for his or her 5Pointz project, screened for
works of stature. Appellants, however, contend that this
determination was irrelevant because Cohen made his
evaluation before the artists painted their 5Pointz works.
Nonetheless, the district court cogently reasoned that a respected aerosol artist’s determination that another aerosol
artist’s work is worthy of display is appropriate evidence of

App. 15
stature. An artist whose merit has been recognized by another prominent artist, museum curator, or art critic is
more likely to create work of recognized stature than an
artist who has not been screened. This inference is even
stronger where, as here, Cohen reviewed a plan for the subject work before allowing it to be painted.7 Accepting and
crediting such testimony easily falls within a district
court’s trial management responsibilities and in this instance involved no abuse of discretion or clear error.
Finally, Wolkoff contends that the district court erroneously focused on the stature of the 5Pointz site rather than
the individual 5Pointz works. Yet again we see no error.
The district court did not focus exclusively on the stature
of the site. The court considered the individual works at the
site and determined that some were not of recognized stature. Setting that aside, we easily conclude that the site of
a work is relevant to its recognition and stature and may,
in certain cases, render the recognition and stature of a
work beyond question. Appearance at a major site—e.g.,
the Louvre or the Prado—ensures that a work will be recognized, that is, seen and appreciated by the public and the
art community. The appearance of a work of art at a curated site such as a museum or 5Pointz means that the
work has been deemed meritorious by the curator and

The House Judiciary Committee Report on VARA confirms our
conclusion that an artist’s “pre-existing standing in the artistic community” is relevant to “recognized stature.” H.R. Rep. No. 101-514
(1990), as reprinted in 1990 U.S.C.C.A.N. 6915, 6925. See generally
United States v. Epskamp, 832 F.3d 154, 165 (2d Cir. 2016) (noting that
legislative history may be invoked for confirmatory purposes). Indeed,
several courts have recognized the possibility that, in extreme cases,
an artist’s prominence might render all of his work of “recognized stature,” even if particular works are unknown to the public. E.g., Scott v.
Dixon, 309 F. Supp. 2d 395, 400 (E.D.N.Y. 2004) (“[T]he court can imagine a set of circumstances where an artist’s work is of such recognized stature that any work by that artist would be subject to VARA’s
protection . . . .”); Lubner v. City of Los Angeles, 45 Cal. App. 4th 525,
531, 53 Cal.Rptr.2d 24 (1996) (inferring that art was “of recognized
stature” because the creators were “recognized artists who have created and exhibited their paintings and drawings for over 40 years” (citing Carter, 861 F. Supp. at 325)).
7

App. 16
therefore is evidence of stature. When the curator is distinguished, his selection of the work is especially probative
Consequently, we see no error when the district court considered the 5Pointz site itself as some evidence of the
works’ recognized stature.
The evidence before the district court was voluminous—
sufficient to persuade both the advisory jury and Judge
Block. In addition to extensive lay testimony and documentary evidence, it included much expert testimony, which is
often the linchpin of claims of “recognized stature.” See
Carter, 861 F. Supp. at 325. The evidence supporting the
district court’s findings is vast, and we do not arrive at “the
definite and firm conviction that a mistake has been committed.” Wu Lin, 813 F.3d at 126. Because the district court
applied the correct legal standard and did not commit clear
error, its determination as to liability is affirmed.
V.
Appellants next challenge the district court’s award of
damages. The court did not award actual damages because
it could not quantify the market value of the 5Pointz art.
However, the court found that Appellants’ violation of
VARA was willful, and the advisory jury arrived at the
same conclusion. See 17 U.S.C. § 504(c)(2). A violation is
willful when a defendant had knowledge that its conduct
was unlawful or recklessly disregarded that possibility.
Bryant v. Media Right Prods., Inc., 603 F.3d 135, 143 (2d
Cir. 2010).
We review the district court’s finding of willfulness for
clear error, and we see none. See 4 Pillar Dynasty LLC v.
N.Y. & Co., Inc., 933 F.3d 202, 209 (2d Cir. 2019). As Judge
Block found, Wolkoff admitted his awareness, prior to destroying 5Pointz, that the artists were pressing VARA
claims.8 Additionally, VARA contains provisions limiting

Appellants point out that only some of the present plaintiffs had
advanced claims before the artwork was whitewashed. Nonetheless,
claims by even some of the artists sufficed to notify Appellants that the
5Pointz artists’ rights under VARA could be implicated by destroying
the artwork. Moreover, in whitewashing the artwork, Appellants did
8

App. 17
artists’ rights vis-à-vis building owners when owners give
them 90 days’ notice and the opportunity to remove their
artwork, 17 U.S.C. § 113(d)(2), but Wolkoff testified that,
although he was advised by counsel both before and after
the destruction, he chose “to hire people to whitewash[ ] it
in one shot instead of waiting for three months,” S. App’x at
43 (alteration in original). The district court found that this
testimony evinced a deliberate choice to violate VARA rather than to follow the statutory notice procedures. Wolkoff
did not help his cause when he later reminded the district
court that he “would make the same decision today.” J.
App’x at 2427.
Most troubling to the district court and to us is Wolkoff’s
decision to whitewash the artwork at all. Nothing in the
record indicates that it was necessary to whitewash the
artwork before beginning construction of the apartments.
The district court found that Wolkoff could have allowed
the artwork to remain visible until demolition began, giving the artists time to photograph or to recover their work.
Instead, he destroyed the work immediately after the district court denied the preliminary injunction and before the
district court could finalize its promised written opinion.
Wolkoff testified that he whitewashed the work to prevent the artists from illegally salvaging their work. However, he offered no basis for this belief and, to the contrary,
testified that the artists had always behaved lawfully. The
district court was entitled to conclude, based on this record,
that Wolkoff acted willfully and was liable for enhanced
statutory damages.
VI.
Finally, we address Wolkoff’s challenge to the amount
of the statutory damages awarded—$6,750,000—the maximum amount allowed. District courts enjoy wide discretion in setting statutory damages. Bryant, 603 F.3d at 143.
We review the award of those damages for abuse of discretion. Id. To find an abuse of discretion, we must be convinced that the district court based its decision on an error
not differentiate between the works involved in ongoing litigation and
those whose creators sued only later.

App. 18
of law, applied the incorrect legal standard, made a clearly
erroneous factual finding, or reached a conclusion that cannot be located within the range of permissible decisions.
Klipsch Grp., Inc. v. ePRO E-Commerce Ltd., 880 F.3d 620,
627 (2d Cir. 2018). We see no abuse here.
The district court carefully considered the six factors
relevant to a determination of statutory damages and concluded that “Wolkoff rings the bell on each relevant factor.”
S. App’x at 45. Those six, drawn from copyright law, are
“(1) the infringer’s state of mind; (2) the expenses saved,
and profits earned, by the infringer; (3) the revenue lost by
the copyright holder; (4) the deterrent effect on the infringer and third parties; (5) the infringer’s cooperation in
providing evidence concerning the value of the infringing
material; and (6) the conduct and attitude of the parties.”
Bryant, 603 F.3d at 144.
First, Wolkoff’s state of mind is documented in the district court’s extensive finding on willfulness, which we see
no reason to disturb. In other respects, this factor cuts in
the artists’ favor. As the district court properly found, Wolkoff, a sophisticated real estate developer, was “willing to
run the risk of being held liable for substantial statutory
damages rather than to jeopardize his multimillion dollar
luxury condo project.” S. App’x at 45 n.20. Moreover, Wolkoff whitewashed the artworks without any genuine business need to do so. It was simply, as the district court
found, an “act of pure pique and revenge” toward the artists
who had sued him. S. App’x at 44. As the district court also
found, Wolkoff set out in the dark of night, using the cheapest paint available, standing behind his workers and urging them to “keep painting” and “paint everything.” J.
App’x at 2423. The whitewashing did not end the conflict
in a single evening. The effects lingered for almost a year.
The district court noted that the sloppy, halfhearted nature
of the whitewashing left the works easily visible under layers of cheap white paint, reminding the artists on a daily
basis of what had happened to them. Moreover, the mutilated artworks were visible to millions of people passing
the site on the subway.

App. 19
The lost revenue prong is not as straightforward but
nonetheless also tips toward the artists. The district court
declined to award actual damages, which Wolkoff takes to
mean that the artists suffered no loss in revenue. However,
as the district court said, this decision was based on the
difficulty of quantifying Appellees’ loss, not on the absence
of any loss. Unlike actual damages, statutory damages do
not require the precise monetary quantification of injury.
See, e.g., Davis v. The Gap, Inc., 246 F.3d 152, 170 (2d Cir.
2001); Warner Bros. Inc. v. Dae Rim Trading, Inc., 877 F.2d
1120, 1126 (2d Cir. 1989). Consequently, the district court
was within its discretion in determining that Appellees’
loss was significant, for purposes of statutory damages, but
not compensable through actual damages. As the district
court expressly recognized, “[t]he value of 5Pointz to the
artists’ careers was significant, and its loss, though difficult to quantify, precluded future opportunities and acclaim.” S. App’x at 48.
The deterrent effect on the infringer and third parties
also supports the amount of statutory damages imposed by
the court. Wolkoff admitted that he had no remorse for his
actions. To the contrary he confessed that he “would make
the same decision today.” J. App’x at 2427. In these circumstances, a maximum statutory award could serve to deter
Wolkoff from future violations of VARA. It could further
encourage other building owners to negotiate in good faith
with artists whose works are incorporated into structures
and to abide by the 90-day notice provision set forth in
VARA when incorporated art can be removed without destruction or other modification.
The final factor—the conduct and attitude of the parties—also cuts in favor of the maximum statutory award.
During the preliminary injunction phase, Wolkoff testified
that it was critical that demolition of the site occur within
a few months at most because otherwise he stood to lose
millions of dollars in credits and possibly the entire project.
Wolkoff later changed his testimony and stated that at the
time of the preliminary injunction hearing, there was at
most a “possibility” that a delay would have caused him financial loss. S. App’x at 114. Subsequently, the evidence at

App. 20
trial established that Wolkoff had not even applied for a
demolition permit until four months after the whitewashing, and he admitted that he suffered no loss for the delay.
The district court described these statements as “conscious
material misrepresentation[s]” and noted that had they not
been made, it would have granted the preliminary injunction. S. App’x at 116.
In contrast, throughout the proceedings below, the artists complied with what the law required. Cohen sought
landmark designation and, when that option became unavailable, sought to purchase the site. Judge Block noted
that the artists “conducted themselves with dignity, maturity, respect, and at all times within the law.” S. App’x at
49. In sum, we conclude that the district court appropriately analyzed each relevant factor and see no abuse of discretion. We have considered Wolkoff’s other contentions
and conclude that they lack merit.
CONCLUSION
For the foregoing reasons, the judgment of the district
court is AFFIRMED.

App. 21
2018 WL 2973385
Only the Westlaw citation is currently available
U.S. District Court, Eastern District of New York
Jonathan Cohen, Sandra Fabara, Stephen Ebert, Luis
Lamboy, Esteban Del Valle, Rodrigo Henter De Rezende,
Danielle Mastrion, William Tramontozzi, Jr., Thomas
Lucero, Akiko Miyakami, Christian Cortes, Dustin
Spagnola, Alice Mizrachi, Carlos Game, James Rocco, Steven Lew, Francisco Fernandez, and Nicholai Khan, Plaintiffs,
v.
G&M Realty L.P., 22-50 Jackson Avenue Owners, L.P.,
22-52 Jackson Avenue, LLC, ACD Citiview Buildings,
LLC, and Gerald Wolkoff, Defendants.
--Maria Castillo, James Cochran, Luis Gomez, Bienbenido
Guerra, Richard Miller, Kai Niederhausen, Carlo Nieva,
Rodney Rodriguez, and Kenji Takabayashi, Plaintiffs,
v.
G&M Realty L.P., 22-50 Jackson Avenue Owners, L.P.,
22-52 Jackson Avenue, LLC, ACD Citiview Buildings,
LLC, And Gerald Wolkoff, Defendants.
Case Nos. 13-CV-05612 (FB)(RLM), 15-cv-3230
(FB)(RLM)
E.D. New York.
Signed 06/13/2018
Attorneys and Law Firms
For the Plaintiff: ERIC M. BAUM, ANDREW MILLER, Eisenberg & Baum LLP, 24 Union Square East, New York, NY
10003.
For the Defendant: MEIR FEDER, Jones Day, 250 Vesey
Street, New York, NY 10281, DAVID G. EBERT, MIOKO TAJIKA, Ingram Yuzek Gainen Carroll & Bertolotti, LLP, 250
Park Avenue New York, NY 10177.

App. 22
DECISION
FREDERIC BLOCK, Senior United States District
Judge
On February 12, 2018, I issued my decision granting
plaintiffs $6,750,000 as statutory damages for the willful
destruction of 45 of plaintiffs’ 49 works of visual art by defendant Gerald Wolkoff (“Wolkoff”). Cohen v. G&M Realty
L.P., 2018 WL 851374, at *2 (E.D.N.Y. Feb. 12, 2018) (“Cohen II“).1 Defendants now move pursuant to Federal Rules
of Civil Procedure 52(b) and 59(a) ”to set aside the Court’s
findings of fact and conclusions of law and grant a new trial
or, alternatively, to vacate the judgment in plaintiffs’ favor
and enter judgment for defendants, or, alternatively, for remittitur.” Def.’s Br. at 1. The essence of their motions is
that none of plaintiffs’ art qualified as works of “recognized
stature” under the Visual Artists Rights Act of 1990
(“VARA”), and that, in any event, there was no basis for the
Court to find that Wolkoff had acted willfully and award
the full extent of allowable statutory damages under
VARA.
“[A] trial court should be most reluctant to set aside that
which it has previously decided unless convinced that it
was based on a mistake of fact or clear error of law, or that
refusal to revisit the earlier decision would work a manifest
injustice.” LiButti v. United States, 178 F.3d 114, 118 (2d
Cir. 1999) (citing Arizona v. California, 460 U.S. 605, 618
n.8, 103 S.Ct. 1382, 75 L.Ed.2d 318 (1983)). Under this
standard, there is no basis to grant the defendants’ motions. But since the case has generated a considerable
amount of public interest and is bound for the circuit court
of appeals, the public and the appellate court should have
the fullest explication of the bases for my decision. Thus, I
The decision incorrectly states: “Plaintiffs, 21 aerosol artists, initiated this lawsuit over four years ago.” Cohen II, 2018 WL 851374, at
*1 (E.D.N.Y. Feb. 12, 2018). However, only 13 of the 21 artists were
named in the original complaint; of the remaining, one was added to
the second amended complaint on June 17, 2014, DE64, and the remaining seven were plaintiffs in the related Castillo v. G&M Realty
L.P. litigation, 1:15-cv-3230(FB)(RLM), which was filed in 2015 but
tried simultaneously with the original Cohen action.
1

App. 23
now cite “chapter, book, and verse” in the Appendix in support of my findings that the 45 works of art were of such
stature.
Moreover, defendants now argue that Wolkoff was warranted in immediately destroying the plaintiffs’ works of
art because I supposedly “gave him permission to destroy”
them, Def.’s Br. at 30, when I “denied plaintiffs’ preliminary injunction motion,” Def.’s Br. at 28. Although my willfulness determination was drawn from the facts adduced
at the trial, defendants have opened the door to what transpired at the hearing by putting the preliminary injunction
proceeding in play. As now explained, it reinforces my willfulness determination and justification for imposing the
maximum allowable statutory damages.2
Willfulness
A
As I wrote in my decision, “[i]f not for Wolkoff’s insolence, [the maximum statutory] damages would not have
been assessed” since “[i]f he did not destroy 5Pointz until
he received his permits and demolished it 10 months later,
the Court would not have found that he had acted willfully,” and “a modest amount of statutory damages would
probably have been more in order.” Cohen II, 2018 WL
851374, at *19. Granted, my finding of willfulness was triggered by Wolkoff’s decision to whitewash the plaintiffs’ art
as soon as I denied their motion for preliminary injunctive
relief rather than wait until the buildings were ready to be
torn down. But in doing so, he acted “at his peril.” Jones v.
Sec. and Exch. Comm’n, 298 U.S. 1, 17-18, 56 S.Ct. 654, 80

“It is settled, of course, that the courts, trial and appellate, take
notice of their own respective records in the present litigation, both as
to matters occurring in the immediate trial, and in previous trials or
hearings.” 2 McCormick on Evidence § 330Facts Capable of Certain
Verification (7th ed. 2016). “Although not required to take judicial notice, courts often recognize part of the record in the same proceeding or
in an earlier stage of the same controversy.” 1 Weinstein’s Federal Evidence § 201.12 Facts Capable of Ready and Accurate Determination
(2018). The Court takes judicial notice of these proceedings for the purpose of responding to Wolkoff’s contentions.
2

App. 24
L.Ed. 1015 (1936). He was represented by skilled counsel3 who presumably advised him of the well-established
principles governing the denial of the “extraordinary and
drastic remedy”4 of a preliminary injunction, and that
“[t]he judge’s legal conclusions, like his fact-findings, are
subject to change after a full hearing and the opportunity
for more mature deliberation. For a preliminary injunction
. . . is by its very nature, interlocutory, tentative, provisional, ad interim, impermanent, mutable, not fixed or final or conclusive, characterized by its for-the-time-beingness.” Hamilton Watch Co. v. Benrus Watch Co., 206
F.2d 738, 742 (2d Cir. 1953).
But regardless of what advice his lawyer may or may
not have given him, Wolkoff was bent on doing it his way
and could not wait until I rendered my written decision before destroying plaintiffs’ works. As he blatantly acknowledged, “That was the decision I made. I would make the
same decision today if that happened today.” Cohen II,
2018 WL 851374, at *19.
As I pointed out in my decision, “with a fully developed
record, permanent injunctive relief might have been available under the literal reading of VARA,” Cohen II, 2018 WL
851374, at *17 n.20, and Wolkoff, as an astute real estate
developer, may have been “willing to run the risk of being
held liable for substantial statutory damages rather than
to jeopardize his multimillion dollar luxury condo project,” id.
There were, therefore, two dynamics at play throughout
this litigation, as identified during the preliminary injunction hearing and in my decision denying injunctive relief:
First, given “the transient nature of plaintiffs’ works,” I
would not preclude Wolkoff from developing his property
and demolishing 5Pointz. Cohen v. G&M Realty L.P., 988
See N.A.S. Import. Corp. v. Chenson Enters., Inc., 968 F.2d 250,
253 (2d Cir. 1992) (finding willfulness where defendant’s “excuse evaporated once [defendant] hired an attorney”).
4 Munaf v. Geren, 553 U.S. 674, 689-90, 128 S.Ct. 2207, 171 L.Ed.2d
1 (2008) (quoting 11A C. Wright, A. Miller & M. Kane, Federal Practice
and Procedure § 2948, p.129 (2d ed. 1995) (footnotes omitted)).
3

App. 25
F.Supp.2d 212, 227 (E.D.N.Y. 2013) (“Cohen I“). But second, “[s]ince, as defendants’ expert correctly acknowledged,
VARA protects even temporary works from destruction, defendants [were] exposed to potentially significant monetary damages if it [were] ultimately determined after trial
that the plaintiffs’ works were of ‘recognized stature.’” Id. In that latter regard, I cautioned that “[t]he final
resolution of whether any do indeed qualify as such works
of art [was] best left for a fuller exploration of the merits
after the case [had] been properly prepared for trial.” Id. at
226.
The minutes of the three-day preliminary injunction
hearing make it perfectly apparent that, although I was
impressed by what the plaintiffs accomplished at 5Pointz,
I was sensitive to Wolkoff’s plight because he was supportive of the plaintiffs’ art and had made it clear to them that
the day would come when 5Pointz would be demolished. Why, then, did I turn against him four years later
after the extensive three-week trial which, unlike the
three-day preliminary injunction hearing, fully developed
the law and facts? The answer is that, in addition to his
incredible rationales for immediately whitewashing the
plaintiffs’ art works—essentially, that he was doing it in
the artists’ best interests—I found out at the trial that Wolkoff had misled me at the preliminary injunction hearing.
If he had not done that, I would not have rendered the same
decision following that hearing.
To begin, there was never any doubt in my mind from
defendants’ submissions opposing preliminary injunctive
relief, and his counsel’s representations during the hearing, that Wolkoff had to demolish 5Pointz at once or run
the risk of losing his condo project. I had issued a temporary restraining order (“TRO”) and was contemplating extending it to give the City’s Landmark Preservation Commission (“LPC”) another opportunity to decide to preserve
5Pointz. I asked counsel, “[I]s there a view of the case
where I can give the authorities an opportunity to reflect
upon that by staying the implementation of my denial of
the preliminary injunction? . . . It seems I have the authority to hold it in abeyance for a period of time.” Preliminary

App. 26
Injunction Hearing (“PI”), Nov. 8, 2013, HTr. at 61:4-6;
62:1-2.5 In response, defendants’ counsel submitted a letter
on November 11 opining that the TRO, which was due to
expire the next day, could not be further extended under
the law. Def’s. Letter, Nov. 11, 2013, DE32, at 1-3. Defendants were correct. Therefore, I was pressed to issue the
terse order the next day, upon which Wolkoff relies for his
reckless and irresponsible behavior.6
Significantly, the letter further stated, “As explained in
defendants’ papers opposing the preliminary injunction
motion, defendants stand to lose hundreds of millions of
dollars in tax credits and benefits if the project is not completed within the required time frame and, in order to meet
those constraints, asbestos removal must begin
now.” Id. at 3, 56 S.Ct. 654(footnotes omitted).
The letter referenced several affidavits which had been
attached to defendants’ opposition to the initial motion for
an Order to Show Cause (“OTSC”), including one from Wolkoff, which his counsel had referenced during the hearing:
MR. EBERT: But the other thing I want to just point
out, as we put in the affidavit . . . the timing of this
thing is meaningful, and if it gets held up—
THE COURT: I think you said December. You have
the wrecking crews coming when?
MR. EBERT: We have to get the place demolished by
the end of December.
MS. CHANES:7 Actually, I believe Mr. Wolkoff testified that there are tenants in place into January
2014.

“HTr” refers to the transcript of the preliminary injunction hearing, which occurred on November 6, 7, and 8.
6 The Order stated in its entirety: “Plaintiffs’ motion for a preliminary injunction is denied. The temporary restraining order issued on
October 17, 2013, and extended on October 28, 2013, is dissolved. A
written opinion will soon be issued.” Order Denying Preliminary Injunction, Nov. 12, 2013, DE34.
7 Ms. Chanes was plaintiffs’ prior counsel.
5

App. 27
MR. EBERT: There are portions that can be done
way before then. There’s a lot of buildings there.”
HTr. at 62:11-23, Nov. 8, 2013 (emphasis added).
Wolkoff’s affidavit, sworn to October 17, 2013, which I
had read during the hearing, stated, in relevant part:
22. As explained in the accompanying affidavits of
Jay Seiden, Israel Schechter, and Linda Shaw, attorneys assisting G&M Realty on the Project, phases
of the Project must be completed before the [tax]
statutes expire, or else G&M Realty will lose the
benefits of hundreds of millions of dollars in tax exemptions and benefits. And as Peter Palazzo, our
Construction Manager for the Project, explains in
his affidavit, in order to meet these critical deadlines, we are scheduled to start asbestos removal
within the next three to four weeks, with demolition
of the building scheduled to be completed by the beginning of 2014 and construction to start in April of
2014.
23. The damages that G&M Realty will suffer if the
Project is delayed include the loss of 259 million dollars in 421a tax benefits (as explained by Seiden)
and the loss of 35 million dollars in tax benefits under the Brownfield Cleanup Program (as explained
by Shaw). In addition, G&M Realty pays 389,000
dollars in annual taxes on the Property, and annual
maintenance charges (heat, electric and salaries) totaling 245,000 dollars. The longer these carrying
charges continue without G&M realizing any income
from the Property, the greater the loss G&M Realty
will sustain.
24. If G&M Realty loses these critical tax benefits
and incurs these additional losses, the Project will no
longer be economically viable. We will be forced to reassess whether to proceed at all, and may have to
simply scrap the Project. A great deal of work has
been done over the past years to put G&M Realty in
a position to qualify for these tax-related benefits because we recognized that it might not be possible

App. 28
without them to proceed with our plans. I can assure
the Court that the effects of losing these benefits will
be devastating and I highly doubt we would be able
to proceed if we lose these benefits.
25. The process of vacating the Property is approximately 85% completed. 99% of the tenants will vacate by November 30, 2013 and all residential and
commercial tenants will be displaced from the Property by no later than January 5, 2014, which will
leave us in the position of realizing no revenue from
the Property until the Project starts to become occupied.
Affidavit of Gerald Wolkoff in Opposition to Application for
Temporary and Preliminary Injunctive Relief ¶¶ 22-25
(“Wolkoff Affidavit”) (emphasis added).
But at the trial four years later, I learned that Wolkoff
knew that he had never applied for the requisite demolition
permit until at least four months after he destroyed the
plaintiffs’ works of art. As plaintiffs’ counsel adduced during his cross-examination of Wolkoff:
MR. BAUM: So the question is did you advise the
Court during that proceeding that you had to take
the building down by the end of December 2013,
early January 2014?
MR. WOLKOFF: Yes. As fast as I can . . . .
Trial Tr. at 2027:25-2028:3.
MR. BAUM: In fact, you didn’t take the building
down in December of 2014 [sic]; correct?
MR. WOLKOFF: Correct.
MR. BAUM: You didn’t obtain the demolition permit
until approximately March of 2014?
MR. WOLKOFF: Correct.
Trial Tr. at 2028:9-14.
MR. BAUM: But you told the Court that you were
going to demolish it by the end of December and

App. 29
start construction two or three months later; correct?
MR. WOLKOFF: That’s correct. That was the intent,
yes.
Trial Tr. at 2929:16-19.
MR. BAUM: There was no way to take it down in
December, correct, because you didn’t even have the
permit until March; right?
MR. WOLKOFF: I thought I would get the permit
sooner.
MR. BAUM: When did you apply for the permit?
MR. WOLKOFF: I can’t remember the date.
MR. BAUM: Was it not in March of 2014?
MR. WOLKOFF: Well, I probably had my expediters
or people trying to get it way before.
...
MR. BAUM: The application was filed in March; is
that right?
MR. WOLKOFF: I don’t know.
MR. BAUM: Can I show you a document that might
refresh your recollection?
MR. WOLKOFF: I don’t doubt it.
THE COURT: So you accept the fact that the application for the demolition of the building was filed in
March of 2014?
MR. WOLKOFF: Yes.
Trial Tr. at 2030:11-2031:6 (emphasis added).
MR. BAUM: Did you also state in your affidavit that,
if you didn’t take the building down by the end of
December 2014 [sic], you would lose millions of dollars?
MR. WOLKOFF: It is a possibility, yes.

App. 30
MR. BAUM: You didn’t say it was a possibility in
your affidavit, did you?
Trial Tr. at 2031:12-17.
MR. BAUM: You didn’t lose hundreds of millions of
dollars; correct?
MR. WOLKOFF: No.
MR. BAUM And you were aware that the Court was
relying on this affidavit in making its decision in this
case; correct?
MR. WOLKOFF: No, it was an affidavit that I put
in. I didn’t know—there was [sic] other affidavits, I
imagine, that was [sic] put into the courts for them
to make a decision.
THE COURT: It was one of the things.
MR. WOLKOFF: Yeah, it was one of the things.
Trial Tr. at 2034:13-21(emphasis added).
If I knew that at the time I rendered my decision denying, without qualification, plaintiffs’ preliminary injunction application, I would have issued a different decision: I
would have granted the injunction until such time that the
buildings were demolished.8
Wolkoff’s egregious behavior was compounded by his incredible testimony during the trial that he was justified in
whitewashing the plaintiffs’ works of art “in one shot instead of waiting for three months9 and them going to do
something irrational again and getting arrested.” Trial Tr.
at 2059:1-6 (emphasis added). As explained in my decision,
there was simply no basis for that testimony. See Cohen II,
2018 WL 851374, at *17. Tellingly, he no longer took the
“Especially in fast-paced, emergency proceedings like those at issue here, it is critical that lawyers and courts alike be able to rely on
one another’s representations.” Azar v. Garza, ––– U.S. ––––, ––– S.Ct.
––––, ––– L.Ed.2d ––––, 2018 WL 2465222, at *2 (June 4, 2018).
9 Wolkoff’s reference to “waiting for three months” shows that he
was aware of the 90-day notice provision in VARA to allow the artists
time to remove or otherwise preserve their works, reflecting once again
his callousness and disregard for the law.
8

App. 31
position that he had put forth during the preliminary injunction hearing that he “may have to simply scrap the
[condo] Project” if the buildings were not immediately demolished. Wolkoff Affidavit ¶ 24.
Equally incredible was Wolkoff’s other justification for
the whitewash: “[T]hat it would be better for the plaintiffs
to lose their works quickly.” Cohen II, 2018 WL 851374, at
*18. Specifically, he testified: “So I said why should these
young people, or the people themselves, get into problems
and end up going to court or to jail. So I figured the quickest
way to do it is get men, whitewash it and get it over. It
would be better for myself and I believed it would be better
for them, and would stop confrontation.” Trial Tr. at
2042:24-2043:4 (emphasis added). While it may have been
better for Wolkoff to take such precipitous action, it can
hardly be that he truly believed it would also be better for
the artists.
In short, Wolkoff’s rationales did not make any sense
and were not credible. Clearly he was not doing the artists
any favors. I had observed his demeanor on the witness
stand and his persistent refusal to directly answer the
questions posed to him by me and under cross-examination. I did not believe him.10 Moreover, it simply stuck in
my craw that I was misled that the demolition of the buildings was imminent when there was not even an application
for a demolition permit extant. I was appalled at this conscious material misrepresentation.11
“It is within the province of the district court as the trier of fact
to decide whose testimony should be credited.” Krist v. Kolombos Rest.
Inc., 688 F.3d 89, 95 (2d Cir. 2012). “And as trier of fact, the judge is
‘entitled, just as a jury would be, to believe some parts and disbelieve
other parts of the testimony of any given witness.’” Id. (quoting Diesel
Props S.r.l. v. Greystone Bus. Credit II LLC, 631 F.3d 42, 52 (2d Cir.
2011)) (citations omitted).
11 I may have been overly charitable when I stated in my decision
that “Wolkoff in the main testified truthfully.” Cohen II, 2018 WL
851374, at *6. But when it came to the critical parts of his testimony
concerning his irrational reasons for whitewashing the plaintiffs’
works of art, I took pains to explain why his precipitous conduct was
“fanciful and unfounded” and a willful ”act of pure pique and revenge.” Id. at *17, 56 S.Ct. 654.
10

App. 32
If Wolkoff truly cared about the artists he could easily
have taken the position that their works of art could remain until the demolition would occur. And, once again, as
I concluded in my post-trial decision: “The shame of it all is
that since 5Pointz was a prominent tourist attraction the
public would undoubtedly have thronged to say its goodbyes” which “would have been a wonderful tribute for the
artists that they richly deserved.” Cohen II, 2018 WL
851374, at *19.
B
As recognized in my decision, “[a] copyright holder seeking to prove that a copier’s infringement was willful must
show that the infringer ‘had knowledge that its conduct
represented infringement or . . . recklessly disregarded the
possibility.’” Cohen II, 2018 WL 851374, at *16 (quoting Bryant v. Media Right Prods., 603 F.3d 135, 143 (2d
Cir. 2010)). Defendants conjure up an argument out of
whole cloth that this means that willfulness cannot be
found unless the defendant violated “clearly established
law.”12 They draw this conclusion from a passing parenthetical reference to qualified immunity law in a “Cf.” citation
in a Fair Credit Reporting Act (“FCRA”) case. Def.’s Br. at
26 & n.72 (citing Safeco Ins. Co. of Am. v. Burr, 551 U.S.
47, 70, 127 S.Ct. 2201, 167 L.Ed.2d 1045 (2007)). Defendants believe that qualified immunity should be extended to
copyright law, arguing “the standard [for willfulness] is
akin to the ‘clearly established’ test for qualified immunity
under Section 1983.” Reply Br. at 9.
Notably, defendants did not challenge the jury instruction on
willfulness on this ground. See Def.’s Proposed Revisions and Objections to Court’s Proposed Jury Charges, DE159, at 17. Nor did defendants challenge the jury’s finding of willfulness in their post trial
brief. See Def.’s Post-Trial Brief, DE 167. “It is well-settled that Rule
59 is not a vehicle for . . . presenting the case under new theories . . . .”
Analytical Surveys, Inc. v. Tonga Partners, L.P., 684 F.3d 36, 52 (2d
Cir. 2012) (quoting Sequa Corp. v. GBJ Corp., 156 F.3d 136, 144 (2d
Cir. 1998)). Nonetheless, since the circuit court has “‘discretion’ to consider an ‘issue[ ] not timely raised below,’” id. at 53 (quoting Official
Comm. of the Unsecured Creditors of Color Tile, Inc. v. Coopers &
Lybrand, LLP, 322 F.3d 147, 159 (2d Cir. 2003)), I will address defendants’ new legal arguments.
12

App. 33
Qualified immunity is a governmental immunity from
suit. See Harlow v. Fitzgerald, 457 U.S. 800, 806, 102 S.Ct.
2727, 73 L.Ed.2d 396 (1982) (“government officials are entitled to some form of immunity from suits for damages”).
It has never been extended to private citizens not acting on
behalf of the government, and this Court will not be the
first to do so. See Wyatt v. Cole, 504 U.S. 158, 168, 112 S.Ct.
1827, 118 L.Ed.2d 504 (1992) (“In short, the nexus between
private parties and the historic purposes of qualified immunity is simply too attenuated to justify such an extension of our doctrine of immunity.”). In any
event, Safeco had nothing to do with qualified immunity.
Rather, it simply addressed whether defendants could be
held willfully liable for sending improper credit report notices to consumers in violation of the FCRA. Safeco, 551
U.S. at 52, 127 S.Ct. 2201. Tellingly, the Supreme Court
rejected the defendants’ contention that liability “for ‘willfully fail[ing] to comply’ with FCRA goes only to acts known
to violate the Act,” id. at 56-57, 127 S.Ct. 2201, explaining
that “[w]e have said before that ‘willfully’ is a ‘word of many
meanings whose construction is often dependent on the
context in which it appears,’” id. at 57, 127 S.Ct. 2201(quoting Bryan v. United States, 524 U.S. 184, 191, 118 S.Ct.
1939, 141 L.Ed.2d 197 (1998)). The Court cited a number
of cases exemplifying this broad-based proposition, including United States v. Ill. Cent. R. Co., 303 U.S. 239, 242-43,
58 S.Ct. 533, 82 L.Ed. 773 (1938), which held that “willfully,” as used in a civil penalty provision, includes “conduct marked by careless disregard whether or not one has
the right so to act.” 303 U.S. at 242-43, 58 S.Ct. 533(quoting United States v. Murdock, 290 U.S. 389, 395, 54 S.Ct.
223, 78 L.Ed. 381 (1933)).
This fits Wolkoff’s conduct to a tee. As explained in my
decision, “Wolkoff knew from the moment the lawsuit was
initiated that the artists were pressing their VARA
claims.” Cohen, 2018 WL 851374, at *16. His conduct was
the epitome of recklessness, let alone “careless disregard”
for the plaintiffs’ rights.
Moreover, the Second Circuit has consistently held that
willfulness in cases governed by the Copyright Act can be

App. 34
found without an affirmative showing of knowledge of infringement, but can be “inferred” from the defendant’s conduct. Island Software & Computer Serv., Inc. v. Microsoft
Corp., 413 F.3d 257, 264 (2d Cir. 2005); Knitwaves, Inc. v.
Lollytogs Ltd. (Inc.), 71 F.3d 996, 1010 (2d Cir.
1995); N.A.S. Imp. Corp. v. Chenson Enters., Inc., 968 F.2d
250, 252 (2d Cir. 1992). Allowing courts to infer willfulness
is inconsistent with a notion that the plaintiff must prove
the defendant violated clearly established law.
Further Second Circuit precedent is also anathema to
defendants’ “clearly established” postulation. See Hamil
Am. Inc. v. GFI, 193 F.3d 92, 99 (2d Cir. 1999) (defendant
acted willfully despite attempting to create product with
“sufficient changes so that the redesigner does not get sued
for copyright infringement”); Twin Peaks Prods., Inc. v.
Publ’ns Int’l, Ltd., 996 F.2d 1366, 1382 (2d Cir. 1993) (defendant acted willfully despite attempted fair use defense); N.A.S. Import. Corp., 968 F.2d at 253 (defendant
acted willfully because it could not argue that “it ‘reasonably and in good faith’ believed that its conduct did not constitute” at least “reckless disregard of [plaintiff’s] rights”).
International Korwin Corp. v. Kowalczyk, 855 F.2d 375
(7th Cir. 1988), is also instructive. There, the district court
found willfulness based on the defendant’s “cavalier attitude” towards plaintiffs’ rights. Kowalczyk, 855 F.2d at
380. The lower court held that while the defendant’s “initial refusal may have come from ignorance of the intricacies of copyright law . . . [he] certainly came to understand
his obligations under the law. Yet his answer, time and
time again, was essentially—‘Sue me . . . .’” Id. The circuit
court affirmed, holding that the district court “follow[ed]
the approach of other district courts that have considered
such evidence as relevant on the issue of willfulness.” Id. at
381. It also noted that the district court’s determination
that the defendant “was not a credible witness as to the
testimony that he at least attempted to give from the witness stand,” id., was “especially important with respect to
his contention,” id., that he had a “good faith belief” in his
legal defense to the action. Id. at 382. So it is here.

App. 35
C
In the final analysis, in addition to Wolkoff’s other reckless behavior, knowingly misleading the Court on a material issue simply cannot be condoned. See United States v.
Herrera-Rivera, 832 F.3d 1166, 1177 (9th Cir. 2016) (characterizing “attempt to mislead the court” as “willful”); United States v. Parker, 594 F.3d 1243, 1251 (10th
Cir. 2010) (false statements made with “willful intent to
mislead the court”); Milbourne v. Hastings, 2017 WL
6402635, at *2 n.2 (D.N.J. Dec. 15, 2017) (“Willful attempts
to mislead the Court will not be tolerated”); Consumer Fin.
Prot. Bureau v. Morgan Drexen, Inc., 2016 WL 6601650, at
*2 (C.D. Cal. Mar. 16, 2016) (defendant’s “willful attempts
to mislead the Court are well-documented”); Sara Lee
Corp. v. Bags of New York, Inc., 36 F.Supp.2d 161, 168
(S.D.N.Y. 1999) (“[a]ctive effort to mislead the court about
continued willful counterfeiting is a traditional aggravating factor in statutory damages inquiries”).
Defendants’ “willful [behavior] . . . [and] deliberate efforts to mislead the court . . . squandered their opportunities to convince the court that they should be held liable to
plaintiff for anything less than the total amount of damages sought by plaintiff.” State Farm Mut. Auto. Ins. Co. v.
Grafman, 968 F.Supp.2d 480, 484 (E.D.N.Y. 2013). Therefore, the Court sees no reason to disturb its finding that
Wolkoff acted willfully in destroying the artwork and that
the full complement of permissible statutory damages was
warranted.
Recognized Stature
A
As I explained in my prior decisions, the Carter twotiered test has been accepted as the appropriate standard
for determining “recognized stature.” Cohen II, 2018 WL
851374, at *11 (citing Carter v. Helmsley-Spear, Inc., 861
F.Supp. 303, 325 (S.D.N.Y. 1994)) (“Carter I”). Thus, once
again, the visual art must be viewed as “meritorious” and
its stature must be recognized “by art experts, other members of the artistic community, or by some cross-section of

App. 36
society.” Carter I, 861 F.Supp. at 325. These three categories are conjugated with “or”; that is, the artist’s work
needs recognition by only one of these three groups. Nonetheless, as detailed in the Appendix, each of the 45 works
of art meet all three standards.
Notably, as the Seventh Circuit recognized in Martin, the Carter test “may be more rigorous than Congress
intended.” Martin v. City of Indianapolis, 192 F.3d 608,
612 (7th Cir. 1999). This is perhaps so because VARA’s underlying rationale is to be solicitous of the works of the visual artists who “work in a variety of media, and use any
number of materials in creating their works.” Carter v.
Helmsley-Spear, Inc., 71 F.3d 77, 83 (2d Cir. 1995) (“Carter
II“). Therefore, once again, the courts “should use common
sense,” Carter I, 861 F.Supp. at 316, and not rigid views as
to whether a particular work is worthy of protection as a
work of visual art. Indeed, VARA was not intended to denigrate plaintiffs’ profound works but was more likely designed to “bar[ ] nuisance law suits, such as [a law suit
over] the destruction of a five-year-old’s finger-painting by
her class mate.” Id. at 325 (quoting Edward J.
Damich, The Visual Artists Rights Act of 1990: Toward a
Federal System of Moral Rights Protection For Visual Art,
39 Cath. U.L. Rev. 945, 954 (1990)).
Defendants’ challenges to the plaintiffs’ works of art
should be viewed through this prism.
B
Principally, the defendants are dismissive of Cohen’s
testimony and expertise, contending that it was “erroneous
as a matter of law” for the Court to rely on his “allocation
of wall space for works as proof of their recognized stature.”
Def.’s Br. at 10. I could not disagree more. As I wrote: “that
Jonathan Cohen selected the handful of works from the
thousands at 5Pointz for permanence and prominence on
long-standing walls is powerful, and arguably singular,
testament to their recognized stature.” Cohen II, 2018 WL
851374, at *12. He was, after-all, Wolkoff’s long-time handpicked curator, and for good reason. He remains one of the
most prominent aerosol artists in the world.

App. 37
The following is a limited excerpt from his curriculum
vitae: He has had over 500 press mentions, including attention from the New York Times, Wall Street Journal,
Huffington Post, the Today Show, and ESPN. Trial Tr. at
1640:25-1641:6. He has produced art on commission for
Fortune 500 companies, including Louis Vuitton, Nikon,
Nespresso, Fiat, and Facebook. Cohen Folio at 7. His work
has been featured in art museums and galleries, including
the Parish Art Museum, Orlando Art Museum, Rush Arts
Gallery, Corridor Gallery, and Gold Coast Arts Center. Id. His work was featured in the major motion picture Now You See Me and many music videos, and he has
been featured in documentaries about aerosol art, including the HBO documentary “BANKSY Does NYC.” Id. at 7,
10, 56, 56 S.Ct. 654. His work has achieved academic recognition. Id. at 9, 56 S.Ct. 654; Tr. at 1643:24-1645:12.
Jonathan Cohen, to Wolkoff’s delight, was perhaps principally responsible for transforming his crime-infested
neighborhood and dilapidated warehouse buildings into
what became recognized as arguably the world’s premium
and largest outdoor museum of quality aerosol art, drawing
hundreds or thousands of daily visitors from all over the
world. And he was as qualified to do this as any other museum curator. No one would contend that a work of art selected by the curator of the Museum of Modern Art, the
Guggenheim, or the new Whitney Museum should not
qualify as a work of recognized stature. The same can be
said of the curator of 5Pointz.13 Jonathan Cohen was
uniquely qualified to recognize the stature of plaintiffs’
works of art.

Angelo Madrigale (“Madrigale”) described 5Pointz as “ground
zero” of the aerosol art movement, Trial Tr. at 1203:11-12, and testified
that it was “equal to” the Lincoln Center and Apollo Theater in cultural
significance, id. at 1203:17-21. Madrigale is the vice president and director of contemporary art at the Doyle New York art auction house on
the Upper East Side of Manhattan, Tr. at 1195:4-6. He also taught the
courses Understanding the Global Art Market and The Business of Art
at Pennsylvania College of Art and Design. Tr. at 1194:25-1195:3. He
conducted “the first ever auction of street art in the United States.” Tr.
1195:25-1196:1.
13

App. 38
And the record reflects how careful and meticulous he
was in his selections. He only chose to recognize eight of his
own solo works out of his hundred-plus works remaining at
the time of the whitewash. Trial Tr. at 1537:7. Admirably,
“[he] treated the rules the same [for himself] as [he] would
for other artists.” Tr. at 1424:4-5.
Nor should Cohen’s expertise be marginalized because
he was one of the plaintiffs. His status as a party was only
a factor for me to consider; it was not a bar to crediting his
testimony. See United States v. Norman, 776 F.3d 67, 77
(2d Cir. 2015) (“It is the job of the factfinder in a judicial
proceeding to evaluate and decide whether or not to credit,
any given item of evidence. Whether, and to what extent,
testimony that has been admitted is to be credited are
questions squarely within the province of the factfinder. A
jury is properly instructed that it is free to believe part and
disbelieve part of a defendant’s trial testimony.”). Cohen
had been the curator for over a decade before he joined in
this litigation to save 5Pointz. And I found his credibility
as a witness to be unimpeachable.
C
Defendants make a litany of other categorical attacks
on the recognized stature evidence. None are meritorious.
First, they argue that merit is an “impermissible factor.” Def.’s Br. at 4. This ignores that merit is an explicit
part of the Carter test, requiring plaintiffs to show that the
artwork is “viewed as meritorious.” Carter I, 861. F. Supp.
at 325.
Second, defendants argue that a work must have “acquired recognition of its merit at the time of its destruction.” Def.’s Br. at 5. VARA explicitly leaves this question
open. See Carter I, 861 F.Supp. at 325 n.12 (“Vara does not
delineate when a work must attain ‘recognized stature’ in
order to be entitled to protection under this Section.”);
Christopher J. Robinson, The “Recognized Stature” Standard in the Visual Artists Rights Act, 68 Fordham L. Rev
1935, 1967 (2000) (“In a footnote, Judge Edelstein strongly
implies that a work may obtain recognized stature after the

App. 39
VARA suit is filed and still fulfil (sic) the terms of the provision.”). Regardless, the focus of my decision was the
recognition the works achieved prior to the whitewash.
In the same vein, defendants argue that the opinion of
the plaintiffs’ expert, Renee Vara14 (“Vara”), that the works
have merit is irrelevant because it was rendered after the
works’ destruction. See Def.’s Br. at 5 (“[A] single person’s
2017 opinion that a work has artistic merit is of no relevance to whether the work had recognized stature in
2013.”) But as detailed in the Appendix, Vara testified both
to the merit of the works and the recognition they had
achieved prior to their destruction.
Defendants argue that “it would defeat the very purpose
of the ‘recognized stature’ requirement” if the determination was not made in time to provide “a building owner . . .
guidance about what works are required to be preserved.”
Def.’s Br. at 6. Defendants cite no law for this dubious proposition. Regardless, Wolkoff knew before he whitewashed
the works of art that he was facing the prospect of being
liable for significant monetary damages.15
Defendants further argue that the “public did not have
access” to the inside works. Def.’s Br. at 8. However, Cohen
conducted regular tours of the inside works, tours which
were heavily sought after. For example, pop artist Usher
actively sought and was given a tour of the inside of the
building, as did Lois Stavksy16 and Arabic calligraphy artist eL Seed. Tr. at 1393:2-14; 1435:15-19. Vara also identified “about 805 Bates documents, which were e-mails that
were written to 5Pointz or Jonathan [Cohen], requests for
Not to be confused with the statute VARA.
See, e.g., OTSC Tr. at 6 (explaining that plaintiffs “can go forward
with this case” and they will have “all the time in the world” to establish monetary damages); HTr. at 44-45 (commenting that “we’ll see”
whether plaintiffs are “entitled to damages later on.”). In any event,
Wolkoff created his own hardship by taking the law into his own hands
rather than to await the Court’s preliminary injunction decision and
the trial.
16 Stavsky is a graffiti art writer based in New York. She
runs Street Art NYC and created the 5Pointz exhibit for Google Arts
and Culture. Tr. at 1387:15-1391:11. She also led tours of 5Pointz for
students, journalists, and artists. Tr. at 1392:1-1393:14.
14
15

App. 40
visitors to come inside.” Tr. at 1043:22-24. The e-mails represented visitors from “something like 70 different countries,” including “professors from colleges, high school
teachers, kindergarten teachers, private schools, all of
them requesting tours to walk throughout the outside and
inside of the building in order to look at the work.” Tr. at
1044:1-5. Vara compared the inside works to “an exhibition
in a gallery in Chelsea or the Lower East Side,” Tr. at
1044:8-9, and noted that there were “some very interesting
e-mails that were sent to Jonathan talking about how valuable they found the experience. How their students
learned so very much,” Tr. at 1044:12-15. Therefore, defendants’ contention that the inside works were not recognized, much less accessible, prior to their destruction is
contradicted by the record.
Defendants next argue that for the works on high walls,
they “remained on the walls not by choice, but by necessity,” as a “function of how difficult it was to reach the
spot.” Def.’s Br. at 9. But height and merit were fundamentally intertwined at 5Pointz. Cohen chose those walls for
longstanding, higher quality works by the best artists because they were higher and harder to access. The decision
as to whether a specific work would be longstanding was a
holistic one, made partly prior to approving an artist for a
longstanding wall and continuously ratified by allowing
the work to remain. Therefore, the height of a particular
work reinforces its quality, rather than detracts from it.17
Finally, defendants argue that for some works, the Folios “contain little or no evidence of any recognition.” Def.’s
Br. at 11. But the Folios were only part of the evidence.
They supplemented the three weeks of trial testimony provided by each of the 21 artists, as well as the testimony of
Vara, Stavsky, and Madrigale. Vara’s opinion was also
based on documents not included in the Folios, upon which
she also relied in making her determinations that each
work achieved recognized stature, including online videos,
documentary footage, social media coverage, letters from
Cohen also confirmed that these pieces were of “high standing”
and “[fell] into a different category in terms of [his] decision as the curator” compared to other works at the site. Trial Tr. at 1508:8-19.
17

App. 41
art professors around the country, letters and e-mails from
visitors to 5Pointz, and course syllabi.18 Defendants’ narrow focus on the Folios misses the weight of the evidence.19
D
Finally, defendants criticize the Court for not making
its work-by-work findings explicit. Normally, including a
“recital” of exhaustive evidence and testimony is “unhelpful” in a Court’s findings of fact. Leonard v. Dorsey & Whitney LLP, 553 F.3d 609, 613 (8th Cir. 2009) (quoting 9C
Charles Alan Wright & Arthur R. Miller, Federal Practice
and Procedure § 2579 at 330 (3d ed. 2008)). Nonetheless,
since defendants make particularized challenges to the recognized stature of each work of art, the Appendix sets forth
work-by-work the primary evidence supporting my recognized stature determinations.
Thus, although I believe that Cohen’s selections of the
45 works of art satisfied VARA’s “recognized stature” requirement, the Appendix details that even if Cohen had not
selected them, there was sufficient evidence to independently come to those conclusions.

Experts may properly rely on such facts and data even if they
have not been admitted. See Federal Rule of Evidence 703 (“An expert
may base an opinion on facts or data in the case that the expert has
been made aware of or personally observed. If experts in the particular
field would reasonably rely on those kinds of facts or data in forming
an opinion on the subject, they need not be admissible for the opinion
to be admitted.”).
19 Defendants’ doomsday argument that this decision will operate
as a deterrent to future building owners has no merit. It simply encourages future parties to negotiate VARA rights in advance, or, at minimum, abide by the scriptures of 17 U.S.C. § 113(d), as contemplated by
Congress. In fact, the New York Times reported just two weeks ago
that graffiti artists have been commissioned to “bring[ ] a 5Pointz vibe
to Lower Manhattan” by installing works at the World Trade Center.
Jane Margolies, Think Graffiti, With Consent, N.Y. Times, June 4,
2018, at C1. Clearly the decision has not operated as such a deterrent.
18

App. 42
CONCLUSION
Accordingly, defendants’ motions are denied in their
entirety.20
SO ORDERED
APPENDIX
This appendix describes the evidence supporting the
Court’s determination of recognized stature for each of the
45 works. It includes both documentary evidence submitted at trial and testimonial evidence provided by the parties, fact witnesses, and plaintiffs’ expert Vara. It is organized by artist, beginning with an overview of the artist’s
credentials and career recognition, followed by a work-bywork listing of the most relevant supporting evidence of
recognized stature. This evidence embraces three categories, as it was presented at trial and contemplated
by Carter: recognition by (1) art experts; (2) other members
of the artistic community; or (3) some cross-section of society. Carter I, 851 F.Supp. at 325.
In addition to the evidence listed below, Cohen’s curation is evidence of recognized stature for all works. Some of
the testimony at trial applied broadly to multiple works;
this testimony is separately referenced for each work to
which it applied.
Jonathan Cohen aka “Meres One”
Cohen’s credentials were presented in the body of the
opinion. See Opinion at 21-22.

I have considered defendants’ other arguments, including their
arguments regarding application of the statutory damage factors and
remittur, and likewise find them without merit. I note that I have discovered one additional fact supporting my finding under the statutory
factors that Wolkoff and G&M Realty continue to profit from the destruction of 5Pointz: G&M Realty’s attempt to secure a trademark in
the brand name “5Pointz,” of which the Court takes judicial notice. U.S. Trademark Application Serial No. 86210325 (filed Mar. 4,
2014). Wolkoff knew that this application had been made at the time
of the trial. This is further evidence of his deceptiveness since he
claimed to have “no knowledge” of efforts to brand his new luxury condos with the 5Pointz logo. Trial Tr. at 2061:8-11.
20

App. 43
1. 7 Angle Time Lapse
Category One: 7 Angle Time Lapse was the first of its
kind and provided “worldwide recognition” to Cohen. Tr. at
1409:21-23. It was chosen for placement in the loading
dock, “the heart of 5Pointz,” Tr. at 1412:22-24. It was visible from the 7 train. Id. It was intended to be a longstanding piece. It was recognized by Vara as both a meritorious
work of art, Tr. at 1649:11-24, and a work of recognized
stature,21 Tr. at 1642:24-1646:13; 1654:17-22.
Category Two: Cohen’s work received academic recognition. Tr. at 1643:24-1645:12. 7 Angle Time Lapse was featured in Google Arts and Culture. Cohen Folio at 119. An
art blogger who covered 5Pointz called it the best piece at
the site. Cohen Folio at 128. Gregory Snyder (“Snyder”), a
professor at Baruch College who wrote Graffiti Lives,
called the artists in this suit “top artists at the heights of
their career” and said Cohen’s works at 5Pointz “reflect
mastery of the form in addition to their obvious aesthetic
characteristic.” Tr. at 1060:8-18. It was attested to as a
work of high quality by Stavsky.22 Tr. at 1397:14-19. It was
part of the “curated,” Tr. at 1205:9-10, 5Pointz collection
considered by Madrigale23 as “equal to” the Lincoln Center
and the Apollo Theater in cultural significance in New
York, Tr. at 1203:20-21.
Category Three: 7 Angle Time Lapse was seen by hundreds or thousands of daily visitors to 5Pointz. It was seen
by millions of commuters on the passing train. He was featured in 14 documentaries. Tr. at 1647:12-15. The jury
found it achieved recognized stature. See Verdict Form at
7, DE 165.
The Court notes there is a difference between the step one determination of merit and the step two determination of recognition. While
the works arguably must be recognized prior to their destruction, nothing precludes an expert from analyzing the works' merit after the fact.
Indeed, any VARA lawsuit where the expert is retained after the
works' destruction will feature this dynamic. The explanation of what
makes a certain work meritorious informs why the works achieved the
recognition that they did.
22 Stavsky’s credentials are listed at page 25, footnote 16.
23 Madrigale’s credentials are listed at page 22, footnote 13.
21

App. 44
2. Outdoor Wildstyle
Category One: Outdoor Wildstyle was chosen for a wall
visible from the 7 train, Long Island Railroad, and Metro
North. Tr. at 1420:22-1421:5. It was intended to remain for
at least a year. Tr. at 1422:3-10. It was recognized by Vara
as both a meritorious work of art, Tr. at 1651:20-23, and a
work of recognized stature, Tr. at 1642:24-1646:13;
1654:17-22.
Category Two: Cohen’s work received academic recognition. Tr. at 1643:24-1645:12. Snyder called the artists in
this suit “top artists at the heights of their career” and said
Cohen’s works at 5Pointz “reflect mastery of the form in
addition to their obvious aesthetic characteristic.” Tr. at
1060:8-18. Outdoor Wildstyle was attested to as a work of
high quality by Stavsky. Tr. at 1397:14-19. It was part of
the “curated,” Tr. at 1205:9-10, 5Pointz collection considered by Madrigale as “equal to” the Lincoln Center and the
Apollo Theater in cultural significance in New York, Tr. at
1203:20-21.
Category Three: Outdoor Wildstyle was seen by hundreds or thousands of daily visitors to 5Pointz. It was seen
by millions of commuters on the passing train. He was featured in 14 documentaries. Tr. at 1647:12-15.
3. Clown with Bulbs
Category One: Clown with Bulbs was chosen for a wall
at the highly coveted loading dock. Tr. at 1423:13-17. It was
painted in 2012 or 2013 and intended to remain until the
summer of 2014. Tr. at 1424:12-15. It was recognized by
Vara as both a meritorious work of art, Tr. at 1651:241652:4, and a work of recognized stature, Tr. at 1642:241646:13; 1654:17-22.
Category Two: Cohen’s work received academic recognition. Tr. at 1643:24-1645:12. Clown with Bulbs was featured in Google Arts and Culture. Cohen Folio at 120.
Snyder called the artists in this suit “top artists at the
heights of their career” and said Cohen’s works at 5Pointz
“reflect mastery of the form in addition to their obvious aesthetic characteristic.” Tr. at 1060:8-18. It was attested to

App. 45
as a work of high quality by Stavsky. Tr. at 1397:14-19. It
was part of the “curated,” Tr. at 1205:9-10, 5Pointz collection considered by Madrigale as “equal to” the Lincoln Center and the Apollo Theater in cultural significance in New
York, Tr. at 1203:20-21.
Category Three: Clown with Bulbs was seen by hundreds or thousands of daily visitors to 5Pointz. He was featured in 14 documentaries. Tr. at 1647:12-15. The jury
found it achieved recognized stature. See Verdict Form at
13, DE 165.
4. Eleanor RIP
Category One: Eleanor RIP was chosen for a high wall
at the highly coveted loading dock. Tr. at 1429:8-12. It was
painted shortly after the loading dock collapse and intended to be a permanent piece. Id. Cohen described it as
one of his “favorite” pieces. Tr. at 1430:2-5. It was recognized by Vara as both a meritorious work of art, Tr. at
1653:3-7, and a work of recognized stature, Tr. at 1642:241646:13; 1654:17-22.
Category Two: Cohen’s work received academic recognition. Tr. at 1643:24-1645:12. Snyder called the artists in
this suit “top artists at the heights of their career” and said
Cohen’s works at 5Pointz “reflect mastery of the form in
addition to their obvious aesthetic characteristic.” Tr. at
1060:8-18. It was attested to as a work of high quality by
Stavsky. Tr. at 1397:14-19. It was part of the “curated,” Tr.
at 1205:9-10, 5Pointz collection considered by Madrigale as
“equal to” the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: Eleanor RIP was seen by hundreds or
thousands of daily visitors to 5Pointz. He was featured in
14 documentaries. Tr. at 1647:12-15.
5. Patience
Category One: Patience was chosen for a “wall”24 on
Crane Street with significant foot traffic. Tr. at 1431:4-9. It
was painted in 2013. Tr. at 1431:11. It was recognized by
24

It was technically painted on a gate.

App. 46
Vara as both a meritorious work of art, Tr. at 1653:8-14,
and a work of recognized stature, Tr. at 1642:24-1646:13;
1654:17-22.
Category Two: Cohen’s work received academic recognition. Tr. at 1643:24-1645:12. Snyder called the artists in
this suit “top artists at the heights of their career” and said
Cohen’s works at 5Pointz “reflect mastery of the form in
addition to their obvious aesthetic characteristic.” Tr. at
1060:8-18. It was attested to as a work of high quality by
Stavsky. Tr. at 1397:14-19. It was part of the “curated,” Tr.
at 1205:9-10, 5Pointz collection considered by Madrigale as
“equal to” the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: Patience was seen by hundreds or
thousands of daily visitors to 5Pointz. He was featured in
14 documentaries. Tr. at 1647:12-15.
6. Character
Category One: Character was chosen for an inside wall.
Tr. at 1435:4-5. It was painted in 2012 or 2013. Tr. at
1435:14. It was featured in the private tours given by Cohen. Tr. at 1435:15-19. It was recognized by Vara as both a
meritorious work of art, Tr. at 1654:3-7, and a work of recognized stature, Tr. at 1642:24-1646:13; 1654:17-22.
Category Two: College professors, high school teachers,
kindergarten teachers, and private schools all requested
tours for their classes to see his interior works. Tr. at
1044:1-20. Cohen’s work received academic recognition. Tr.
at 1643:24-1645:12. Snyder called the artists in this suit
“top artists at the heights of their career” and said Cohen’s
works at 5Pointz “reflect mastery of the form in addition to
their obvious aesthetic characteristic.” Tr. at 1060:8-18. It
was attested to as a work of high quality by Stavsky. Tr. at
1397:14-19. It was part of the “curated,” Tr. at 1205:9-10,
5Pointz collection considered by Madrigale as “equal to”
the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.

App. 47
Category Three: Character was seen in the private
tours of the inside works. He was featured in 14 documentaries. Tr. at 1647:12-15.
7. Inside Wildstyle
Category One: Inside Wildstyle was chosen for an inside
wall. Tr. at 1436:6-8. It was painted in 2011 or 2012 and
had achieved longstanding status. Tr. at 1436:7. It was recognized by Vara as both a meritorious work of art, Tr. at
1654:10-14, and a work of recognized stature, Tr. at
1642:24-1646:13; 1654:17-22.
Category Two: College professors, high school teachers,
kindergarten teachers, and private schools all requested
tours for their classes to see his interior works. Tr. at
1044:1-20. Cohen’s work received academic recognition. Tr.
at 1643:24-1645:12. Snyder called the artists in this suit
“top artists at the heights of their career” and said Cohen’s
works at 5Pointz “reflect mastery of the form in addition to
their obvious aesthetic characteristic.” Tr. at 1060:8-18. It
was attested to as a work of high quality by Stavsky. Tr. at
1397:14-19. It was part of the “curated,” Tr. at 1205:9-10,
5Pointz collection considered by Madrigale as “equal to”
the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: Inside Wildstyle was seen in the private tours of the inside works. He was featured in 14 documentaries. Tr. at 1647:12-15.
Akiko Miyakami aka “Shiro”
Akiko Miyakami is a well-recognized Japanese artist
who has been featured in 170 exhibitions and dozens of additional projects, primarily in Japan and New York, but
also in Germany, India, and China. Miyakami Folio at 614; Tr. at 1608:5-11. She has been featured and interviewed in many art magazines and media outlets, including Complex,
Street
Art,
Untapped
Cities,
and NPR. Miyakami Folio at 15-31; Tr. at 1608:10-11. She
has been recognized by academic Jessica Pabon as a “top
four graffiti artist,” Tr. at 1608:15-17.

App. 48
8. Manga Koi
Category One: Manga Koi was chosen by Cohen for
placement on highly coveted rooftop space. Tr. at 1287:2122. It survived for several months before the whitewash. Tr. at 1289:2-3. It was prominently placed between
murals of two other famous artists and visible from the
train. Tr. at 1287:22-1288:3. It was recognized by Vara as
both a meritorious work of art, Tr. at 1613:3-22, and a work
of recognized stature, Tr. at 1614:12-1619:11. Cohen testified it was a piece of “high standing” and confirmed it “[fell]
into a different category in terms of [his] decision as the
curator” compared to other works at the site. Tr. at 1508:819.
Category Two: Her work was described as “instantly
recognizable” by Danny Simmons, a gallery owner and collector of graffiti art. Tr. at 1615:11-12. Snyder called the
artists in this suit “top artists at the heights of their career”
and said Miyakami’s works at 5Pointz “reflect mastery of
the form in addition to their obvious aesthetic characteristic.” Tr. at 1060:8-18. It was attested to as a work of high
quality by Stavsky. Tr. at 1397:14-19. It was part of the
“curated,” Tr. at 1205:9-10, 5Pointz collection considered
by Madrigale as “equal to” the Lincoln Center and the
Apollo Theater in cultural significance in New York, Tr. at
1203:20-21.
Category Three: It was seen by hundreds or thousands
of daily visitors to 5Pointz. It was seen by millions of commuters on the passing train. Miyakami has thousands of
social media followers. Tr. at 1617:2-7. Manga Koiis included in photo collections on Flickr, Hide Miner, and
Getty Images. Tr. at 1618:10-1619:10. The jury found it
had achieved recognized stature. See Verdict Form at 39,
DE 165.
Carlos Game aka “See TF”
Carlos Game is a prominent artist and United States
Marine Corps veteran. Tr. at 780:20-21. He has done many
exhibitions and commissions, including a portrait of
Ivanka Trump that was displayed in Trump Tower and exhibitions at Sacred Gallery, Rue De L’Art, Gold Coast Art

App. 49
Center, and a 9/11 Memorial at the Railroad Museum of
Long Island. Tr. at 804:1-11; Game Folio at 2; 14-17; 20-21;
27-30. His work has been covered by Into the Urban, In the
Wit of an Eye, Artsy, and Street Art NYC. Game Folio at 313; 24-26.
9. Black and White 5Pointz Girl
Category One: Black and White 5Pointz Girl was chosen by Cohen for placement on a highly coveted longstanding wall visible from the train. Tr. at 797:2-4. Game described it as his “calling card.” Tr. at 798:2. It was painted
in summer 2013 and survived until the whitewash. Tr. at
798:13-15. It was recognized by Vara as both a meritorious
work of art, Tr. at 1055:7-16, and a work of recognized stature, Tr. at 1042:11-13. Cohen testified it was a piece of
“high standing” and confirmed it “[fell] into a different category in terms of [his] decision as the curator” compared to
other works at the site. Tr. at 1508:8-19.
Category Two: College professors, high school teachers,
kindergarten teachers, and private schools all requested
tours for their classes to see his interior works. Tr. at
1044:1-20. Joseph Austin (“Austin”), a professor at University of Wisconsin-Milwaukee, called his works at 5Pointz
“world-class displays of extraordinary, global, multi-cultural barring [sic] that has defined urban art as a significant movement in art history.” Tr. at 1059:9-1060:2.
Snyder called the artists in this suit “top artists at the
heights of their career” and said Game’s works at 5Pointz
specifically “reflect mastery of the form in addition to their
obvious aesthetic characteristic.” Tr. at 1060:8-18. It was
attested to as a work of high quality by Stavsky. Tr. at
1397:14-19. It was part of the “curated,” Tr. at 1205:9-10,
5Pointz collection considered by Madrigale as “equal to”
the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: It was seen by hundreds or thousands
of daily visitors to 5Pointz. It was seen by millions on the
passing train. Tr. at 797:2-4. Game has thousands of social
media followers. Tr. at 1061:2-5. Black and White 5Pointz
Girl received 82 likes on Instagram. Game Folio at 45. The

App. 50
jury found it had achieved recognized stature. See Verdict
Form at 59, DE 165.
10. Denim Girl
Category One: Denim Girl was chosen by Cohen for
placement on a longstanding inside wall. Tr. at 788:1-9. It
was painted in 2009 and survived until the whitewash. Tr.
at 788:8-10. Game believed it and all his other inside works
were “permanent” pieces. Tr. at 793:6-9. It was recognized
by Vara as both a meritorious work of art, Tr. at 1046:201048:3, and a work of recognized stature, Tr. at 1042:1113. Cohen testified it was a piece of “high standing” and
confirmed it “[fell] into a different category in terms of [his]
decision as the curator” compared to other works at the
site. Tr. at 1508:8-19.
Category Two: College professors, high school teachers,
kindergarten teachers, and private schools all requested
tours for their classes to see his work, including his interior
works. Tr. at 1044:1-5. Austin called his works at 5Pointz
“world-class displays of extraordinary, global, multi-cultural barring [sic] that has defined urban art as a significant movement in art history.” Tr. at 1059:9-1060:2.
Snyder called the artists in this suit “top artists at the
heights of their career” and said Game’s works at 5Pointz
specifically “reflect mastery of the form in addition to their
obvious aesthetic characteristic.” Tr. at 1060:8-18. It was
attested to as a work of high quality by Stavsky. Tr. at
1397:14-19. It was part of the “curated,” Tr. at 1205:9-10,
5Pointz collection considered by Madrigale as “equal to”
the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: Denim Girl was seen in the private
tours of the inside works. Game has thousands of social media followers. Tr. at 1061:2-5. Denim Girl received 56 likes
on Instagram. Game at 46.
11. Geisha
Category One: Geisha was “the first image that everybody and anybody that’s going into 5Pointz, who are walking to the MoMa or going into the diner or getting off the

App. 51
train will see.” Tr. at 781:9-12. It was chosen by Cohen for
placement on a wall at the entrance. Tr. at 783:1-22. It survived for several months and was intended to last longer.
Tr. at 783:8-17. It was visible from the train. Tr. at 783:2325. It was recognized by Vara as both a meritorious work
of art, Tr. at 1042:16-1043:13, and a work of recognized
stature, Tr. at 1042:11-13. Cohen testified it was a piece of
“high standing” and confirmed it “[fell] into a different category in terms of [his] decision as the curator” compared to
other works at the site. Tr. at 1508:8-19.
Category Two: College professors, high school teachers,
kindergarten teachers, and private schools all requested
tours for their classes to see his work, including his interior
works. Tr. at 1044:1-5. Austin called his works at 5Pointz
“world-class displays of extraordinary, global, multi-cultural barring [sic] that has defined urban art as a significant movement in art history.” Tr. at 1059:9-1060:2.
Snyder called the artists in this suit “top artists at the
heights of their career” and said Game’s works at 5Pointz
“reflect mastery of the form in addition to their obvious aesthetic characteristic.” Tr. at 1060:8-18. It was attested to
as a work of high quality by Stavsky. Tr. at 1397:14-19. It
was part of the “curated,” Tr. at 1205:9-10, 5Pointz collection considered by Madrigale as “equal to” the Lincoln Center and the Apollo Theater in cultural significance in New
York, Tr. at 1203:20-21.
Category Three: Geisha was seen by hundreds or thousands of daily visitors to 5Pointz. Game has thousands of
social media followers. Tr. at 1061:2-5.
12. Marilyn
Category One: Marilyn was chosen by Cohen for placement on a longstanding inside wall. Tr. at 785:10-15. It was
painted in 2009 and survived until the whitewash.25 Tr. at

Defendants take issue with this date in their brief, claiming that
an Instagram post on October 7, 2013 implies the piece was not created
until 2013. Game Folio at 44. However, this is only the date that the
Instagram post was created; it says nothing about when the artwork
itself was placed on the wall. Despite challenging other creation dates,
25

App. 52
785:23-25. It was recognized by Vara as both a meritorious
work of art, Tr. at 1044:21-1046:2, and a work of recognized
stature, Tr. at 1042:11-13. Cohen testified it was a piece of
“high standing” and confirmed it “[fell] into a different category in terms of [his] decision as the curator” compared to
other works at the site. Tr. at 1508:8-19.
Category Two: Marilyn was featured in In the Wit of the
Eye, the website of Hans Van Rittern, a European arts and
culture tourist guide that led Europeans on tours to New
York, including 5Pointz. Folio at 35; Tr. at 1061:6-18;
1062:22-23. College professors, high school teachers, kindergarten teachers, and private schools all requested tours
for their classes to see his work, including his interior
works. Tr. at 1044:1-5. Austin called his works at 5Pointz
“world-class displays of extraordinary, global, multi-cultural barring [sic] that has defined urban art as a significant movement in art history.” Tr. at 1059:9-1060:2.
Snyder called the artists in this suit “top artists at the
heights of their career” and said Game’s works at 5Pointz
“reflect mastery of the form in addition to their obvious aesthetic characteristic.” Tr. at 1060:8-18. It was attested to
as a work of high quality by Stavsky. Tr. at 1397:14-19. It
was part of the “curated,” Tr. at 1205:9-10, 5Pointz collection considered by Madrigale as “equal to” the Lincoln Center and the Apollo Theater in cultural significance in New
York, Tr. at 1203:20-21.
Category Three: Marilyn was seen in the private tours
of the inside works. Game has thousands of social media
followers. Tr. at 1061:2-5. Marilyn received 88 likes on social media. Game Folio at 44. The jury found it had
achieved recognized stature. See Verdict Form at 51, DE
165.
13. Red
Category One: Red was chosen by Cohen for placement
on a longstanding inside wall. Tr. at 788:3-6. It was painted
in 2009 and survived until the whitewash. Tr. at 788:8-10.
It was recognized by Vara as both a meritorious work of
defendants did not challenge Game’s testimony as to the date of the
piece on cross-examination.

App. 53
art, Tr. at 1046:3-19, and a work of recognized stature, Tr.
at 1042:11-13. Cohen testified it was a piece of “high standing” and confirmed it “[fell] into a different category in
terms of [his] decision as the curator” compared to other
works at the site. Tr. at 1508:8-19.
Category Two: College professors, high school teachers,
kindergarten teachers, and private schools all requested
tours for their classes to see his work, including his interior
works. Tr. at 1044:1-5. Austin called his works at 5Pointz
“world-class displays of extraordinary, global, multi-cultural barring [sic] that has defined urban art as a significant movement in art history.” Tr. at 1059:9-1060:2.
Snyder called the artists in this suit “top artists at the
heights of their career” and said Game’s works at 5Pointz
“reflect mastery of the form in addition to their obvious aesthetic characteristic.” Tr. at 1060:8-18. It was attested to
as a work of high quality by Stavsky. Tr. at 1397:14-19. It
was part of the “curated,” Tr. at 1205:9-10, 5Pointz collection considered by Madrigale as “equal to” the Lincoln Center and the Apollo Theater in cultural significance in New
York, Tr. at 1203:20-21.
Category Three: Red was seen in the private tours of
the inside works. Game has thousands of social media followers. Tr. at 1061:2-5.
Christian Cortes
Christian Cortes has been a prominent New York graffiti artist since the 1980s. He has been featured in The
Source, Rap Pages, Vibe, Videograf, Street Art NYC, Senses
Lost, Off Track Planet’s Travel Guide for the Young, Sexy,
and Broke, Elnuevodia, Wapa.tv, Time Out New York,
and Spray Ground. Cortes Folio at 7; 10-27. He produced
an art exhibit for the lobby of One Police Plaza, artwork
and graphic packages for many prominent 90s artists, including Wu-Tang Clan and Jeru the Damaja. Cortes Folio
at 8. He won the 2007 grand prize in the Heineken Mural
Search contest at P.S.1 Contemporary Art Center. Folio at
9. He has painted at 5Pointz since its early days as Phun
Phactory. Folio at 9; Tr. at 553:2-6.

App. 54
14. Skulls Cluster aka Up High 1
Category One: Skulls Cluster was chosen by Cohen for
placement on the highest floor in the loading dock area. Tr.
at 540:17-20. It was painted in 2009 and achieved
longstanding status as one of the oldest works on the site,
intended to survive “for the life of the building.” Tr. at
542:7-15. It was recognized by Vara as both a meritorious
work of art, Tr. at 748:12-750:12, and a work of recognized
stature, Tr. at 771:15-776:8. Cohen testified it was a piece
of “high standing” and confirmed it “[fell] into a different
category in terms of [his] decision as the curator” compared
to other works at the site. Tr. at 1508:8-19.
Category Two: His work at 5Pointz was described by
Austin as “world class displays.” Tr. at 745:12-14; 747:1115. It was included in Google Arts and Culture. Tr. at
772:11-14. His Skulls works at 5Pointz have been featured
in the New York Times, Street Art NYC, Senses Lost, and
Off Track Planet’s Travel Guide for the Young, Sexy, and
Broke. Tr. at 772:17-774:21; Cortes Folio at 10-19. Snyder
called the artists in this suit “top artists at the heights of
their career.” Tr. at 1060:8-18. It was attested to as a work
of high quality by Stavsky. Tr. at 1397:14-19. It was part of
the “curated,” Tr. at 1205:9-10, 5Pointz collection considered by Madrigale as “equal to” the Lincoln Center and the
Apollo Theater in cultural significance in New York, Tr. at
1203:20-21.
Category Three: Skulls Cluster was seen by hundreds
or thousands of daily visitors to 5Pointz. It was searchable
on Google. Tr. at 775:20-776:2. Cortes has thousands of social media followers. Tr. at 775:1-6. The jury found it had
achieved recognized stature. See Verdict Form at 41, DE
165.
15. Up High Blue Skulls aka Up High 2
Category One: Up High Blue Skulls was chosen by Cohen for placement on a high longstanding wall at 5Pointz
as part of an effort to “raise 5Pointz to another level.” Tr.
at 543:19-544:15. It was painted in 2009 and achieved
longstanding status as one of the oldest works on the site.

App. 55
Tr. at 544:16-25. It was recognized by Vara as both a meritorious work of art, Tr. at 750:16-752:15, and a work of
recognized stature, Tr. at 771:15-776:8. Cohen testified it
was a piece of “high standing” and confirmed it “[fell] into
a different category in terms of [his] decision as the curator” compared to other works at the site. Tr. at 1508:8-19.
Category Two: His work at 5Pointz was described by
Austin as “world class displays.” Tr. at 745:12-14; 747:1115. It was included in Google Arts and Culture. Tr. at
772:11-14. His Skulls works at 5Pointz have been featured
in the New York Times, Street Art NYC, Senses Lost, and
Off Track Planet’s Travel Guide for the Young, Sexy, and
Broke. Tr. at 772:17-774:21; Cortes Folio at 10-19. Snyder
called the artists in this suit “top artists at the heights of
their career.” Tr. at 1060:8-18. It was attested to as a work
of high quality by Stavsky. Tr. at 1397:14-19. It was part of
the “curated,” Tr. at 1205:9-10, 5Pointz collection considered by Madrigale as “equal to” the Lincoln Center and the
Apollo Theater in cultural significance in New York, Tr. at
1203:20-21.
Category Three: Up High Blue Skulls was seen by hundreds or thousands of daily visitors to 5Pointz. It was
searchable on Google. Tr. at 775:20-776:2. Cortes has thousands of social media followers. Tr. at 775:1-6. The jury
found it had achieved recognized stature. See Verdict Form
at 45, DE 165.
16. Up High Orange Skulls aka Up High 3
Category One: Up High Orange Skulls was chosen by
Cohen for placement on a high longstanding wall visible
from the 7 train at 5Pointz. Tr. at 546:18-547:17. Cortes
describes it as “the height of my, so far, of my graffiti career . . . .” Tr. at 546:20-21. It was painted in 2009 and
achieved longstanding status as one of the oldest works on
the site. Tr. at 550:15-16. It was recognized by Vara as both
a meritorious work of art, Tr. at 752:19-753:23, and a work
of recognized stature, Tr. at 771:15-776:8. Cohen testified
it was a piece of “high standing” and confirmed it “[fell] into
a different category in terms of [his] decision as the curator” compared to other works at the site. Tr. at 1508:8-19.

App. 56
Category Two: His work at 5Pointz was described by
Austin as “world class displays.” Tr. at 745:12-14; 747:1115. It was included in Google Arts and Culture. Tr. at
772:11-14. His Skulls works at 5Pointz have been featured
in the New York Times, Street Art NYC, Senses Lost, and
Off Track Planet’s Travel Guide for the Young, Sexy, and
Broke. Tr. at 772:17-774:21; Cortes Folio at 10-19. Snyder
called the artists in this suit “top artists at the heights of
their career.” Tr. at 1060:8-18. It was attested to as a work
of high quality by Stavsky. Tr. at 1397:14-19. It was part of
the “curated,” Tr. at 1205:9-10, 5Pointz collection considered by Madrigale as “equal to” the Lincoln Center and the
Apollo Theater in cultural significance in New York, Tr. at
1203:20-21.
Category Three: Up High Orange Skulls was seen by
hundreds or thousands of daily visitors to 5Pointz. It was
seen by millions on the passing 7 train. It was searchable
on Google. Tr. at 775:20-776:2. Cortes has thousands of social media followers. Tr. at 775:1-6. See Verdict Form at 47,
DE 165.
17. Jackson Avenue Skulls aka Scraps
Category One: Jackson Avenue Skulls was chosen by
Cohen for placement on a wall at 5Pointz near the stairwell
to reach the site’s interior. Tr. at 551:1-551:11; 754:22755:25. It was painted on an unknown date (prior to July
2013). Tr. at 551:22-552:5; Cortes Folio at 44. It was recognized by Vara as both a meritorious work of art, Tr. at
754:22-755:9, and a work of recognized stature, Tr. at
768:16-771:1. Cohen testified it was a piece of “high standing” and confirmed it “[fell] into a different category in
terms of [his] decision as the curator” compared to other
works at the site. Tr. at 1508:8-19.
Category Two: His work at 5Pointz was described by
Austin as “world class displays.” Tr. at 745:12-14; 747:1115. It was included in Google Arts and Culture. Cortes Folio at 43-44. Snyder called the artists in this suit “top artists at the heights of their career.” Tr. at 1060:8-18. It was
attested to as a work of high quality by Stavsky. Tr. at
1397:14-19. It was part of the “curated,” Tr. at 1205:9-10,

App. 57
5Pointz collection considered by Madrigale as “equal to”
the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: Jackson Avenue Skulls was seen by
hundreds or thousands of daily visitors to 5Pointz. Cortes
has thousands of social media followers. Tr. at 775:1-6.
Estaban Del Valle
Estaban Del Valle is an award-winning artist who has
produced dozens of exhibitions and murals. Del Valle Folio
4-6. He has attended some of the most prestigious art
schools in the world as both a student and a resident. Id.;
Tr. at 607:24-609:7. His work has been featured in the New
York Times and Brooklyn Street Art. Folio at 7-10; 19-22.
His work has sold at prestigious contemporary art auction
houses. Folio at 23-24; Tr. at 631:1-7.
18. Beauty and the Beast
Category One: Beauty and the Beast was chosen by Cohen for placement on a longstanding wall. Tr. at 117:3-8. It
was up for more than a year. Tr. at 117:9-12. It was recognized by Vara as both a meritorious work of art, Tr. at
625:22-630:6, and a work of recognized stature, Tr. at
606:1-3. Cohen testified it was a piece of “high standing”
and confirmed it “[fell] into a different category in terms of
[his] decision as the curator” compared to other works at
the site. Tr. at 1508:8-19.
Category Two: Beauty and the Beast was featured
in Arts Observer magazine, the Queens Library digital archive, and Google Arts and Culture. Del Valle Folio at 2732. Del Valle was commissioned to draw a copy of the work
for the cover of the book Dumb Animals by Damien Colon.
Tr. at 118:15-19. He was commissioned to paint a copy of
the image to promote a festival in the Dominican Republic.
Tr. at 118:10-14. Snyder called the artists in this suit “top
artists at the heights of their career.” Tr. at 1060:8-18. It
was attested to as a work of high quality by Stavsky. Tr. at
1397:14-19. It was part of the “curated,” Tr. at 1205:9-10,
5Pointz collection considered by Madrigale as “equal to”

App. 58
the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: Beauty and the Beast was seen by hundreds or thousands of daily visitors to 5Pointz. It was
searchable on Google. Tr. at 633:5-10. He has thousands of
social media followers. Tr. at 632:10-16. One Instagram
posting of the photo received over 33,000 likes. Tr. at 118:17. The jury found it had achieved recognized stature. See Verdict Form at 31, DE 165.
Francisco Fernandez aka “DASIC”
Francisco Fernandez is a prominent Chilean muralist.
He has done murals all around the United States and
South America, including New York, Miami, Detroit, Chicago, Texas, San Miguel, Chile, Santiago, Chile, Buzios,
Brazil, Valparaiso, Chile, and cities in Argentina, Uruguay, and Peru. Fernandez Folio at 2-30. His work has
been featured in the New York Times, The Guardian,
Americas Quarterly, Hi-Fructose, Street Art NYC, the Holland Sentinel, the Art Elephant blog, Complex, and documentary films. Fernandez Folio at 4-26; Tr. at 1655:211657:1.
19. Dream of Oil
Category One: Dream of Oil was one of the largest
pieces at 5Pointz. Tr. at 1572:19-22. It was chosen by Cohen for placement on highly coveted rooftop space visible
from the train. Tr. at 1570:13; 1574:3-10. It was recognized
by Vara as both a meritorious work of art, Tr. at 1655:9-19,
and a work of recognized stature, Tr. at 1655:21-1657:5.
Cohen testified it was a piece of “high standing” and confirmed it “[fell] into a different category in terms of [his]
decision as the curator” compared to other works at the
site. Tr. at 1508:8-19.
Category Two: Dream of Oil was featured in The re: art,
an online art publication. Fernandez Folio at 35-38. It was
featured in online documentaries about 5Pointz. Tr. at
1656:16-18. It was recognized by Simmons. Tr. at 1656:16.
It was published in The Guardian. Tr. at 1656:24. Snyder
called the artists in this suit “top artists at the heights of

App. 59
their career.” Tr. at 1060:8-18. It was attested to as a work
of high quality by Stavsky. Tr. at 1397:14-19. It was part of
the “curated,” Tr. at 1205:9-10, 5Pointz collection considered by Madrigale as “equal to” the Lincoln Center and the
Apollo Theater in cultural significance in New York, Tr. at
1203:20-21.
Category Three: Dream of Oil was seen by hundreds or
thousands of daily visitors to 5Pointz. It was seen by millions of commuters on the passing train. Fernandez has
thousands of social media followers. Fernandez Folio at
32. Dream of Oil received hundreds of likes on his social
media accounts. Fernandez Folio at 40-41. The jury found
it had achieved recognized stature. See Verdict Form at 69,
DE 165.
James Cochran aka “Jimmy C”
James Cochran is a prominent London aerosol artist
credited with inventing the artform “aerosol pointillism.”
Cochran Folio at 8; Tr. at 690:14-15. His murals and exhibitions can be viewed all over the world, particularly the
United Kingdom, France, and Australia. Cochran Folio at
4-6. He has been featured in ten major videos from major
press outlets, and 78 articles by journals, newspapers, and
art critics. Tr. at 1033:1-12. He has been interviewed
by The Guardian, Street Art United States, and Support
Street
Art and
profiled
by
the New
York
Timesand CNN. Cochran Folio at 7-12; 49-61.
20. Subway Rider
Category One: Subway Rider was chosen by Cohen for
placement on a longstanding wall in 2011. Tr. at 696:1324. It was recognized by Vara as both a meritorious work
of art, Tr. at 1024:4-1032:18, and a work of recognized stature, Tr. at 1022:19-24. Cohen testified it was a piece of
“high standing” and confirmed it “[fell] into a different category in terms of [his] decision as the curator” compared to
other works at the site. Tr. at 1508:8-19.
Category Two: Subway Rider was featured Street Art
NYC, Google Arts and Culture, Time Out New York, The
Guardian, Global Street Art, and Bit Rebels. Cochran Folio

App. 60
at 71-87. Snyder called the artists in this suit “top artists
at the heights of their career.” Tr. at 1060:8-18. It was attested to as a work of high quality by Stavsky. Tr. at
1397:14-19. It was part of the “curated,” Tr. at 1205:9-10,
5Pointz collection considered by Madrigale as “equal to”
the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: Subway Rider was seen by hundreds
or thousands of daily visitors to 5Pointz. Cochran has tens
of thousands of social media followers. Tr. at 1038:7-13;
Cohran Folio at 62-66. Subway Rider received hundreds of
likes on his social media accounts. Cohen Folio at 75-76.
The jury found it had achieved recognized stature. See Verdict Form at 75, DE 165.
James Rocco aka “Topaz”
Rocco is a well-recognized muralist and aerosol artist. His works have been featured at the Graffiti Hall of
Fame, the Ryan and Chelsea Clinton Community Health
Center, and the Haven Arts Gallery. Rocco Folio at 3-15.
He and his work have been covered by Street Art
NYC. Rocco Folio at 4-5; 16-17. He is the founder and
owner of multimedia company Skygod Studios. Rocco Folio
at 17. He has created murals and graphic design for DJ
Premier, Saiers Capital, CNBC, New York City Council,
Tombstone Productions, Dark Castle Entertainment,
Groupe Renault, Peugeot France, MTV, Pradaxa, Nestle,
Toshiba, Ford Motor Company, Sony Music Entertainment, 50 Unit Films, MC Craig G, Jacob & Co., and
McGraw Hill Publishing Co., among others. Rocco Folio at
18-19. He has also done graphics for hip hop artists 50
Cent, Marley Marl, Rahzel, DJ JS-1, and DJ Ody Roc.
Rocco Folio at 22.
21. Bull Face
Category One: Bull Face was chosen by Cohen for placement on a longstanding, highly trafficked wall at the loading dock. Tr. at 992:18-23. It was created in 2009 and survived until the whitewash. Tr. at 994:24-25. It was visible
from the 7 train. Tr. at 992:18-23. It was intended to be up
“indefinitely.” Tr. at 995:3-4. It was recognized by Vara as

App. 61
both a meritorious work of art, Tr. at 1096:14-1097:4, and
a work of recognized stature, Tr. at 1098:14-1101:12. Cohen testified it was a piece of “high standing” and confirmed it “[fell] into a different category in terms of [his]
decision as the curator” compared to other works at the
site. Tr. at 1508:8-19.
Category Two: Snyder called the artists in this suit “top
artists at the heights of their career.” Tr. at 1060:8-18. It
was attested to as a work of high quality by Stavsky. Tr. at
1397:14-19. It was part of the “curated,” Tr. at 1205:9-10,
5Pointz collection considered by Madrigale as “equal to”
the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: Bull Face was seen by hundreds or
thousands of daily visitors to 5Pointz. Rocco has over one
thousand social media followers. Tr. at 1100:24-1101:6.
22. Lord Paz
Category One: Lord Paz was chosen by Cohen for placement on a high, longstanding column with “heavy” foot
traffic on Crane Street. Tr. at 996:22-997:3; 998:14-18. It
was created in 2009 and survived until the whitewash. Tr.
at 997:22-23. It was intended to be up “permanently.” Tr.
at 998:3-4. It was recognized by Vara as both a meritorious
work of art, Tr. at 1097:6-1098:4, and a work of recognized
stature, Tr. at 1098:14-1101:12. Cohen testified it was a
piece of “high standing” and confirmed it “[fell] into a different category in terms of [his] decision as the curator”
compared to other works at the site. Tr. at 1508:8-19.
Category Two: Snyder called the artists in this suit “top
artists at the heights of their career.” Tr. at 1060:8-18. It
was attested to as a work of high quality by Stavsky. Tr. at
1397:14-19. It was part of the “curated,” Tr. at 1205:9-10,
5Pointz collection considered by Madrigale as “equal to”
the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: Lord Paz was seen by hundreds or
thousands of daily visitors to 5Pointz. Rocco has over one
thousand social media followers. Tr. at 1100:24-1101:6.

App. 62
23. Face on Jackson
Category One: Face on Jackson was chosen by Cohen
for placement on a longstanding high column above Jackson Avenue, “the highest traffic street of 5Pointz.” Tr. at
998:25-999:4; 999:15-16. It was created in 2009 and survived until the whitewash. Tr. at 1000:6-7. It was intended
to be up “permanently.” Tr. at 1000:8-13. It was given space
next to Lady Pink, an “important position” that “is a significant recognition of his qualities and characteristics” according to Vara. Tr. at 999:1-2; 1098:24-1099:2. It was recognized by Vara as both a meritorious work of art, Tr. at
1098:5-1099:2, and a work of recognized stature, Tr. at
1098:14-1101:12. Cohen testified it was a piece of “high
standing” and confirmed it “[fell] into a different category
in terms of [his] decision as the curator” compared to other
works at the site. Tr. at 1508:8-19.
Category Two: Snyder called the artists in this suit “top
artists at the heights of their career.” Tr. at 1060:8-18. It
was attested to as a work of high quality by Stavsky. Tr. at
1397:14-19. It was part of the “curated,” Tr. at 1205:9-10,
5Pointz collection considered by Madrigale as “equal to”
the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: Face on Jackson was seen by hundreds
or thousands of daily visitors to 5Pointz. Rocco has over one
thousand social media followers. Tr. at 1100:24-1101:6.
Kenji Takabayashi aka “Python”
Kenji Takabayashi is an accomplished artist and professional visual designer. In addition to his success as a
muralist, he was a senior visual designer for Major League
Baseball for twelve years. Takabayashi Folio at 5. Takabayashi has been commissioned for several murals around
New York City and is registered with the Brooklyn Arts
Council’s Artist Registry. Takabayashi Folio at 9-19. He
created art for the redesign of the Apollo Theater. Tr. at
304:14-16; 305:6-9. He has been featured on Good Morning
America. Tr. at 304:23-25. He has been commissioned to do
graffiti-inspired artwork by many Fortune 500 companies

App. 63
and advertising firms, including Pepsi, Samsung, Sony,
Google, and Ogilvy. Tr. at 307:6-11.
24. Starry Night
Category One: Starry Night was chosen by Cohen for
placement on a wall on highly trafficked Crane Street. Tr.
at300:8-15. It was visible from the passing 7 train. Tr. at
300:16-19. It was recognized by Vara as both a meritorious
work of art, Tr. at 658:21-660:17, and a work of recognized
stature, Tr. at 662:2-668:19. Cohen testified it was a piece
of “high standing” and confirmed it “[fell] into a different
category in terms of [his] decision as the curator” compared
to other works at the site. Tr. at 1508:8-19.
Category Two: Starry Night was featured in a post by
prominent graffiti writer and curator Olivia Strauss in
the New York City Street Art Blog. Tr. at 662:9-18. It was
featured in The Guardian. Tr. at 663:9-25; Takabayashi
Folio at 26-27. It was included in a course syllabus by a
professor at Baruch college. Tr. at 664:6-19; Takabayashi
Folio at 28-29. Snyder called the artists in this suit “top
artists at the heights of their career.” Tr. at 1060:8-18. It
was attested to as a work of high quality by Stavsky. Tr. at
1397:14-19. It was part of the “curated,” Tr. at 1205:9-10,
5Pointz collection considered by Madrigale as “equal to”
the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: Starry Night was seen by hundreds or
thousands of daily visitors to 5Pointz. It was seen by millions of commuters on the passing train. It was searchable
on Google. Tr. at 665:12-19. Takabayashi has thousands of
social media followers. Tr. at 666:15-667:3. Starry
Night was included on a third party’s Flickr page. Tr. at
668:5-17. The jury found it had achieved recognized stature. See Verdict Form at 83, DE 165.
Luis Gomez aka “Ishmael”
Luis Gomez is a prominent artist who works in aerosol,
murals, sculptures, and canvas. Tr. at 893:14-17. He and
his work have been featured in The New York Times, The
Post and Courier, Charleston City Paper, Mountain Xpress,

App. 64
Citizen-Times, The Old Wood Company, Street Art Walk,
Brooklyn Street Art, Street Art NYC, Street Art News,
Global Street Art, Court McCracken, ilovedetroitmichigan.com, and Lily Knights, as well as the websites of
Charleston and Spartanburg, South Carolina. Gomez Folio
at 3-50; Tr. at 893:22-903:7. He has painted works for five
major motion pictures. Tr. at 904:19-21.
25. Inside King Kong
Category One: Inside King Kong was chosen by Cohen
for placement on an inside wall in April 2013. Tr. at 887:68; 889:19-20. It was recognized by Vara as both a meritorious work of art, Tr. at 1076:7-1077:17, and a work of recognized stature, Tr. at 1077:15-1081:1. Cohen testified it was
a piece of “high standing” and confirmed it “[fell] into a different category in terms of [his] decision as the curator”
compared to other works at the site. Tr. at 1508:8-19.
Category Two: Based on Inside King Kong, Gomez was
invited to create a similar mural by the curator of the Bushwick Collective, another prominent aerosol art collection.
Tr. at 1077:24-1078:6. College professors, high school
teachers, kindergarten teachers, and private schools all requested tours for their classes to see his interior works. Tr.
at 1044:1-20. Snyder called the artists in this suit “top artists at the heights of their career.” Tr. at 1060:8-18. It was
attested to as a work of high quality by Stavsky. Tr. at
1397:14-19. It was part of the “curated,” Tr. at 1205:9-10,
5Pointz collection considered by Madrigale as “equal to”
the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: Gomez has thousands of social media
followers. Tr. at 1079:4-6. Inside King Kong had hundreds
of likes on Instagram. Gomez Folio at 65. The jury found it
had achieved recognized stature. See Verdict Form at 77,
DE 165.
Luis Lamboy aka “Zimad”
Luis Lamboy is a prominent aerosol artist who worked
as a general foreman and art handler for Sotheby’s Auction

App. 65
House for 18 years and has also designed clothing for musicians. Tr. at 854:1-5. He has done gallery shows since
1984. Tr. at 854:6. His work has been exhibited across the
United States and Europe, and he works with major
brands, including Nike, MTV, Modello, Corona, Red Bull,
Lionsgate Films, Jacob & Co., and State Farm. Lamboy Folio at 5-7. He and his work have been featured in Art &
Fashion Magazine, The Courier Journal, Graphotism, Hall
of Fame New York City, Diva International, Name Tagging,
Boombox Magazine, Street Art NYC, and on Project Runway. Lamboy Folio at 11-24; 27-40; 46-51. He has a permanent installation at the United Nations in Geneva. Lamboy
Folio at 42.
26. Blue Jay Wall
Category One: Blue Jay Wall was chosen by Cohen for
placement on a longstanding wall at the loading dock. Tr.
at 841:5-17. It was visible from the 7 train. Tr. at 841:1720. It was recognized by Vara as both a meritorious work
of art, Tr. at 1068:21-1069:17, and a work of recognized
stature, Tr. at 1074:6-1075:20. Cohen testified it was a
piece of “high standing” and confirmed it “[fell] into a different category in terms of [his] decision as the curator”
compared to other works at the site. Tr. at 1508:8-19.
Category Two: Blue Jay Wall was featured in Google
Arts and Culture and a Street Art NYC interview. Tr. at
1074:6-1075:2; Lamboy Folio at 57-58. Snyder called the
artists in this suit “top artists at the heights of their career.” Tr. at 1060:8-18. It was attested to as a work of high
quality by Stavsky. Tr. at 1397:14-19. It was part of the
“curated,” Tr. at 1205:9-10, 5Pointz collection considered
by Madrigale as “equal to” the Lincoln Center and the
Apollo Theater in cultural significance in New York, Tr. at
1203:20-21.
Category Three: Blue Jay Wall was seen was seen in
the private tours of the inside works. Lamboy has thousands of social media followers. Tr. at 1075:15-17. It was
searchable on Google. Tr. at 1075:11-14. The jury found it
had achieved recognized stature. See Verdict Form at 21,
DE 165.

App. 66
27. Electric Fish
Category One: Electric Fish was chosen by Cohen for
placement on a longstanding inside wall. Tr. at 850:1; 1724. It was recognized by Vara as both a meritorious work
of art, Tr. at 1072:2-14, and a work of recognized stature,
Tr. at 1074:6-1075:20. Cohen testified it was a piece of
“high standing” and confirmed it “[fell] into a different category in terms of [his] decision as the curator” compared to
other works at the site. Tr. at 1508:8-19.
Category Two: College professors, high school teachers,
kindergarten teachers, and private schools all requested
tours for their classes to see his interior works. Tr. at
1044:1-20. Snyder called the artists in this suit “top artists
at the heights of their career.” Tr. at 1060:8-18. It was attested to as a work of high quality by Stavsky. Tr. at
1397:14-19. It was part of the “curated,” Tr. at 1205:9-10,
5Pointz collection considered by Madrigale as “equal to”
the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: Electric Fish was seen was seen in the
private tours of the inside works. Lamboy has thousands of
social media followers. Tr. at 1075:15-17. It was searchable
on Google. Tr. at 1075:11-14.
28. Inside 4th Floor
Category One: Inside 4th Floor was chosen by Cohen for
placement on a longstanding inside wall between 2010 and
2012. Tr. at 843:21-22; 844:8-9. It was recognized by Vara
as both a meritorious work of art, Tr. at 1069:22-1070:17,
and a work of recognized stature, Tr. at 1074:6-1075:20.
Cohen testified it was a piece of “high standing” and confirmed it “[fell] into a different category in terms of [his]
decision as the curator” compared to other works at the
site. Tr. at 1508:8-19.
Category Two: College professors, high school teachers,
kindergarten teachers, and private schools all requested
tours for their classes to see his interior works. Tr. at
1044:1-20. Snyder called the artists in this suit “top artists

App. 67
at the heights of their career.” Tr. at 1060:8-18. It was attested to as a work of high quality by Stavsky. Tr. at
1397:14-19. It was part of the “curated,” Tr. at 1205:9-10,
5Pointz collection considered by Madrigale as “equal to”
the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: Inside 4th Floor was seen in the private tours of the inside works. Lamboy has thousands of
social media followers. Tr. at 1075:15-17. It was searchable
on Google. Tr. at 1075:11-14.
29. Clothing Brand aka Monopoly Man
Category One: Clothing Brand aka Monopoly Man was
chosen by Cohen for placement on a longstanding inside
wall between 2010 and 2012. Tr. at 847:10-13. It was recognized by Vara as both a meritorious work of art, Tr. at
1071:6-1072:1, and a work of recognized stature, Tr. at
1074:6-1075:20. Cohen testified it was a piece of “high
standing” and confirmed it “[fell] into a different category
in terms of [his] decision as the curator” compared to other
works at the site. Tr. at 1508:8-19.
Category Two: College professors, high school teachers,
kindergarten teachers, and private schools all requested
tours for their classes to see his interior works. Tr. at
1044:1-20. Snyder called the artists in this suit “top artists
at the heights of their career.” Tr. at 1060:8-18. It was attested to as a work of high quality by Stavsky. Tr. at
1397:14-19. It was part of the “curated,” Tr. at 1205:9-10,
5Pointz collection considered by Madrigale as “equal to”
the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: Clothing Brand aka Monopoly
Man was seen was seen in the private tours of the inside
works. Lamboy has thousands of social media followers. Tr.
at 1075:15-17. It was searchable on Google. Tr. at 1075:1114.
30. World Traveler
Category One: World Traveler was chosen by Cohen for
placement on a longstanding inside wall between 2010 and

App. 68
2012. Tr. at 845:25-846:1. It was recognized by Vara as
both a meritorious work of art, Tr. at 1070:20-1071:5, and
a work of recognized stature, Tr. at 1074:6-1075:20. Cohen
testified it was a piece of “high standing” and confirmed it
“[fell] into a different category in terms of [his] decision as
the curator” compared to other works at the site. Tr. at
1508:8-19.
Category Two: College professors, high school teachers,
kindergarten teachers, and private schools all requested
tours for their classes to see his interior works. Tr. at
1044:1-20. Snyder called the artists in this suit “top artists
at the heights of their career.” Tr. at 1060:8-18. It was attested to as a work of high quality by Stavsky. Tr. at
1397:14-19. It was part of the “curated,” Tr. at 1205:9-10,
5Pointz collection considered by Madrigale as “equal to”
the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: World Traveler was seen was seen in
the private tours of the inside works. Lamboy has thousands of social media followers. Tr. at 1075:15-17. It was
searchable on Google. Tr. at 1075:11-14.
Nicholai Khan aka “Twin” aka “Think”
Khan is a New York artist whose work has been featured in the Chelsea Art Gallery, the Bronx Museum of the
Arts, Art Galleries Europe, Paris, and the Agora Gallery,
among others. Khan Folio at 4-7; 17-18. He has been commissioned to do portraits for Martha Stewart and Andrew
Cuomo. Khan Folio at 10-11; Tr. at 1168:22-1169:3. He and
his work have been featured in the Times Ledger and Art
Dish. Khan Folio at 7-8; 14-16.
31. Dos Equis Man
Category One: Dos Equis Man was chosen by Cohen for
placement on a longstanding wall. Tr. at 1162:10-1163:1. It
was recognized by Vara as both a meritorious work of art,
Tr. at 1622:23-1623:14, and a work of recognized stature,
Tr. at 1622:2-22; 1623:15-1624:24. Cohen testified it was a

App. 69
piece of “high standing” and confirmed it “[fell] into a different category in terms of [his] decision as the curator”
compared to other works at the site. Tr. at 1508:8-19.
Category Two: Dos Equis Man was featured in a Russian newspaper. Khan Folio at 28-29. It was featured in
5Pointz documentaries We Don’t Need Rats, 5Pointz Long
Island City, and Urban Explorer: Exploring 5Pointz. Tr. at
1623:15-1624:3; 1624:18-24. Snyder called the artists in
this suit “top artists at the heights of their career.” Tr. at
1060:8-18. It was attested to as a work of high quality by
Stavsky. Tr. at 1397:14-19. It was part of the “curated,” Tr.
at 1205:9-10, 5Pointz collection considered by Madrigale as
“equal to” the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: Dos Equis Man was seen by hundreds
or thousands of daily visitors at 5Pointz. Khan has nineteen thousand social media followers. Tr. at 1622:5-7. Dos
Equis Man received hundreds of likes on social media.
Khan Folio at 32-33. The subject of the painting, Jonathan
Goldsmith, recognized it publically. Tr. at 1622:9-22; Khan
Folio at 35-37. It was found to be a work of recognized stature by the jury. See Verdict Form at 71, DE 165.
32. Orange Clockwork
Category One: Orange Clockwork was chosen by Cohen
for placement on a longstanding wall. Tr. at 1165:251166:2. It was recognized by Vara as both a meritorious
work of art, Tr. at 1619:16-1622:1, and a work of recognized
stature, Tr. at 1623:15-1624:24. Cohen testified it was a
piece of “high standing” and confirmed it “[fell] into a different category in terms of [his] decision as the curator”
compared to other works at the site. Tr. at 1508:8-19.
Category Two: Orange Clockwork was featured in
5Pointz documentaries We Don’t Need Rats, 5Pointz Long
Island City, and Urban Explorer: Exploring 5Pointz. Tr. at
1623:15-1624:3; 1624:18-24. Snyder called the artists in
this suit “top artists at the heights of their career.” Tr. at
1060:8-18. It was attested to as a work of high quality by
Stavsky. Tr. at 1397:14-19. It was part of the “curated,” Tr.
at 1205:9-10, 5Pointz collection considered by Madrigale as

App. 70
“equal to” the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: Orange Clockwork was seen by hundreds or thousands of daily visitors at 5Pointz. Khan has
nineteen thousand social media followers. Tr. at 1622:57. Orange Clockwork received over one hundred likes on social media. Khan Folio at 34. It was found to be a work of
recognized stature by the jury. See Verdict Form at 73, DE
165.
Richard Miller aka “Patch Whiskey”
Richard Miller is a prolific West Virginian street artist
who had exhibitions at The Bushwick Collective, Art Basel
Miami, Low Brow Artique, and the Butcher Gallery. Miller
Folio 12-20. He has also done installations and murals for
numerous restaurants and brand, including Nella Mushrooms, Pabst Blue Ribbon, and Absolute Vodka. Tr. at
927:2-8. His work was featured in Hollywood film Rock of
Ages. Tr. at 927:11-14. His work has been featured
in Street Anarchy, Street Art NYC, DoSavannah, and Vandalog. Miller Folio at 14-25.
33. Monster I
Category One: Monster I was chosen by Cohen for placement on a longstanding inside wall at 5Pointz. Tr. at
918:23-919:3. It was recognized by Vara as both a meritorious work of art, Tr. at 1083:22-1085:20, and a work of recognized stature, Tr. at 1086:17-1090:12. Cohen testified it
was a piece of “high standing” and confirmed it “[fell] into
a different category in terms of [his] decision as the curator” compared to other works at the site. Tr. at 1508:8-19.
Category Two: College professors, high school teachers,
kindergarten teachers, and private schools all requested
tours for their classes to see his interior works. Tr. at
1044:1-20. Snyder called the artists in this suit “top artists
at the heights of their career.” Tr. at 1060:8-18. It was attested to as a work of high quality by Stavsky. Tr. at
1397:14-19. It was part of the “curated,” Tr. at 1205:9-10,
5Pointz collection considered by Madrigale as “equal to”

App. 71
the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: Monster I was seen on the tours of the
inside works. Miller has more than ten thousand social media followers. Tr. at 929:2-4. The jury found it achieved recognized stature. See Verdict Form at 79, DE 165.
34. Monster II
Category One: Monster II was chosen by Jonathan Cohen for placement on a rooftop structure visible from the
train. Tr. at 922:6-22; 924:13-14. It was recognized by Vara
as both a meritorious work of art, Tr. at 1085:21-1086:16,
and a work of recognized stature, Tr. at 1086:17-1090:12.
Cohen testified it was a piece of “high standing” and confirmed it “[fell] into a different category in terms of [his]
decision as the curator” compared to other works at the
site. Tr. at 1508:8-19.
Category Two: It was photographed by Martha Cooper,
“one of the most important photographers and historians
of the graffiti art movement.” Tr. at 1087:3-9. It was featured in HBO documentary Banksy Does New York. Tr. at
1087:14-22. Snyder called the artists in this suit “top artists at the heights of their career.” Tr. at 1060:8-18. It was
attested to as a work of high quality by Stavsky. Tr. at
1397:14-19. It was part of the “curated,” Tr. at 1205:9-10,
5Pointz collection considered by Madrigale as “equal to”
the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: Monster II was seen by hundreds or
thousands of daily visitors to 5Pointz. It was seen by millions on the passing 7 train. Tr. at 924:13-14. Multiple
online videos from third parties feature Monster II. Miller
Folio at 37-40. Miller has more than ten thousand social
media followers. Tr. at 929:2-8. Monster II had over one
hundred likes on social media before it was destroyed. Tr.
at 1089:7-13. It had over one thousand social media likes
after its destruction. Miller Folio at 41-45. The jury found
it had achieved recognized stature. See Verdict Form at 81,
DE 165.

App. 72
Rodrigo Henter de Rezende aka “AK47”
Rodrigo Henter de Rezende is a prominent Brazilian
artist who moved to New York for six months to paint at
5Pointz and join the New York hip hop and graffiti culture.
Tr. at 1120:13-21; 1126:19-1127:8. He has had exhibitions
in many galleries and worked with clients including
Smirnoff Vodka, Compactor Makers, UNI POSCA, Suvinil,
Worx, and Colorgin. De Rezende Folio at 5. He has been
featured in O Globo Rio and Street Art NYC. De Rezende
Folio at 9; 29. He has painted at the Graffiti Hall of
Fame in East Harlem. De Rezende Folio at 29.
35. Fighting Tree
Category One: Fighting Tree was chosen by Cohen for
placement on a high, longstanding wall near the loading
dock. Tr. at 1125:21-1126:9. It was intended to be a
longstanding piece. Id. It was recognized by Vara as both a
meritorious work of art, Tr. at 1634:16-1637:5, and a work
of recognized stature, Tr. at 1638:5-1639:19. Cohen testified it was a piece of “high standing” and confirmed it “[fell]
into a different category in terms of [his] decision as the
curator” compared to other works at the site. Tr. at 1508:819.
Category Two: Fighting Tree was featured in a Russian
newspaper article and the Stephen Wise Photography collection. De Rezende Folio at 39-42. It was featured in a Village Voice article. Tr. 1638:10-11. It was featured in Brandon Rembler’s photography collection. Tr. at 1638:13-16. It
was featured in the videos The Graffiti Mecca
5Pointz and 5Pointz Long Island City. Tr. at 1639:1-6.
Snyder called the artists in this suit “top artists at the
heights of their career.” Tr. at 1060:8-18. It was attested to
as a work of high quality by Stavsky. Tr. at 1397:14-19. It
was part of the “curated,” Tr. at 1205:9-10, 5Pointz collection considered by Madrigale as “equal to” the Lincoln Center and the Apollo Theater in cultural significance in New
York, Tr. at 1203:20-21.
Category Three: It was seen by hundreds or thousands
of daily visitors to 5Pointz. De Rezende has thousands of
social media followers. Tr. at 1639:4-9. Fighting Tree has

App. 73
received over 100 likes on social media. Tr. at 1639:14-17.
It was featured on a third party’s Flickr. Tr. at 1638:25; De
Rezende Folio at 45. The jury found it had achieved recognized stature. See Verdict Form at 33, DE 165.
Sandra Fabara aka “Lady Pink”
Sandra Fabara is “considered an icon, legendary, historic.” Tr. at 1596:18. She “is credited, both of [sic] in art
history and a [sic] hip-hop culture, as one of the originators
of the language, meaning the style that you understand,
the different forms of graffiti art . . . .” Tr. at 1596:19-22.
She has had more than 120 exhibitions, more than 85 commercial installations, and has been featured in multiple
films about graffiti art. Tr. at 1596:25-1597:6. She has
given more than 30 lectures on art. Tr. at 1597:6-9. She has
been featured in the New York Times, Time Out New York,
and the Observer, among others. Fabara Folio at 4-5; 8-9;
12-14; 30-31; 35-37. She has been exhibited in the Museum
of the City of New York, the New Museum of Contemporary
Art, New York, the Queens Museum, the Woodward Gallery, the Brooklyn Museum, and the El Museo del Barrio.
Fabara Folio at 10-11; 15-23; 26-29; 35-40.
36. Green Mother Earth
Category One: Green Mother Earth was chosen by Cohen for a high wall on Jackson Avenue visible from the
train. Tr. at 1238:21-24. It was one of two works that were
intentionally saved in 2009 after the stairwell collapse. Tr.
at 1532:2-15. It was recognized by Vara as both a meritorious work of art, Tr. at 1597:21-1600:10, and a work of recognized stature, Tr. at 1600:11-1605:24. Cohen testified it
was a piece of “high standing” and confirmed it “[fell] into
a different category in terms of [his] decision as the curator” compared to other works at the site. Tr. at 1508:8-19.
Category Two: Green Mother Earth was featured in several travel bloggers’ pieces on 5Pointz. Tr. at 1627:9-20;
1629:11-19. Snyder opined that, “The destruction of the
graffiti of Lady Pink would warrant a significant lawsuit.
Lady Pink is without question one of the most accomplished graffiti artists,” and specifically referenced Green
Mother Earth as a piece of recognized stature. Tr. at

App. 74
1601:3-10; 20-24. It was published in The Guardian
and Complex Magazine. Tr. at 1602:24-1603:1. It was featured in the documentaries We Don’t Need More Rats Here,
5Pointz Documentary, 5Pointz Long Island City, and Don’t
Bomb These Walls. Tr. at 1603:2-4; 1604:15-17; 1605:14-17.
It was included in Google Arts and Culture. Tr. at 1603:2223. It was attested to as a work of high quality by Stavsky.
Tr. at 1397:14-19. It was part of the “curated,” Tr. at
1205:9-10, 5Pointz collection considered by Madrigale as
“equal to” the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: It was seen by hundreds or thousands
of daily visitors to 5Pointz. It was seen by millions on the
passing 7 train. Green Mother Earth was featured multiple
times in Pinterest galleries. Tr. at 1604:1-3. It was featured
on a Harvard professor’s blog. Tr. at 1603:12-14. The jury
found it had achieved recognized stature. See Verdict Form
at 19, DE 165.
Steven Lew aka “Kid Lew”
Steven Lew is well recognized graffiti artist and graphic
designer. Lew Folio at 5. His work has been featured in
several exhibitions, galleries, and art publications. Lew Folio at 7-19. He has a strong sales history both of his canvases and related shoe designs. Lew Folio at 20-29. His
work at 5Pointz has been featured in many publications,
including Getty Images, Complex Magazine, DNAinfo, Artnet News, and Source Magazine. Tr. at 1627:5-1629:10.
37. Crazy Monsters
Category One: Crazy Monsters was chosen by Cohen for
placement on previously untouched columns in a highly
trafficked area near the original stairway collapse in mid2013. Tr. at 1346:9-22; 1348:5-16. It was intended to be a
longstanding piece. Tr. at 1349:6-10. An additional layer
was added below the columns at a later date. Tr. at 1348:14. It was recognized by Vara as both a meritorious work of
art, Tr. at 1625:1-1627:4, and a work of recognized stature,
Tr. at 1627:5-1630:6. Cohen testified it was a piece of “high
standing” and confirmed it “[fell] into a different category

App. 75
in terms of [his] decision as the curator” compared to other
works at the site. Tr. at 1508:8-19.
Category Two: His work at 5Pointz was regularly covered by art magazines and news organizations, as described above. Crazy Monsters was featured in Google Arts
and Culture. Tr. at 1627:6-8. It was featured in several
travel bloggers’ pieces on 5Pointz. Tr. at 1627:9-20;
1629:11-19. It was included in several online documentaries as a featured work at 5Pointz. Tr. at 1630:2-8.
Snyder called the artists in this suit “top artists at the
heights of their career.” Tr. at 1060:8-18. It was attested to
as a work of high quality by Stavsky. Tr. at 1397:14-19. It
was part of the “curated,” Tr. at 1205:9-10, 5Pointz collection considered by Madrigale as “equal to” the Lincoln Center and the Apollo Theater in cultural significance in New
York, Tr. at 1203:20-21.
Category Three: It was seen by hundreds or thousands
of daily visitors to 5Pointz. Lew has over one thousand social media followers. Tr. at 1628:11-13. His series of social
media posts documenting the creation of Crazy Monsters received over 100 likes. Lew Folio at 30-40. Crazy
Monsters is included the photo collection of Getty Images.
Tr. at 1627:24-1628:3. The jury found it had achieved recognized stature. See Verdict Form at 67, DE 165.
Thomas Lucero aka “Auks One”
Thomas Lucero is a self taught artist based in Southern
California who works primarily in spiritual themes. Tr. at
729:18-24. He has had dozens of exhibitions of his art work
and over a dozen press mentions. Lucero Folio at 5-6. He
was commissioned by the mayor of Bakersfield to paint a
mural for that city’s Martin Luther King Jr. Park. Lucero
Folio at 7-9.
38. Black Creature
Category One: Black Creature was chosen by Cohen for
placement on a highly trafficked wall at the loading dock.
Tr. at 464:4-23. It was intended to be a longstanding piece.
It was recognized by Vara as both a meritorious work of
art, Tr. at 730:21-734:10, and a work of recognized stature,

App. 76
Tr. at 737:21-742:7. Cohen testified it was a piece of “high
standing” and confirmed it ”[fell] into a different category
in terms of [his] decision as the curator” compared to other
works at the site. Tr. at 1508:8-19.
Category Two: Black Creature was featured on the
travel blog of digital marketer Dominic Sawyer. Tr. at
739:19-740:1. Snyder called the artists in this suit “top artists at the heights of their career.” Tr. at 1060:8-18. It was
attested to as a work of high quality by Stavsky. Tr. at
1397:14-19. It was part of the “curated,” Tr. at 1205:9-10,
5Pointz collection considered by Madrigale as “equal to”
the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: Black Creature was seen by hundreds
or thousands of daily visitors to 5Pointz. Lucero has over
one thousand social media followers. Tr. at 741:1-8. The
jury found it had achieved recognized stature. SeeVerdict
Form at 35, DE 165.
Collaborative Works
39. Jonathan Cohen and Maria Castillo aka
“TooFly”—Love Girl and Burner26
Cohen’s artistic credentials are listed in the decision.
Maria Castillo has been called a “graffiti legend” who
has a long, illustrious career of exhibitions and murals
around the world, including the tallest mural painted in
the country of Ecuador. Castillo Folio at 4-9. She has also
collaborated with many major brands, including Nike, RayBan, MOTUG X JB, and KidRobot. Castillo Folio at 16-21;
Tr. at 640:14-642:22. Her works have been featured on 30
Rock, in 11 significant online videos and performances, and
35 news articles, including the New York Times, and seven
major volumes on graffiti. Tr. at 642:18-19; 645:14-19;
648:17-19.
This piece is alternatively referred to as “Love Warrior and
Burner” and “Love Girl and Burner” throughout the record. In the original decision, the Court referred to this piece as Love Girl and
Burner based on the name in the Cohen Folio. The Court continues to
use this name now but notes the discrepancy.
26

App. 77
Category One: Love Girl and Burner was chosen by Cohen for placement on a longstanding wall. Tr. at 204:13-17.
It was intended to be up for over a year. Id. It was recognized by Vara as both a meritorious work of art, Tr. at
635:8-637:19, and a work of recognized stature, Tr. at
635:3-6.
Category Two: Love Girl and Burner was featured
in Google Arts and Culture. Cohen Folio at 122. It was featured in the Vandalog art blog. Cohen Folio at 130. Snyder
called the artists in this suit “top artists at the heights of
their career” and said Cohen’s works at 5Pointz “reflect
mastery of the form in addition to their obvious aesthetic
characteristic.” Tr. at 1060:8-18. It was attested to as a
work of high quality by Stavsky. Tr. at 1397:14-19. It was
part of the “curated,” Tr. at 1205:9-10, 5Pointz collection
considered by Madrigale as “equal to” the Lincoln Center
and the Apollo Theater in cultural significance in New
York, Tr. at 1203:20-21.
Category Three: It was seen by hundreds or thousands
of daily visitors to 5Pointz. Castillo has over seven thousand social media followers. Tr. at 647:3-7. Love Girl and
Burner has hundreds of likes on social media. Castillo Folio
at 54-63. The jury found it had achieved recognized stature. See Verdict Form at 85, DE 165.
40. Akiko Miyakami and Jonathan Cohen—Save
5Pointz
Akiko Miyakami and Jonathan Cohen’s credentials are
listed above.
Category One: Save 5Pointz was chosen by Cohen for
placement on a longstanding wall visible from the passing
7 train on the rooftop. Tr. at 1283:11-19. It was intended to
be a long lasting wall. Tr. at 1285:7-9. It was recognized by
Vara as both a meritorious work of art, Tr. at 1610:211611:10, and a work of recognized stature, Tr. at 1614:121619:11.
Category Two: Miyakami’s work was described as “instantly recognizable” by Simmons. Tr. at 1615:11-12. It

App. 78
was featured in multiple video tributes to 5Pointz, including a video by Future Sound TV and a documentary
by Video Sparleck. Tr. at 1616:15-16; 1618:6-9. It was a featured in an article by Jacqueline Hadel27 (“Hadel”), a “renowned blogger on street art in travel culture.” Tr. at
1616:8-9. Snyder called the artists in this suit “top artists
at the heights of their career” and said Miyakami and Cohen’s works at 5Pointz “reflect mastery of the form in addition to their obvious aesthetic characteristic.” Tr. at 1060:818. It was attested to as a work of high quality by Stavsky.
Tr. at 1397:14-19. It was part of the “curated,” Tr. at
1205:9-10, 5Pointz collection considered by Madrigale as
“equal to” the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: It was seen by hundreds or thousands
of daily visitors to 5Pointz. It was seen by millions on the 7
train. Tr. at 1283:16-19. Miyakami has thousands of social
media followers. Tr. at 1617:2-7. Save 5Pointz has hundreds of likes on social media. Miyakami Folio at 48-49.
The jury found it had achieved recognized stature. See Verdict Form at 91, DE 165.
41. Akiko Miyakami and Jonathan Cohen—Underwater Fantasy
Akiko Miyakami and Jonathan Cohen’s credentials are
listed above.
Category One: Underwater Fantasy was chosen by Cohen for placement on a longstanding wall with a lot of foot
traffic on Crane Street, Tr. at 1278:2-12. It was intended to
be a long lasting wall. Tr. at 1281:19-1282:3. It was recognized by Vara as both a meritorious work of art, Tr. at
1609:9-1610:20, and a work of recognized stature, Tr. at
1614:12-1619-11.
Category Two: Miyakami’s work was described as “instantly recognizable” by Simmons. Tr. at 1615:11-12. Underwater Fantasy was featured in Google Arts and Culture. Tr. at 1615:15-16. It was featured in a Gallery Nine
The transcript incorrectly refers to her as “Jacqueline
Heigl.” See Guerra Folio at 26 (correct spelling).
27

App. 79
review of a group exhibit. Tr. at 1615:17-19. It was featured
in multiple video tributes to 5Pointz, including a documentary by Alexander Henry and a video by Future Sound
TV. Tr. at 1615:24-1616:4, 12-16. It was a featured in an
article by Hadel. Tr. at 1616:8-9. It was reviewed by Street
Art in New York City. Tr. at 1616:17-18. Snyder called the
artists in this suit “top artists at the heights of their career”
and said Miyakami and Cohen’s works at 5Pointz “reflect
mastery of the form in addition to their obvious aesthetic
characteristic.” Tr. at 1060:8-18. It was attested to as a
work of high quality by Stavsky. Tr. at 1397:14-19. It was
part of the “curated,” Tr. at 1205:9-10, 5Pointz collection
considered by Madrigale as “equal to” the Lincoln Center
and the Apollo Theater in cultural significance in New
York, Tr. at 1203:20-21.
Category Three: It was seen by hundreds or thousands
of daily visitors to 5Pointz. Miyakami has thousands of social media followers. Tr. at 1617:2-7. Underwater Fantasy has hundreds of likes on social media. Miyakami Folio
at 45-47. The jury found it had achieved recognized stature. See Verdict Form at 87, DE 165.
42. Akiko Miyakami and Carlos Game—Japanese
Fantasy
Akiko Miyakami and Carlos Game’s credentials are
listed above.
Category One: Japanese Fantasy was chosen by Cohen
for placement on a longstanding wall. Tr. 1278:2-12. It was
painted in 2012 and survived until the whitewashing. Tr.
at 1290:11-15. It was recognized by Vara as both a meritorious work of art, Tr. at 1613:23-1614:11, and a work of recognized stature, Tr. at 1614:12-1619:11. Cohen testified it
was a piece of “high standing” and confirmed it “[fell] into
a different category in terms of [his] decision as the curator” compared to other works at the site. Tr. at 1508:8-19.
Category Two: Miyakami’s work was described as “instantly recognizable” by Simmons. Tr. at 1615:11-12.
Snyder called the artists in this suit “top artists at the
heights of their career” and said Miyakami and Game’s
works at 5Pointz “reflect mastery of the form in addition to

App. 80
their obvious aesthetic characteristic.” Tr. at 1060:8-18. It
was attested to as a work of high quality by Stavsky. Tr. at
1397:14-19. It was part of the “curated,” Tr. at 1205:9-10,
5Pointz collection considered by Madrigale as “equal to”
the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: It was seen by hundreds or thousands
of daily visitors to 5Pointz. Miyakami has thousands of social media followers. Tr. at 1617:2-7. Japanese Fantasy has
hundreds of likes on social media. Miyakami Folio at 51;
Game Folio at 43.
43. Bienbenido Guerra aka “Benny” aka “FCEE”
and Carlo Nieva aka “Diego”—Return of New York
Bienbenido Guerra is an artist and art teacher. He has
been commissioned to do murals by business and schools,
including St. John’s University. Tr. at 507:17-21; Folio at
10-14. He has been painting at 5Pointz, and its predecessor, Phun Phactory, since 1994. Guerra Folio at 5. His
works have been auctioned at Guensey’s Action House.
Guerra Folio at 8-9.
Carlo Nieva is a successful artist who has done murals
across New York City. He has worked with many fashion
brands as a graphic designer, including A-life, L’Zinger,
and Bodega Skates, as well as with many New York night
clubs, including Limelight, Palladium, and The Tunnel. Tr.
at 381:2-9. His work has been featured in Expresso 77 Photograph, DNAinfo, and the Hibridos Collective. Tr. 381:13382:23; 383:10-11; Nieva Folio at 4-18. He has created murals in collaboration with Jackson Heights Green Alliance,
El Museo del Barrio, and The Renaissance Charter School.
Tr. at 381:19-382:21; Nieva Folio at 6-16.
Category One: Return of New York is nearly three stories high and was chosen by Cohen for placement on a
longstanding wall at the highly coveted loading dock. Tr. at
376:9-14; 377:17-21. It was recognized by Vara as both a
meritorious work of art, Tr. at 670:15-675:4, and a work of
recognized stature, Tr. at 677:6-687:10. Cohen testified it
was a piece of “high standing” and confirmed it “[fell] into

App. 81
a different category in terms of [his] decision as the curator” compared to other works at the site. Tr. at 1508:8-19.
Category Two: Return of New York was featured by
Hadel, Etsy, Red Bubble, Fine Art America, and Shutterstock. Guerra Folio at 25-34. Snyder called the artists in
this suit “top artists at the heights of their career.” Tr. at
1060:8-18. It was attested to as a work of high quality by
Stavsky. Tr. at 1397:14-19. It was part of the “curated,” Tr.
at 1205:9-10, 5Pointz collection considered by Madrigale as
“equal to” the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: It was seen by hundreds or thousands
of daily visitors to 5Pointz. It was seen by millions on the
passing train. Both Guerra and Nieva have over one thousand social media followers. Nieva Folio at 24. Return of
New York has more than one hundred likes on social media. Nieva Folio at 25-28; Guerra Folio at 21-22. It was featured on a third party’s Flickr account. Guerra Folio at 1920. The jury found it had achieved recognized stature. See Verdict Form at 97, DE 165.
44. William Tramontozzi aka “Jerms” and James
Rocco—Jimi Hendrix Tribute
James Rocco’s credentials are listed above.
William Tramontozzi is an aerosol artist specializing in
lettering and a DJ. He and his work has been featured
in Time Out New York, The Word is Bond, and Fresh Paint
NYC. He was featured in Elizabeth Currid’s book The Warhol Economy as an artist who “embodies” the fusion of art
and music with the modern creative economy. Tr. at
1093:6-1094:5.
Category One: Jimi Hendrix Tribute was chosen by Cohen for placement on a longstanding wall with significant
foot traffic on Davis Street. Tr. at 956:25-957:7. It was intended to be a longstanding piece. Tr. at 957:8-16. It was
recognized by Vara as both a meritorious work of art, Tr.
at 1090:16-1092:18, and a work of recognized stature, Tr.
at 1092:19-1095:14. Cohen testified it was a piece of “high
standing” and confirmed it “[fell] into a different category

App. 82
in terms of [his] decision as the curator” compared to other
works at the site. Tr. at 1508:8-19.
Category Two: Jimi Hendrix Tribute was featured
in Google Arts and Culture. Tramontozzi Folio at 26-27. It
was featured on Urban Media Showcase. Tramontozzi Folio at 23; Tr. at 967:2-9. Snyder called the artists in this
suit “top artists at the heights of their career.” Tr. at
1060:8-18. Tramontozzi’s work at 5Pointz was recognized
by Austin. Tr. at 1094:8-10. Jimi Hendrix Tribute was featured in Hadel’s blog on New York City graffiti art. Tr. at
1094:17-1095:4. It was attested to as a work of high quality
by Stavsky. Tr. at 1397:14-19. It was part of the “curated,”
Tr. at 1205:9-10, 5Pointz collection considered by Madrigale as “equal to” the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: It was seen by hundreds or thousands
of daily visitors to 5Pointz. It was featured on a Japanese
blog post. Tramontozzi Folio at 20-21. Rocco has over one
thousand social media followers. Tr. at 1100:241101:6. Jimi Hendrix Tribute has hundreds of likes on social media, on both the artists’ and third parties’ accounts.
Tramontozzi Folio at 22-25. The jury found it had achieved
recognized stature. See Verdict Form at 93, DE 165.
45. Jonathan Cohen, Luis Lamboy, and Thomas
Lucero—Angry Orchard
The artists’ credentials are listed above.
Category One: Angry Orchard was painted collaboratively in 2013 between Cohen, Lamboy, and Lucero. Tr. at
458:1-460:19; 851:6-852:25; 1431:14-1432:23. It was recognized by Vara as both a meritorious work of art, Tr. at
734:12-737:13, and a work of recognized stature, Tr. at
738:3-742:7. Cohen testified it was a piece of “high standing” and confirmed it “[fell] into a different category in
terms of [his] decision as the curator” compared to other
works at the site. Tr. at 1508:8-19.
Category Two: Angry Orchard was featured in Google
Arts and Culture. Lucero Folio at 29-30. Snyder called the
artists in this suit “top artists at the heights of their career”

App. 83
and said Cohen’s works at 5Pointz “reflect mastery of the
form in addition to their obvious aesthetic characteristic.”
Tr. at 1060:8-18. It was attested to as a work of high quality
by Stavsky. Tr. at 1397:14-19. It was part of the “curated,”
Tr. at 1205:9-10, 5Pointz collection considered by Madrigale as “equal to” the Lincoln Center and the Apollo Theater in cultural significance in New York, Tr. at 1203:20-21.
Category Three: It was seen by hundreds or thousands
of daily visitors to 5Pointz. The three artists have significant social media followings, as discussed above. Angry Orchard was recognized by the company Angry Orchard, from
which the artists drew inspiration. Lucero Folio at 27-28.
The jury found it had achieved recognized stature. See Verdict Form at 99, DE 165.

App. 84
320 F. Supp. 3d 421 (E.D.N.Y. 2018)
U.S. District Court, Eastern District of New York
Jonathan Cohen, Sandra Fabara, Stephen Ebert, Luis
Lamboy, Esteban Del Valle, Rodrigo Henter De Rezende,
Danielle Mastrion, William Tramontozzi, Jr., Thomas
Lucero, Akiko Miyakami, Christian Cortes, Dustin
Spagnola, Alice Mizrachi, Carlos Game, James Rocco, Steven Lew, Francisco Fernandez, and Nicholai Khan, Plaintiffs,
v.
G&M Realty L.P., 22-50 Jackson Avenue Owners, L.P.,
22-52 Jackson Avenue, LLC, ACD Citiview Buildings,
LLC, and Gerald Wolkoff, Defendants.
--Maria Castillo, James Cochran, Luis Gomez, Bienbenido
Guerra, Richard Miller, Kai Niederhausen, Carlo Nieva,
Rodney Rodriguez, and Kenji Takabayashi, Plaintiffs,
v.
G&M Realty L.P., 22-50 Jackson Avenue Owners, L.P.,
22-52 Jackson Avenue, LLC, ACD Citiview Buildings,
LLC, And Gerald Wolkoff, Defendants.
Case Nos. 13-CV-05612 (FB)(RLM), 15-cv-3230
(FB)(RLM)
E.D. New York.
Signed 02/12/2018
Attorneys and Law Firms
ERIC M. BAUM, ANDREW MILLER, Eisenberg & Baum LLP,
24 Union Square East, New York, NY 10003, For the Plaintiff
DAVID G. EBERT, MIOKO TAJIKA, Ingram Yuzek Gainen Carroll & Bertolotti, LLP, 250 Park Avenue New York, NY
10177, For the Defendant.

App. 85
DECISION
FREDERIC BLOCK, Senior United States District
Judge
TABLE OF CONTENTS
I .......................................................................................... 86
II ......................................................................................... 88
A. The Relevant Statutory Framework ...................... 88
B. The Advisory Jury .................................................. 91
C. The Witnesses and Evidentiary Landscape .......... 93
III ....................................................................................... 95
A. The Advent and Evolution of 5Pointz .................... 95
B. The Walls ................................................................ 97
1. Covering ......................................................... 97
2. Short-Term Rotating Walls vs. LongStanding Walls ............................................. 98
C. The Planned Destruction ....................................... 99
D. The Whitewashing ................................................ 100
IV ...................................................................................... 100
A. Temporary Works of Art....................................... 100
B. Works of Recognized Stature ............................... 104
1. Recognized Stature of Individual
Artworks ..................................................... 108
a. The Long-Standing Works ................... 108
b. Other Works.......................................... 109
C. Mutilation and Prejudice to Honor or
Reputation ............................................................ 110
V ....................................................................................... 112
A. Actual Damages .................................................... 112
B. Statutory Damages ............................................... 113
1. Willfulness ................................................... 114

App. 86
2. The Statutory Factors ................................. 118
a. The Infringer’s State of Mind ............... 118
b. The Expenses Saved, and Profits
Earned, by the Infringer ...................... 119
c. Revenue Lost by the Copyright
Holder.................................................... 119
d. The Deterrent Effect on the Infringer
and Third Parties ................................. 120
e. The Conduct and Attitude of the
Parties ................................................... 121
3. The Statutory Damages Award................... 121
CONCLUSION ................................................................ 121
APPENDIX ...................................................................... 123
This marks the latest chapter in the ongoing saga of
what has commonly become known as the 5Pointz litigation. Plaintiffs, 21 aerosol artists, initiated this lawsuit
over four years ago by seeking a preliminary injunction under the Visual Artists Rights Act of 1990 (“VARA”), 17
U.S.C. § 106A, against defendants Gerald Wolkoff (“Wolkoff”) and four of his real estate entities to prevent the
planned demolition by Wolkoff of his warehouse buildings
in Long Island City and consequent destruction of plaintiffs’ paintings on the walls of the buildings.
I
On November 12, 2013, after a hearing, the Court issued an order denying preliminary injunctive relief and
stating that “a written opinion would soon be issued.” ECF
No. 34. Rather than wait for the Court’s opinion, which was
issued just eight days later on November 20th, Wolkoff destroyed almost all of the plaintiffs’ paintings by whitewashing them during that eight-day interim.
In its extensive opinion the Court initially noted that
Wolkoff’s buildings “had become the repository of the largest collection of exterior aerosol art . . . in the United
States” and that this litigation “marks the first occasion

App. 87
that a court has had to determine whether the work of an
exterior aerosol artist—given its general ephemeral nature—is worthy of any protection under the law.” Cohen v.
G & M Realty L.P., 988 F.Supp.2d 212, 214 (E.D.N.Y. 2013)
(“Cohen I”).
In denying the plaintiffs’ application for preliminary injunctive relief, the Court recognized that the rights created
by VARA were at tension with conventional notions of
property rights and tried to balance these rights. It did so
by not interfering with Wolkoff’s desire to tear down the
warehouses to make way for high-rise luxury condos, but
cautioned that “defendants are exposed to potentially significant monetary damages if it is ultimately determined
after trial that the plaintiffs’ works were of ‘recognized
stature’” under VARA. Cohen I, 988 F.Supp.2d at 227. The
trial has now happened. It lasted three weeks. At plaintiffs’
insistence, it was tried before a jury, but just prior to summations, plaintiffs—with defendants’ consent—waived
their jury rights. Rather than summarily dismiss the jury
after it had sat through the entire trial, the Court converted it to an advisory jury. During its charge, the Court
carefully explained the parties’ rights and obligations under VARA, including the plaintiffs’ entitlement to substantial statutory damages if the jury determined that Wolkoff
had violated plaintiffs’ VARA rights and that he had acted
willfully. On a 98–page verdict sheet, the jury found liability and made various damage awards in respect to 36 of
plaintiffs’ 49 works of art that were the subject of the lawsuit. In every case they found that Wolkoff had acted willfully.
Although the Court does not agree with all of the jurors’
findings, it does agree that Wolkoff willfully violated plaintiffs’ VARA rights in respect to those 36 paintings. The
Court further finds that liability and willfulness should attach to an additional nine works.
Given the abject nature of Wolkoff’s willful conduct, the
Court awards the maximum statutory damages under

App. 88
VARA for each of the 45 works of art wrongfully and willfully destroyed in the combined sum of $6,750,000.1
II
A. The Relevant Statutory Framework
As the Court explained in Cohen I, “VARA amended existing copyright law to add protections for two ‘moral
rights’ of artists: the rights of attribution and integrity.” Cohen I, 988 F.Supp.2d at 215. VARA has codified the right
to integrity to provide “the author of a work of visual art”
the right
(A)

to prevent any intentional destruction, mutilation, or other modification of that work
which would be prejudicial to his or her honor
or reputation, and any intentional distortion,
mutilation, or modification of that work is a
violation of that right, and

(B)

to prevent any destruction of a work of recognized stature, and any intentional or grossly
negligent destruction of that work is a violation of that right.

17 U.S.C. § 106A(a)(3).
Thus, in Cohen I, the Court held that plaintiffs’ aerosol
art comes under VARA’s protection as works of “visual art”,
Cohen I, 988 F.Supp.2d at 216, and that, under
§ 106A(a)(3)(B), VARA “gives the ‘author of a work of visual
art’ the right to sue to prevent the destruction of [the] work
if it is one of ‘recognized stature,’” Cohen I, 988 F.Supp.2d
at 215. VARA also permits the artist to seek monetary
damages under § 106A(a)(3)(A) if the work was distorted,
mutilated, or otherwise modified to the prejudice of the artist’s honor or reputation.

This decision constitutes the Court’s combined findings of fact and
conclusions of law pursuant to Fed. R. Civ. P. 52(a).
1

App. 89
Section 113(d)(1) of VARA provides that
In a case in which—
(A)

a work of visual art has been incorporated in
or made part of a building in such a way that
removing the work from the building will
cause the destruction, distortion, mutilation,
or other modification of the work as described
in section 106A(a)(3), and

(B)

the author consented to the installation of the
work in the building either before the effective
date set forth in section 610(a) of the Visual
Artists Rights Act of 1990, or in a written instrument executed on or after such effective
date that is signed by the owner of the building and the author and that specifies that installation of the work may subject the work to
destruction, distortion, mutilation, or other
modification, by reason of its removal, then
the rights conferred by paragraphs (2) and (3)
of section 106A(a) shall not apply.2

Section 113(d)(2) provides, in part, that
If the owner of a building wishes to remove a work
of visual art which is a part of such building and
which can be removed from the building without the
destruction, mutilation, or other modification of the
work as described in section 106A(a)(3), the author’s
rights under paragraphs (2) and (3) of section
106A(a) shall apply unless—
(A)

the owner has made a diligent, good faith attempt without success to notify the author of
the owner’s intended action affecting the work
of visual art, or

Paragraph (2)—not applicable in this case—protects the right of
attribution by affording the artist “the right to prevent the use of his
or her name as the author of the work of visual art in the event of a
distortion, mutilation, or other modification of the work which would
be prejudicial to his or her honor or reputation[.]”
2

App. 90
(B)

the owner did provide such notice in writing
and the person so notified failed, within 90
days after receiving such notice, either to remove the work or to pay for its removal.

Thus, § 113(d) provides for two possibilities when a protected work of art has been integrated into a building subsequent to June 1, 1991, VARA’s effective date. “Section
113(d)(1) deals with works of visual art that cannot be removed without causing destruction, mutilation, or other
modifications to the work. Section 113(d)(2) deals with
works of visual art that can be removed without causing
such harm.” 5 William F. Patry, Patry on Copyright § 16:32
(2017) (“Patry”) (emphasis added).3
Under § 113(d)(1), if a work is not removable without
destroying, mutilating, distorting, or otherwise modifying
the work, the artist’s VARA right of integrity under
§ 106A(3) attaches, and the artist may sue to prevent the
destruction of the work unless the right is waived “in a
written instrument . . . that is signed by the owner of the
building and the author and that specifies that installation
of the work may subject the work to destruction, distortion,
mutilation, or other modification, by reason of its removal.”
§ 113(d)(1)(B) (emphasis added).
Under § 113(d)(2), if a work is removable without destroying, mutilating, distorting, or otherwise modifying it,
VARA gives the artist the opportunity to salvage the work
upon receipt of a 90 days’ written notice from the building
owner of the owner’s “intended action affecting the work of
visual art.” 17 U.S.C. §§ 113(d)(2)(A)–(B). If the artist fails
to remove or pay for the removal of the works within the 90
days—or if the owner could not notify the artist after making a “good faith effort,” 17 U.S.C. § 113(d)(2)(A)—the artist’s VARA rights are deemed waived for the removable

Patry participated in the drafting of VARA in his role as a Policy
Planning Advisor to the Register of Copyrights. Patry § 16:1 n.1. Accordingly, the Court accords his treatise, which is highly regarded on
all copyright issues, particular weight when examining provisions of
VARA.
3

App. 91
work, and the owner may destroy them without consequences.4
Damages that may be awarded for the violation of the
artist’s rights of attribution and integrity under
§ 106A(a)(3) are the same that apply for copyright infringement, namely actual (including profits) and statutory. 17
U.S.C. § 504(a). As the House Judiciary Committee Report
explained:
Section 6(a) of the bill simply amends section 501(a)
of title 17 to add those authors covered by new section 106A . . . . It thereby makes all title 17 remedies
[except criminal sanctions] available to those authors . . . . [VARA] thereby provides for monetary
damages, and for injunctive relief to prevent future
harm. The same standards that the courts presently
use to determine whether such relief is appropriate
for violations of section 106 rights will apply to violations of section 106A rights as well.
H.R. Rep. No. 101–514, at 21–22 (1990) (emphasis added).
There is no limit to the amount of actual damages for
each work, but statutory damages for each may be “not less
than $750 or more than $30,000 as the court considers
just.” 17 U.S.C. § 504(c)(1). If, however, the plaintiff “sustains the burden of proving, and the court finds, that infringement was committed willfully, the court in its discretion may increase the award of statutory damages” for each
work “to a sum of not more than $150,000.” 17 U.S.C.
§ 504(c)(2). The plaintiff is not entitled to both actual and
statutory damages but must elect one or the other “before
final judgment is rendered[.]” 17 U.S.C. § 504(c)(1).
B. The Advisory Jury
“A proper demand [for a jury trial] may be withdrawn
only if the parties consent.” Fed. R. Civ. P. 38(d). Here the
defendants, through counsel, consented to submitting the
case to the Court.
Section 113(d)(2)(B) also provides that if the artist successfully
removes a work at his or her own expense, title to the work passes automatically to the artist. See 17 U.S.C. § 113(d)(2)(B).
4

App. 92
Under the federal rules, where the right to a jury trial
does not attach, “the court, on motion or on its own: (1) may
try any issue with an advisory jury[.]” Fed. R. Civ. P. 39(c).
“Because advisory juries permit community participation
and may incorporate the public’s views of morality and
changing common law, their use is particularly appropriate
in cases involving community-based standards.” NAACP v.
Acusport Corp., 226 F.Supp.2d 391, 398 (E.D.N.Y. 2002)
(Weinstein, J.).
“[A district court] is not bound by the findings of the advisory jury, which it is free to adopt in whole or in part or
to totally disregard[.]” Ragin v. Harry Macklowe Real Estate Co., 6 F.3d 898, 907 (2d Cir. 1993) (quoting Sheila’s
Shine Prods., Inc. v. Sheila Shine, Inc., 486 F.2d 114, 122
(5th Cir. 1973)). “[T]he court retains the ultimate responsibility for findings of fact and conclusions [of law] . . . in reliance upon the advisory jury’s verdict if the court so
chooses, and to explain how it arrived at those findings and
conclusions.” DeFelice v. Am. Int’l Life Assurance Co. of
New York, 112 F.3d 61, 65 (2d Cir. 1997).
Under these principles, the Court will take the jury’s
verdicts under advisement in making its independent findings of fact and conclusions of law, especially on issues that
require judgment of the community.5
The Court would be remiss if it did not pause to
acknowledge the extraordinary work of the eight jurors.
Rarely were they late during the course of the extensive
trial, and the Court was impressed with their rapt attention to the difficult task that awaited them in having to assess the defendants’ liability in respect to each of the 49
works of art. Since the jurors had spent the better part of a

During the trial and in their post-trial brief, defendants argued
that several comments by the Court, and the Court’s rejection of defendants’ requested jury instructions, prejudiced the jury to the point
of requiring a mistrial. The Court disagrees for the reasons stated on
the record at the time of the objections. However, even assuming arguendo that the jury had been prejudiced, because the jury was advisory, and the Court is making its own findings of fact and conclusions
of law, any prejudice would have been harmless.
5

App. 93
month in anticipation of deliberating, the Court was disinclined to summarily dismiss them when, at the veritable
11th hour, the plaintiffs suddenly decided to convert the
case to a bench trial. Moreover, since 5Pointz had achieved
worldwide community recognition, the Court was keen to
learn whether the jurors, as members of the community,
would view the works as having achieved recognized stature under VARA. To enhance the integrity of their verdicts,
the Court decided it best not to tell the jurors that their
findings would only be advisory.
The complexity of the litigation did not deter the jurors
from making individualized findings in respect to each of
the 21 artists and their 49 works on the 98-page verdict
sheet. They were tasked with having to determine whether
each destroyed work was of recognized stature and/or was
mutilated, distorted, or otherwise modified to the prejudice
of the artist’s honor or reputation by the whitewashing.
They found that 28 of the 49 destroyed works had achieved
recognized stature, and eight more had been mutilated,
distorted, or otherwise modified to the prejudice of the artists’ honor or reputation.6 Each of the 21 plaintiffs were adversely affected in one way or the other, and the jury had
to individually assess whether actual and statutory damages were warranted in regard to each work. It awarded a
total of $545,750 in actual damages and $651,750 in statutory damages.
C. The Witnesses and Evidentiary Landscape
Each of the 21 plaintiffs/artists testified; they were respectful, articulate and credible. Folios for each were admitted into evidence collectively containing their professional achievements and recognition in the form of an impressive array of fellowships, residences, public and private commissions, teaching positions, media coverage, and
social media presence. Not surprisingly, each of the 21 Fo-

The jury also found that of the 28 works of recognized stature that
were destroyed, 20 had also been mutilated, modified, distorted or otherwise modified in a manner prejudicial to the artist’s honor or reputation.
6

App. 94
lios contained beautiful color prints of the artists’ respective aerosol works of art which are the subject of the lawsuit. They are appended to this opinion. It is apparent that
they reflect striking technical and artistic mastery and vision worthy of display in prominent museums if not on the
walls of 5Pointz. The Folios also contain photos showing
how almost all of these works of art were partially or wholly
whitewashed by Wolkoff.
5Pointz was an egalitarian place. The artists came from
many backgrounds. Some of the plaintiffs testified via
Skype from international residences. Many who live in
New York had immigrated from other countries to join the
5Pointz community. One artist flew from London to testify;
another came of age in rural West Virginia. Some artists
came from highly prestigious art schools; others were selftaught. Some were fixtures in elite, traditional art circles;
others were simply dedicated to street and community art.
The Court was impressed with the breadth of the artists’
works and how many of the works spoke to the social issues
of our times.
The principal testimony about the advent, evolution
and demolition of 5Pointz came from plaintiff Jonathan Cohen, one of the world’s most accomplished aerosol artists.
Wolkoff had designated Cohen as 5Pointz’s de facto curator, appointing him to run the site and pick the works he
thought were of merit: “I gave him permission, plain, Jonathan, you are in charge, bring whoever you think is right
to come and display their work on my building.” Tr. at
2025:4–8.
In addition to the artists, three experts testified for the
plaintiffs. Renee Vara, a certified art appraiser, former
head fine art expert at Chubb Insurance and art professor
at New York University, testified to the quality and recognized stature of the works; Elizabeth Littlejohn, an art appraiser certified through the Appraisers Association of
America, testified to their appraisal value; and Harriet Irgang Alden, the chief paintings conservator at Art Care
NYC, testified as to the removability of each of the artworks from the 5 Pointz walls.

App. 95
Plaintiffs also called two fact witnesses. Angelo Madrigale, Vice President and Director of Contemporary Art at
Doyle New York, an auction house, wrote a letter upon
which Vara relied in formulating her report. He testified to
the artistic importance of the works. Lois Stavsky developed a 5Pointz exhibit for Google Arts and Culture and testified to the creation of that exhibit and why Google believed that 5Pointz was a culturally significant site.
Wolkoff was the defendants’ principal witness. He testified to his rise from a poor childhood to become a successful real estate developer and explained his role in the advent and success of 5 Pointz. He was adamant that the artists knew that the day would come when the warehouse
buildings bearing their works of art would come down and
be replaced by high-rise residential condos.
Although the Court believes that Wolkoff in the main
testified truthfully, he was a difficult witness. He frequently ignored or challenged instructions by the Court. He
was argumentative and prone to tangents and non-responsive answers. Eliciting coherent testimony was a chore and
was only achieved after the Court threatened to hold him
in contempt. See, e.g., Tr. at 2033:18–2034:2; 2036:19–
2037:24; 2045:23–2047:6; 2087:22–2088:13; 2092:13–22.
In addition to Wolkoff, two experts testified for the defendants. Erin Thompson, a professor of art history at the
City University of New York and practicing art lawyer, testified as to the issue of recognized stature, and Christopher
Gaillard, a fine art appraiser with the art appraisal and
acquisition firm Gurr Johns, testified as to the works’ appraisal value.
The story of 5Pointz that follows comes primarily from
the lips of Cohen and Wolkoff.
III
A. The Advent and Evolution of 5Pointz
What became 5Pointz originated as Phun Phactory in
the early 1990s. The warehouses were largely dilapidated
and the neighborhood was crime infested. There was no
control over the artists who painted on the walls of the

App. 96
buildings or the quality of their work, which was largely
viewed by the public as nothing more than graffiti. This
started to change in 2002 when Wolkoff put Cohen in
charge. Cohen and several other artists also rented studio
space in the warehouse buildings. Collectively, they
worked to improve conditions. As Cohen explained:
We took it upon ourselves to clean the loading
dock . . . . The dumpsters were overflowing. We took
it upon ourselves, we hired his employees, we paid
for the lighting. We put motion sensors up so that
when you came to the loading dock it was inviting.
It actually drew you in as opposed to scaring you
away.
Id. at 1448:20–1449:3.
Wolkoff recognized the merit of the art. As he acknowledged: “I liked it and they did more and more and I thought
it was terrific. They were expressing themselves.” Id. at
2082:4–5. And he approved of the job Cohen did in curating
the art: “I have no feelings even today against Jonathan
Cohen. I thought he was terrific handling my building . . . .
Anything to do with art I left up to Jonathan. He had good
taste in the artists that came there.” Id. at 2086:13–17.
Until Wolkoff decided over a decade later that the economic climate was ripe to convert the site into luxury condos, he and Cohen had a copacetic relationship.
But nothing was ever reduced to writing and Wolkoff
only verbally laid out three rules for what could be put on
the walls: no pornography, no religious content, and nothing political. In his role, Cohen established a system of
rules for both the creation and curation of the art, spending
seven days a week without pay to bring 5Pointz to fruition.
Cohen oversaw the site, kept it clean and safe, allotted
wall space, and explained the site’s rules and norms to new
artists. Over time, crime in the neighborhood dropped and
the site became a major attraction drawing thousands of
daily visitors, including busloads of tourists, school trips,
and weddings. Movie, television, and music video producers came; it was used for the 2013 motion picture Now You

App. 97
See Me, starring Jesse Eisenberg and Mark Ruffalo, and
was the site of a notable tour for R & B singer Usher.
As the plaintiff Castillo explained, “street art became a
new form,” which “now has become an industry.” Tr. at
202:6, 202:10. And 5Pointz became “this outdoor museum
where kids can touch the wall, and TT you can’t do that at
a museum. You can’t go and touch a Van Gogh or like a
Mona Lisa.” Id. at 202:2–5.
Wolkoff had nothing to do with day-today operations.
Under Cohen’s control, he witnessed his buildings emerge
as a mecca for the world’s largest collection of quality outdoor aerosol art.
B. The Walls
1. Covering
5Pointz was a site of creative destruction; most artworks had short lifespans and were repeatedly painted
over by successive artists. The rules behind covering were
important; as virtually every artist testified, “going over”
someone else’s piece without permission was a sign of disrespect that could cause conflicts. Going over another piece
partially or sloppily was another insult. As Cohen explained:
[Y]ou respect your wall, you clean up when you’re
done, you cover what you go over completely. If you
do not cover what you went over, you do not last.
That was rule number one. Respect in our game is
everything, and if you don’t have respect then you
don’t get respect.
Tr. at 1443:15–22. As a result, Cohen established an elaborate system of rules and norms governing how long pieces
would remain and when a piece could be covered by a new
artwork. As he testified:
THE COURT: Let me ask you a question. Can anybody paint over your paintings without your permission, aside from vandalism?

App. 98
A: No. Everything was done with permission and
there was a system that grew over the period of time
I was there. You know, we perfect as we go along.
Id. at 1423:18–23.
2. Short-Term Rotating Walls vs. Long-Standing Walls
5Pointz was organized into short-term rotating walls
and long-standing walls. The short-term walls would
change on a daily or weekly basis. As Cohen explained:
“There were allocated spaces that were for straight beginners that had no idea how to paint. And those, I would say
you could utilize the space, but it more than likely will be
gone tomorrow or the next day or whatever.” Id. at
1441:18–22. “Short-term rotating walls, it was communicated up front so they’d know you could have several weeks
or whatever.” Id. at 1444:13–15.
On the other hand, pieces on long-standing walls were
more permanent, although a high-quality piece could
achieve permanence even if not initially placed on a
longstanding wall; but an artist’s reputation was not sufficient to secure long-standing status. As Cohen further explained:
[T]he prime real estate that faces the train were the
most sought after spots to paint and those went to
more advanced writers. You’ve got to understand, as
well, because you are an advanced writer doesn’t
mean that you are going to perform on an advanced
level. You may just want to blow off steam one afternoon, but that doesn’t mean your piece should last a
long time. And you could be a beginner and do the
performance of your lifetime and produce a piece
that is so amazing that it’s decided it will stay.
Id. at 1441:22–7.
While Cohen had the final say as to the duration of the
pieces, he always spoke with the artists about their
planned lifespan and eventual replacement. As he testified:
“For long term productions, where people invested time
and money, I would communicate with them. I would reach

App. 99
out to them. In some instances, I would tell them to come
back and actually egg them on to do something real better.
As the bar got raised, everybody performed better.” Id. at
1444:14–19.
In other words, 5Pointz operated not just as a creative
space, but a competitive place. Artists would compete to
outdo one another and earn prominent placement on a
long-standing wall. In addition to the walls facing the passing 7 train, which were seen by millions of commuters, the
artists prized the walls near the loading docks, which had
the most foot traffic, and the walls inside the buildings,
which were generally long-standing. While as many as
10,000 works were destroyed while Cohen was in charge, it
was not anarchy. Most of the best works by the best artists
achieved permanent or semi-permanent placements on the
long-standing walls.
C. The Planned Destruction
Starting in 2011, rumors that Wolkoff had plans to shut
down 5Pointz and turn it into luxury condos began to concern the artists. In May 2013, the rumors became reality:
Cohen learned that Wolkoff had started to seek the requisite municipal approvals for his condos.
Hoping to save 5Pointz, Cohen filed an application with
the City Landmark Preservation Commission to preserve
the site as one of cultural significance. It was denied because the artistic work was of too recent origin. See Letter
from NYC Landmarks Preservation Commission, August
20, 2013, ECF No. 31.
Cohen also sought funding to buy the property, which
had been valued at $40 million. However, this fell through
in October 2013 when Wolkoff obtained a necessary variance, instantly raising the property value to more than
$200 million. The higher price was out of reach of Cohen’s
potential investors. Plaintiffs then initiated this litigation
to enjoin Wolkoff from destroying 5Pointz.

App. 100
D. The Whitewashing
As soon as the Court denied the plaintiffs’ application
for preliminary injunction, Wolkoff directed the whitewashing of virtually all the artwork on the 5Pointz site
with rollers, spray machines, and buckets of white paint.7
The whitewashing was inconsistent. Some works were
completely covered in white paint. Others were only partially covered. Some were fully covered, but by such a thin
layer of paint that the artwork was easily visible beneath
the paint. What was consistent was that none of the covered works was salvageable. And plaintiffs were no longer
allowed on the site, even to recover the scattered remnants
of their ruined creations.
Since their works were effectively destroyed,8 plaintiffs
were relegated to seeking monetary relief under VARA.
IV
A. Temporary Works of Art
Defendants’ overarching contention is that plaintiffs
knew that the day would come when the buildings would
be torn down and that, regardless, the nature of the work
of an outdoor aerosol artist is ephemeral.9 They argue,
Some other colors were sporadically used, including black and
blue paint, but the vast majority of the whitewashing was done with
white paint.
8 The Court notes that one work, Richard Miller’s Monster II, survived the whitewashing but was later destroyed by a backhoe. The
plaintiffs did not have direct evidence of whitewashing for seven others
because the works were inside a building to which they had no access
after the whitewashing—Jonathan Cohen’s Character and Inside
Wildstyle, Luis Gomez’s Inside King Kong, Richard Miller’s Monster I,
and Luis Lamboy’s World Traveler, Logo for Clothing Brand aka Monopoly Man, and Electric Fish. However, several plaintiffs testified
that they believed the inside works were destroyed in the whitewashing, and the Court credits the plaintiffs’ testimony that they were not
allowed onto the property to retrieve the works after the whitewash
and were threatened with arrest if they tried.
9 While Cohen acknowledged that he knew that Wolkoff intended to
eventually tear down the buildings to make way for his new condos,
other plaintiffs testified that they had no such knowledge. Regardless,
even if the artists were allowed to waive their VARA rights orally
(which they were not), none of the other artists ever spoke to Wolkoff.
7

App. 101
therefore, that VARA should not afford plaintiffs protection
for their temporary works.10
VARA does not directly address whether it protects
temporary works. However, in the context of works on
buildings, it is clear from 17 U.S.C. § 113(d) that temporary
works are protected. Moreover, relevant case law conceptually supports this conclusion. In short, there is no legal support for the proposition that temporary works do not come
within VARA’s embrace.
First, § 113(d)(1) specifies that an unremovable work
incorporated in a building is protected by VARA unless the
artist waives his or her rights in a writing signed by both
the artist and the building owner. If the building owner
could orally inform the artist that the building is coming
down someday, and thereby convert the work into an unprotected temporary work, the written consent provision
would be rendered nugatory. As the House Judiciary Committee Report explains: “The purpose of [the written
waiver] is to ensure that the author is made fully aware of
the circumstances surrounding the installation and potential removal of the work and has nevertheless knowingly
subjected the work to possible modifications that would
otherwise be actionable under section106A.” H.R. Rep. No.
101–514, at 21. And as Patry adds: “In light of this provision’s purpose of ensuring that artists be made aware fully
of the circumstances surrounding installation and potential destructive removal, it should be strictly construed.”
Patry § 16:33.

As he acknowledged at trial: “I didn’t know any of the artists. I only
dealt with Jonathan Cohen.” Tr. at 2023:16–17.
10 Defendants also assert the affirmative defense of “abandonment.”
It is meritless since it only affects ownership of the work’s copyright.
See Capitol Records, Inc. v. Naxos of America, Inc., 372 F.3d 471, 483
(2d Cir. 2004) (holding “abandonment” of copyright requires “(1) an intent by the copyright holder to surrender rights in the work; and (2) an
overt act evidencing that intent.” (emphasis added)). Defendants have
not pointed to any overt act showing an intent to abandon ownership.
Quite the opposite: The moment the artists learned of defendants’ intent to destroy their works, they began legal proceedings to save them.
This was the antithesis of abandonment.

App. 102
Second, § 113(d)(2), specifying that artists are entitled
to 90 days’ written notice to allow them to salvage their
removable works, contemplates that such works may be
temporarily on the side of a building. Thus, VARA resolves
the tension between the building owners’ rights and the
artists’ rights through § 113(d), not by excluding temporary
works from protection.
Of the limited available case law, Board of Managers of
Soho International Arts Condominium v. City of New York,
2003 WL 21403333 (S.D.N.Y. June 17, 2003) perhaps best
illustrates this point. There, an artist sought to prevent his
work from being permanently removed from the wall of a
condo under VARA. There was conflicting testimony as to
whether the work was intended to be kept on the wall permanently or temporarily. Nonetheless, the Court, in denying summary judgment, held VARA only allowed the artist
to remove the mural, not keep it in its place. The court rejected the artist’s argument that removal was “tantamount
to the Work’s destruction” as “[n]owhere in the [dictionary]
definition of ‘remove’ does the temporality of the act of removal arise.” Id., at *10. Therefore, it was “clear to the
Court that what Congress intended in bifurcating
§ 113(d)’s protections was to separate removal situations
based not on the temporality of the removal but on the consequences of the removal.” Id.11
Thus, VARA draws no distinction between temporary
and nontemporary works on the side of a building, particularly when all that makes a work temporary is the building owner’s expressed intention to remove or destroy it.

A key difference between Board of Managers and this litigation
is that the Board of Managers artwork was installed before VARA was
enacted. This meant that the § 113(d)(1) written waiver provision did
not apply in that case, and if a jury would find that the work was unremovable, VARA would not protect it. However, any unremovable
work at 5Pointz would be protected by VARA because Wolkoff failed to
obtain a written waiver.
11

App. 103
VARA protects such works; how it protects them is governed by the carefully crafted provisions of § 113(d) based
on the removability of the works, not their permanence.12
Also supporting the conclusion that VARA applies to
temporary works is 17 U.S.C. § 106A(c)(1), which provides
that modifications that are “the result of the passage of
time or the inherent nature of the materials” are not violations of VARA. This exception was applied in Flack v.
Friends of Queen Catherine Inc., 139 F.Supp.2d 526
(S.D.N.Y. 2001), where the court dismissed a VARA claim
because the head of a statue was exposed to the elements,
causing the clay to deteriorate, but there was no evidence
that the defendant otherwise directly damaged the work.
139 F.Supp.2d at 534–35. The exception is not applicable
here. The whitewashing was not caused by the “passage of
time” or the “inherent nature of the materials”; it was
caused by Wolkoff throwing paint on the works.
Thus, Congress chose to exclude protection for the passage of time and natural deterioration but not for other
types of temporary works. Under the principle of statutory
interpretation expressio unius est exclusio alterius (the expression of one thing implies the exclusion of others), this
choice lends support to the conclusion that there is no categorical exception for temporary works.
Moreover, the First Circuit has held that VARA protects
unfinished works. Mass. Museum of Contemporary Art
Found., Inc. v. Buchel, 593 F.3d 38, 65 (1st Cir. 2010). An
unfinished work is inherently in a temporary state since
the ultimate goal is always to finish the work; thus, VARA
protects the interim, unfinished work even though it is only
temporarily in that form.13

Damages under VARA could, of course, vary depending on
whether the works were permanent or temporary.
13 Contrast Pollara v. Seymour, 344 F.3d 265 (2d Cir. 2003), which
held that a poster created for a one-time event was not protected by
VARA because it was advertising material, an express exception. Notably, the Court declined to adopt the district court’s alternative reasoning, which would have held the work was not of recognized stature
because it was made for a one-time event.
12

App. 104
Analogy to traditional copyright law is also relevant.
Under the Copyright Act—of which VARA is a part—a
work is “‘created’ when it is fixed in a copy or phonorecord
for the first time[.]” 17 U.S.C. § 101. And a work is “‘fixed’
in a tangible medium of expression when its embodiment
in a copy or phonorecord, by or under the authority of the
author, is sufficiently permanent or stable to permit it to be
perceived . . . for a period of more than transitory duration.”
Id. (emphasis added). For copyright protection, therefore,
fixation for even a short period will suffice.
Thus, in Cartoon Network LP, LLLP v. CSC Holdings,
Inc., 536 F.3d 121 (2d Cir. 2008), the Second Circuit held
that copies of television programs were not capable of being
perceived “for a period of more than transitory duration”
when they existed in the defendant’s data buffers for only
1.2 seconds. 536 F.3d at 129. However, the court suggested
that a work would exist for “more than transitory duration”
if it was embodied in the data buffers for “at least several
minutes.” Id. at 128. With no indication to the contrary, it
is reasonable to assume that Congress intended to apply
the same minimal fixation requirement to works of visual
art under VARA. Cf. Buchel, 593 F.3d at 51 (applying
§ 101’s fixation requirement to conclude that unfinished
works are protected under VARA).
In sum, § 113(d) contemplates temporary works,
§ 106A(c) excludes only a narrow category of temporary
works unrelated to this case, and analogous case law is consistent with the conclusion that temporary works are protected under VARA.14
B. Works of Recognized Stature
As the Court stated in Cohen I, the district court’s decision in Carter v. Helmsley–Spear, Inc., 861 F.Supp. 303
(S.D.N.Y. 1994) (“Carter I”), aff’d in part, vacated in part,
rev’d in part, 71 F.3d 77 (2d Cir. 1995) (“Carter II”) remains

Common sense also supports this conclusion. Who would argue,
for example, that if Picasso had painted Guernica on the walls of
5Pointz with the building owner’s consent it would not be worthy of
VARA protection?
14

App. 105
the seminal case interpreting the phrase “recognized stature”—which is not defined in VARA—to require “a twotiered showing: (1) that the visual art in question has ‘stature,’ i.e. is viewed as meritorious, and (2) that this stature
is ‘recognized’ by art experts, other members of the artistic
community, or by some cross-section of society.” 861
F.Supp. at 325.
The Second Circuit on appeal never had occasion to address the correctness of this formulation since, in reversing, it held that the work did not qualify for VARA protection because it was made for hire. Carter II, 71 F.3d at 85–
89. But one circuit court did thereafter embrace and apply
the district court’s standard for evaluating whether a work
of visual art is of “recognized stature.”
As explained in Cohen I, the Seventh Circuit in Martin
v. City of Indianapolis, 192 F.3d 608, 612 (7th Cir. 1999),
noted that the Carter I test “may be more rigorous than
Congress intended,” id. at 612, but nonetheless affirmed
the district court’s grant of summary judgment and its
award of damages for a sculpture that had been destroyed,
under the Carter I test utilized by the district court. In doing so, it noted that “plaintiff offered no evidence of experts
or others by deposition, affidavit or interrogatories,” but
nonetheless established the work’s recognized stature via
“certain newspaper and magazine articles, and various letters, including a letter from an art gallery director and a
letter to the editor of The Indianapolis News, all in support
of the sculpture.” Id.
The circuit court’s decision in Martin appropriately recognizes, therefore, that expert testimony is not the sine qua
non for establishing that a work of visual art is of recognized stature, and indeed the district court in Carter I cautioned that plaintiffs need “not inevitably . . . call expert
witnesses to testify before the trier of fact.” 861 F.Supp. at
325. This is in keeping with Congress’s expansive recognition of the moral rights of attribution and integrity of the
visual artist and the consequent need to create “a climate
of artistic worth and honor that encourages the author in
the arduous act of creation.” Carter II, 71 F.3d at 83 (quoting H.R. Rep. No. 101–514, at 5). As the Second Circuit

App. 106
noted in Carter II, therefore, the courts “should use common sense and generally accepted standards of the artistic
community in determining whether a particular work” is a
work of visual art since “[a]rtists may work in a variety of
media, and use any number of materials in creating their
works.” Id.
The same common sense should be utilized in assessing
whether the visual work is of recognized stature since “[b]y
setting the standard too high, courts risk the destruction of
the unrecognized masterwork; by setting it too low, courts
risk alienating those . . . whose legitimate property interests are curtailed.” Christopher J. Robinson, The “Recognized Stature” Standard in the Visual Artists Rights Act,
68 Fordham L. Rev 1935, 1968 (2000). Thus, as one court
has held, even inferred recognition from a successful career
can be considered in determining whether a visual artist’s
work has achieved recognized stature. See Lubner v. City
of Los Angeles, 45 Cal. App. 4th 525, 531, 53 Cal.Rptr.2d
24 (1996).
In the present case, the Court need not dwell on the nuances of the appropriate evidentiary standard since the
plaintiffs adduced such a plethora of exhibits and credible
testimony, including the testimony of a highly regarded expert, that even under the most restrictive of evidentiary
standards almost all of the plaintiffs’ works easily qualify
as works of recognized stature.
To begin, that Jonathan Cohen selected the handful of
works from the thousands at 5Pointz for permanence and
prominence on long-standing walls is powerful, and arguably singular, testament to their recognized stature. They
were walls that spanned multiple stories, walls visible to
millions on the passing trains; walls near the entrances.
Many of these works had survived for years. As 5Pointz’s
curator, Cohen considered them outstanding examples of
the aerosol craft. And as Wolkoff himself acknowledged,
Cohen was qualified to assess the artistic merits of the
works since “he had good taste in the artists that came
there.” Tr. at 2086:17. They were 5Pointz’s jewels.

App. 107
Wolkoff’s faith in Cohen was not unwarranted. The
multitude of artists painting on the walls marched to Cohen’s beat. He called the shots and had the respect of his
artistic community. That it was he who chose the works
that are worthy of VARA protection in this litigation
speaks volumes to their recognized stature.
But there is so much more. All of the plaintiffs had also
achieved artistic recognition outside of 5Pointz. And in
their Folios they collectively presented over a thousand exhibits in support of their claims that their works at 5Pointz
had achieved recognized stature. The Folios covered the
highlights of their careers, as well as evidence of the placement of their works at 5Pointz in films, television, newspaper articles, blogs, and online videos, in addition to social
media buzz.
And plaintiffs’ highly qualified expert, Vara, provided
detailed findings as to the skill and craftsmanship of each
of the 49 works, the importance of 5Pointz as a mecca for
aerosol art, the academic and professional interest of the
art world in the works, and her professional opinion that
they were all of recognized stature. The Court finds Vara
highly credible and affords great weight to her testimony,
although, as explained infra, it finds that four of the 49
works do not qualify as having achieved recognized stature.
Defendants’ expert Thompson’s testimony had two fatal
flaws: First, she used an unduly restrictive interpretation
of recognized stature that was more akin to a masterpiece
standard. Second, she relied heavily on her inability to find
the works on social media or in academic databases; but,
as effectively drawn out by plaintiffs’ counsel on cross-examination, her search methodology was unduly restrictive
and almost designed to avoid finding results. Tellingly, her
searches did not even uncover many of plaintiffs’ social media exhibits, demonstrating the weakness of her approach.
Her final conclusion that none of the works had achieved
recognized stature defies credibility. If not a single one of
these works meet the recognized stature standard, it is
hard to imagine works that would, short of a Caravaggio or
Rembrandt.

App. 108
1. Recognized Stature of Individual Artworks
The Court now turns to making the requisite individualized findings as to each of the 49 works:
a. The Long-Standing Works
The Court finds that 37 works on long-standing walls
all achieved recognized stature by virtue of their selection
by Cohen for these highly coveted spaces, as reinforced by
the supportive evidence in the plaintiffs’ Folios and Vara’s
compelling expert testimony as to their artistic merit and
embrace by the artistic community. They are:


Jonathan Cohen’s Eleanor RIP, 7–Angle Time Lapse,
Patience, Character, Clown with Bulbs, Meres Outdoor Wildstyle, and Inside Wildstyle



Sandra Fabara’s Green Mother Earth



Luis Lamboy’s Blue Jay Wall, Inside 4th Floor,
World Traveler, Logo for Clothing Brand aka Monopoly Man, and Electric Fish



Esteban Del Valle’s Beauty and the Beast



Christian Cortes’s Skulls Cluster, Jackson Avenue
Skulls, Up High Blue Skulls, and Up High Orange
Skulls



Carlos Game’s Geisha, Marilyn, Red, Denim Girl,
and Black and White 5Pointz Girl



James Rocco’s Bull Face, Lord Paz, and Face on
Jackson



Steven Lew’s Crazy Monsters



Nicholai Khan’s Dos Equis Man



James Cochran’s Subway Rider



Luis Gomez’s Inside King Kong



Richard Miller’s Monster I



Jonathan Cohen and Maria Castillo’s Love Girl and
Burner



Jonathan Cohen and Akiko Miyakami’s Underwater
Fantasy

App. 109


William Tramontozzi, Jr. and James Rocco’s Jimi
Hendrix Tribute



Akiko Miyakami and Carlos Game’s Japanese Fantasy



Bienbenido Guerra and Carlo Nieva’s Return of New
York



Jonathan Cohen, Luis Lamboy, and Thomas
Lucero’s Angry Orchard
b. Other Works

Ten works on the walls were of recent origin; two were
not on walls at all. For these 12 works, the Court “adopt[s]
in whole” the jurors’ findings. Ragin, 6 F.3d at 907. As representatives of the community and a “cross-section of society,” Carter, 861 F.Supp. at 325, their input as an advisory
jury was of value to the Court, “particularly . . . in cases
[such as this one] involving community-based standards.”
NAACP v. Acusport Corp., 226 F.Supp.2d at 398.
The jury found recognized stature for Rodrigo Henter
de Rezende’s Fighting Tree, Thomas Lucero’s Black Creature, Akiko Miyakami’s Manga Koi, Francisco Fernandez’s
Dream of Oil, Nicholai Khan’s Orange Clockwork, Kenji
Takabayashi’s Starry Night, Richard Miller’s Monster II,
and Jonathan Cohen and Akiko Miyakami’s Save 5Pointz.
These eight works garnered third party attention, social
media presence, and/or promises from Cohen that they
would be long-standing.
The jury did not find recognized stature for Jonathan
Cohen’s Drunken Bulbs, Akiko Miyakami’s Japanese Irish
Girl, Carlos Game’s Faces on Hut, and Jonathan Cohen
and Rodrigo Henter de Rezende’s Halloween Pumpkins.
Drunken Bulbs and Japanese Irish Girl were gifts to the
Shannon Pot Bar.15 They were not part of the curated
5Pointz collection. Furthermore, neither attracted significant third-party attention or social media buzz during their
short life spans.
Though unclear from the testimony of Miyakami and Cohen, this
bar appears to have been on the 5Pointz site.
15

App. 110
Faces on Hut was not on a 5Pointz wall; it was on a tin
shack near the loading dock. As its creator, Carlos Game
testified: “[N]obody wanted to paint on it because it was a
tin shack, you know, and it was rusted out . . . .” Tr. at
794:12–13. Game also did not adduce any social media coverage or commentary regarding the work.
Halloween Pumpkins was created in very late October
2013, less than a month before the whitewash, and did not
achieve any third party recognition. Moreover, because it
was Halloween-themed, it was unlikely to have survived
the holiday season.
In sum, the Court finds 45 of the 49 works achieved recognized stature. Drunken Bulbs, Japanese Irish Girl, Faces
on Hut, and Halloween Pumpkins did not.
C. Mutilation and Prejudice to Honor or Reputation
As noted, even if a work is not of “recognized stature,”
VARA also protects works from “intentional distortion, mutilation, or other modification . . . [that] would be prejudicial to [the artist’s] honor or reputation.” 17 U.S.C.
§ 106A(a)(3)(A). “[I]n determining whether ‘intentional distortion, mutilation, or modification’ of [a] Work would be
‘prejudicial to [plaintiffs’] honor or reputation,’ [a court
should] consider whether such alteration would cause injury or damage to plaintiffs’ good name, public esteem, or
reputation in the artistic community.” Carter I, 861
F.Supp. at 323.
This concept is inherently murky. Carter I held that an
artist’s honor or reputation may be harmed if the artwork
“present[ed] to viewers an artistic vision materially different from that intended by [the artist].” Id. In Massachusetts Museum of Contemporary Art Foundation, Inc. v.
Buchel, 593 F.3d 38 (1st Cir. 2010), the circuit court held
that changes made to an unfinished art installation by a
museum against the artist’s wishes were sufficient to raise
a question of fact as to whether the artist’s honor or reputation were injured. The court focused on evidence that
newspapers covering the exhibit after the changes had a
negative opinion of the altered work.

App. 111
Here, the question is academic in respect to the 45
works of recognized stature since the Court is not awarding
any actual damages, as explained infra, and only one statutory damages award may be awarded per artwork “for all
infringements involved in the action.” 17 U.S.C. § 504(c)(1).
Thus, whether defendants are additionally liable under
this second prong is not of any practical consequence.
Of the remaining four, Japanese Irish Girl was destroyed and therefore not “distorted, mutilated, or otherwise modified.” Faces on Hut was not destroyed until the
demolition of the building and apparently survived the
whitewash. Therefore, it too was not “distorted, mutilated,
or otherwise modified.”
Drunken Bulbs was only partially whitewashed; the
outlines of the bulbs are dimly visible underneath the
white paint. However, these vague outlines are unrecognizable as Cohen’s original work. Nobody looking at the
work would know that it was his. Therefore, the Court
holds this distortion did not prejudice his honor or reputation.
Halloween Pumpkins was almost entirely covered in
black paint, but Cohen’s “wild style” contribution to the
painting was apparently left untouched. However, Cohen
testified that he was able to recover this portion of the
work, and once the piece was removed, the final result was
a black wall; the original artwork was not visible at all under the black paint, except for one purple cloud at the top
of the wall, a minor detail in the painting. Therefore, the
Court holds this distortion also did not prejudice the artists’ honor or reputation.
Having determined that the defendants have violated
plaintiffs’ rights by intentionally destroying their works of
“recognized stature,” the Court now turns to damages.

App. 112
V
A. Actual Damages
As for actual damages,16 the parties presented dueling
experts as to the valuation of the destroyed works. Plaintiffs’ expert, Elizabeth Littlejohn, testified that the works
were worth from $50,000 to $80,000 per artwork. She arrived at this number through a complicated formula that
began with the sale price of a Banksy17 piece and awarded
each artwork a percentage of that value based on the artist’s reputation, the merit of the work, and other factors.
The Court finds this methodology flawed. First, it does
not account for the removal costs of the works, which plaintiffs’ own removal expert, Alden, testified could run in the
hundreds of thousands of dollars. Second, there is no evidence that these artists have ever achieved a fraction of
Banksy’s sales history; most testified that they had never
sold a work for more than a few thousand dollars. Third,
Littlejohn’s method did not account for the unique problems in selling artwork that is the size of a wall of a building.
The Court finds defendants’ appraisal expert, Christopher Gaillard, credible. Gaillard testified that because of
the unique challenges and costs of selling those artworks
at 5Pointz which were the size of a building wall, they did
not have a provable market value. The Court agrees and

In addition to actual damages, 17 U.S.C. § 504(a)(1) awards “any
additional profits of the infringer” to the winning plaintiff. However,
while the plaintiffs established that Wolkoff profited indirectly from
the destruction of their artwork by building a profitable luxury condominium, they provided no evidence to establish the precise amount of
these profits. Nor have plaintiffs suggested a fair way to apportion the
luxury condominium’s profits between those caused by the legal development of the site as a business venture and the illegal destruction of
the artwork to clear the site for construction. Therefore, the Court finds
the plaintiffs have not met their burden to establish a basis to award
profits. The gain realized by Wolkoff and his companies is best addressed in calculating an award under the statutory damages factors,
see infra.
17 Banksy is widely considered the world’s most prominent aerosol
artist.
16

App. 113
holds that plaintiffs failed to establish a reliable market
value for their works.
Therefore, the Court does not award actual damages.18
B. Statutory Damages
The Copyright Act affords the trial court “wide discretion . . . in setting the amount of statutory damages.” Fitzgerald Pub. Co., Inc. v. Baylor Pub. Co., Inc., 807 F.2d 1110,
1116 (2d Cir. 1986). Statutory damages are “not fixed or
readily calculable from a fixed formula.” Feltner v. Columbia Pictures Television, Inc., 523 U.S. 340, 352–53, 118
S.Ct. 1279, 140 L.Ed.2d 438 (1998) (citation omitted).
“Even for uninjurious and unprofitable invasions of copyright the court may, if it deems it just, impose a liability
within statutory limits to sanction and vindicate the statutory policy.” F.W. Woolworth Co. v. Contemporary Arts,
344 U.S. 228, 233, 73 S.Ct. 222, 97 L.Ed. 276 (1952). There
need not be a correlation between statutory damages and
actual damages. Psihoyos v. John Wiley & Sons, Inc., 748
F.3d 120, 127 (2d Cir. 2014). “To suggest otherwise is to
ignore the various other factors a court may consider and
the purposes of statutory damages in the willful infringement context.” Id. “Statutory damages exist in part because of the difficulties in proving—and providing compensation for—actual harm in copyright infringement actions.” Lowry’s Reports, Inc. v. Legg Mason, Inc., 302
F.Supp.2d 455, 460 (D. Md. 2004).

Plaintiffs contend that they are entitled to damages for emotional distress. Under traditional copyright law, plaintiffs cannot recover such damages. See Garcia v. Google, Inc., 786 F.3d 733, 745 (9th
Cir. 2015) (“[A]uthors cannot seek emotional damages under the Copyright Act, because such damages are unrelated to the value and marketability of their works.”); Kelley v. Universal Music Group, 2016 WL
5720766, at *2 (S.D.N.Y. Sept. 29, 2016) (“Because emotional distress
damages are not compensable under the Copyright Act, this claim
must also be dismissed.”). Since VARA provides damages under “the
same standards that the courts presently use” under traditional copyright law, H.R. Rep. No. 101–514, at 21–22 (1990), emotional damages
are not recoverable.
18

App. 114
As such, statutory damages are particularly appropriate “when no actual damages are proven or they are difficult to calculate.” Warner Bros. Inc. v. Dae Rim Trading,
Inc., 877 F.2d 1120, 1126 (2d Cir. 1989). They are “not
meant to be merely compensatory or restitutionary. The
statutory award is also meant ‘to discourage wrongful conduct.’” Yurman Design, Inc. v. PAJ, Inc., 262 F.3d 101, 113
(2d Cir. 2001) (rejecting defendant’s argument that statutory damages award should be overturned because it
“bears little relationship” to actual damages) (citation
omitted).
As previously explained, the factfinder may award between $750 and $30,000 per work, unless the infringement
was committed willfully; if so, the award may be as high as
$150,000 per work. Review of a statutory damages award
made after a finding of willfulness “is even more deferential than abuse of discretion.” Superior Form Builders, Inc.
v. Dan Chase Taxidermy Supply Co., Inc., 74 F.3d 488, 496
(4th Cir. 1996) (citing Douglas v. Cunningham, 294 U.S.
207, 210, 55 S.Ct. 365, 79 L.Ed. 862 (1935)). “Within [the
statutory] limitations the court’s discretion and sense of
justice are controlling . . . .” D.C. Comics Inc. v. Mini Gift
Shop, 912 F.2d 29, 34 (2d Cir. 1990) (quoting L.A. Westermann v. Dispatch Printing Co., 249 U.S. 100, 106, 39 S.Ct.
194, 63 L.Ed. 499 (1919)).
1. Willfulness
“A copyright holder seeking to prove that a copier’s infringement was willful must show that the infringer ‘had
knowledge that its conduct represented infringement
or . . . recklessly disregarded the possibility.’” Bryant v. Media Right Prods., 603 F.3d 135, 143 (2d Cir. 2010) (quoting
Twin Peaks Prods., Inc. v. Publ’ns Int’l, Ltd., 996 F.2d 1366,
1382 (2d Cir. 1993)). “This knowledge may be ‘actual or constructive.’” N.A.S. Import, Corp. v. Chenson Enters., Inc.,
968 F.2d 250, 252 (2d Cir. 1992). “In other words, it need
not be proven directly but may be inferred from the defendant’s conduct.” Id.
The jury found that in each case Wolkoff acted willfully.
The Court could not agree more. Wolkoff knew from the

App. 115
moment the lawsuit was initiated that the artists were
pressing their VARA claims. He admitted as much at trial:
Q: And you were aware that the artists were trying
to apply under the Visual Artists Rights Act?
A: Yes.
...
THE COURT: You heard about VARA at that time?
A: Yes.
THE COURT: You have a generalized view—
A: At that time, yes.
...
Q: And you had hired Mr. Ebert’s law firm at the
time; correct?
A: Yes.
Q: You had a general counsel—an in-house lawyer
advising you on legal matters; correct?
A: Yes.
Tr. at 2016:24–2017:22.
As previously explained, under VARA, Wolkoff could
have given the plaintiffs 90 days’ notice to allow them the
opportunity to salvage their works. And indeed, plaintiffs’
expert conservator, Alden, convincingly testified that curation techniques had evolved to the point where removal of
works of art from the wall of a building was feasible and
had been done. As an example, she referenced the Berlin
Wall, from which hundreds of works of graffiti on the wall
have been preserved and sold, auctioned, or given as gifts,
including five works which were successfully transported
to New York City. Alden also testified that she had personally successfully removed a mural from a building.
And in respect to the plaintiffs’ works at 5Pointz, Alden
explained that many could have been totally or partially
removed by the artists, at little cost, because the works
were on “siding or plywood or sheetrock” or they “incorporated doors or windows from the building [which] could

App. 116
have been easily removed,” Tr. at 1971:23–1972:4; and
many others could be removed by a conservator and contractors. See Exhibit 1270 (identifying 12 “Works for Which
Artists’ Removal Was Possible”; 9 “Works Which Artists
Were Able to Partially Remove,” and 28 “Works Which
Could Only Have Been Removed by Conservator and Contractors”).19
But Wolkoff could care less. As he callously testified:
I decided—I alone decided to hire people to whitewash[ ] it in one shot instead of waiting for three
months and them going to do something irrational
again and getting arrested. I will go and end it and
whitewash it. I decided to do that. It was pretty
much a spur-of-the-moment thing.
Tr. at 2059:1–6 (emphasis added).
Wolkoff’s reference to the artists doing “something irrational again and getting arrested” is fanciful and unfounded. Plainly, the evidence does not support the notion
that he cared much for what was best for the artists. After
the whitewash, he refused to let them onto his property to
recover what had survived and even attempted to have
them arrested when they tried to do so.
And his claim that he was worried that the plaintiffs
may do something reckless and illegal is also belied by the
evidence. The plaintiffs operated within the law in attempting to protect their works: They sought legal advice,
filed a claim with the Landmark Preservation Commission,
sought to generate public pressure to preserve the site,
raised money, and filed this lawsuit. Wolkoff’s only justification for his concern that the plaintiffs may attempt to
break the law to preserve their work is that he heard non-

It would logically seem that if Wolkoff did give the 90 days’ notice
and none of the works were removed by the artists, he would have the
burden of proving which works were removable in order to avoid liability for their destruction. If that were to have happened, Alden would
have been a good witness for him. However, since the notice was not
given, Wolkoff was liable under VARA for the destruction of all the
works of recognized stature.
19

App. 117
specific “rumblings.” Id. at 2042:5. But he could not identify any particular source of the rumblings, nor had he ever
personally had a problem with the artists:
Q: So this information that you received that the artists could be emotional is from someone you cannot
identify; correct?
A: Yes.
Q: The artists were never violent; correct?
A: Correct.
Q: They always followed the law when then were on
your property; correct?
A: Yes.
Q: You have never had any problems with the artists; right?
A: Absolutely correct.
Tr. at 2047:13–23.
As Cohen confirmed: “I followed the rules from day one.
I went by my lawyer and he did not.” Id. at 1464:2–3.
Wolkoff’s recalcitrant behavior was consistent with the
manner by which he testified in court. He was bent on doing it his way, and just as he ignored the artists’ rights he
also ignored the many efforts the Court painstakingly
made to try to have him responsively answer the questions
posed to him.
From his testimony, the only logical inference that the
Court could draw from Wolkoff’s precipitous conduct as
soon as the Court denied the artists’ preliminary injunction
application was that it was an act of pure pique and revenge for the nerve of the plaintiffs to sue to attempt to
prevent the destruction of their art. This was the epitome
of willfulness.20

It may also well be that Wolkoff wanted to strike “while the iron
was hot” and was willing to run the risk of being held liable for substantial statutory damages rather than to jeopardize his multimillion
20

App. 118
It remains for the Court to fix the amount of statutory
damages.
2. The Statutory Factors
“When determining the amount of statutory damages to
award for copyright infringement, courts consider: (1) the
infringer’s state of mind; (2) the expenses saved, and profits earned, by the infringer; (3) the revenue lost by the copyright holder; (4) the deterrent effect on the infringer and
third parties; (5) the infringer’s cooperation in providing
evidence concerning the value of the infringing material;
and (6) the conduct and attitude of the parties.” Bryant, 603
F.3d at 144.21
Wolkoff rings the bell on each relevant factor.
a. The Infringer’s State of Mind
Because Wolkoff acted willfully in destroying the works
of art, this factor weighs in favor of a high statutory damages award. As noted, Wolkoff’s two alleged justifications
for the whitewash—that it would be better for the plaintiffs
to lose their works quickly, and that he was concerned the
plaintiffs might do something reckless and illegal in an attempt to save the works—are implausible.
The whitewash did not end the conflict in one go; the
effects lingered for almost a year. The sloppy, half-hearted
nature of the whitewashing left the works easily visible under thin layers of cheap, white paint, reminding the plaintiffs on a daily basis what had happened. The mutilated
works were visible by millions of people on the passing 7
dollar luxury condo project. Indeed, with a fully developed record, permanent injunctive relief might have been available under the literal
reading of VARA. Such behavior would be equally willful.
21 The fifth factor does not fit this case. It is designed for traditional
copyright cases where a defendant is liable for selling infringing material and the plaintiff’s damages proof requires evidence of defendant’s
sales that can only be provided by defendant. See Curet–Velazquez v.
ACEMLA de Puerto Rico, Inc., 656 F.3d 47, 59 (1st Cir. 2011) (upholding maximum statutory damages award because defendants “did not
provide comprehensive and accurate [accounting] reports” showing
how they profited by selling plaintiff’s work). Here, defendants destroyed, rather than sold, plaintiffs’ works, so this factor is inapplicable, and the Court will not consider it.

App. 119
train. One plaintiff, Miyakami, said that upon seeing her
characters mutilated in that manner, it “felt like [she] was
raped.” Tr. at 1306:24–25. It is simply untenable that a rational person could view the whitewashing as being in the
best interest of the artists.
b. The Expenses Saved, and Profits Earned,
by the Infringer
This factor is not a clean fit for VARA since, unlike a
traditional copyright infringement case, Wolkoff did not
sell the plaintiffs’ art; hence, there were no direct profits.
However, he indirectly profited when the value of the site
increased from $40 million to $200 million as soon as the
variance was obtained. Destroying 5Pointz allowed Wolkoff
to realize this gain. He also charged licensing fees to film
at the site that netted him hundreds of thousands of dollars. Because Wolkoff realized significant profits by violating VARA, this factor cuts in favor of a high statutory damages award.
c. Revenue Lost by the Copyright Holder
While the plaintiffs were never able to place a dollar figure on how the whitewash of 5Pointz impacted their careers, it often had a negative effect. As plaintiff Takabayashi testified: “I would actually have clients . . . come
by and observe the work to get an idea of what they would
be getting if I was going to execute a mural on their property . . . . There were possibilities—there was business
that I probably lost because of the fact that the artwork
was eliminated.” Tr. at 315:23–316:4. And plaintiff Del
Valle testified: “It definitely took away a lot of opportunities that I would have had. I was consistently getting contacted about opportunities . . . all coming from me building
my career from [5Pointz].” Id. at 131:15–22.
Furthermore, as Cohen testified, the salvageable artwork at 5Pointz “could have adorned a museum, a full wing
of a museum . . . . I don’t think you guys really get a full
idea of the picture of this building and its property . . . . It
was eight stories tall. We could have filled a wing, if not
more, of a museum.” Id. at 1466:18–23.

App. 120
The value of 5Pointz to the artists’ careers was significant, and its loss, though difficult to quantify, precluded
future opportunities and acclaim. Therefore, this factor
also supports a significant statutory damages award.
d. The Deterrent Effect on the Infringer
and Third Parties
This is perhaps the most important factor in this case.
Without a significant statutory damages award, the preservative goals of VARA cannot be met. If potential infringers believe that they can violate VARA at will and escape
liability because plaintiffs are not able to provide a reliable
financial valuation for their works, VARA will have no
teeth. It will simply be cost-effective for infringers to violate the statute. This would not further its preservative
goals.
Wolkoff has been singularly unrepentant. He was given
multiple opportunities to admit the whitewashing was a
mistake, show remorse, or suggest he would do things differently if he had another chance. He denied them all:
Q: Let me ask you a hypothetical question. Let’s go
back in time.
A: Yes.
Q: Would you have done it again?
A: Yes.
Tr. 2052:25–2053:4.
A: But that was the decision I made. I would make
the same decision today if that happened today.
Id. at 2056:2–3.
Thus, Wolkoff remains undeterred, and unrepentant
that his thoughtless act violated the law and had a devastating impact on people he claims he was trying to help.
This factor could not cut more strongly in favor of a high
statutory damages award.

App. 121
e. The Conduct and Attitude of the Parties
The Court has discussed at length the problematic conduct of Wolkoff during the whitewashing and on the witness stand. Needless to say, he has not helped his case. On
the other hand, the plaintiffs have conducted themselves
with dignity, maturity, respect, and at all times within the
law. Therefore, this factor also cuts heavily in favor of a
high statutory damages award.
3. The Statutory Damages Award
Collectively, all five relevant factors support the maximum award of statutory damages. Therefore, the Court
awards $150,000 for each of the 45 works, for a total statutory damages award of $6,750,000.
If not for Wolkoff’s insolence, these damages would not
have been assessed. If he did not destroy 5Pointz until he
received his permits and demolished it 10 months later, the
Court would not have found that he had acted willfully.
Given the degree of difficulty in proving actual damages, a
modest amount of statutory damages would probably have
been more in order.22
The shame of it all is that since 5Pointz was a prominent tourist attraction the public would undoubtedly have
thronged to say its goodbyes during those 10 months and
gaze at the formidable works of aerosol art for the last time.
It would have been a wonderful tribute for the artists that
they richly deserved.
CONCLUSION
Judgment will be entered for each individual plaintiff
in the following amounts:23

Of course, all this could have been easily avoided with a written
waiver of the artists’ VARA rights up front, as § 113(d) expressly contemplates.
23 While § 504(c)(1) requires the plaintiffs to elect statutory damages in lieu of actual damages “before final judgment is rendered,” the
Court will deem that the plaintiffs have chosen to accept these statutory damages rather than no damages at all.
22

App. 122
Artist

Total Award

Jonathan Cohen

$1,325,000.00

Sandra Fabara

$150,000.00

Luis Lamboy

$800,000.00

Esteban Del Valle

$150,000.00

Rodrigo Henter de Rezende $150,000.00
Thomas Lucero

$200,000.00

Akiko Miyakami

$375,000.00

Christian Cortes

$600,000.00

Carlos Game

$825,000.00

James Rocco

$525,000.00

Steven Lew

$150,000.00

Francisco Fernandez

$150,000.00

Nicholai Khan

$300,000.00

James Cochran

$150,000.00

Luis Gomez

$150,000.00

Richard Miller

$300,000.00

Kenji Takabayashi

$150,000.00

Maria Castillo

$75,000.00

William Tramontozzi

$75,000.00

Carlo Nieva

$75,000.00

Bienbenido Guerra

$75,000.00

Total

$6,750,000.00

SO ORDERED.

App. 123
APPENDIX

Akiko Miyakami – Japanese Irish Girl

Akiko Miyakami – Manga Koi

App. 124

Akiko Miyakami and Carlos Games – Japanese Fantasy

App. 125

Akiko Miyakami and Jonathan Cohen – Save 5Pointz

Akiko Miyakami and Jonathan Cohen – Underwater
Fantasy

App. 126

Bienbendio Guerra and Carlo Nieva – Return of New
York

Carlos Game – Black and White 5Pointz Girl

App. 127

Carlos Game – Denim Girl

App. 128

Carlos Game – Faces on Hut

Carlos Game - Geisha

App. 129

Carlos Game - Marilyn

App. 130

Carlos Game – Red

App. 131

Christian Cortes – Jackson Avenue Skulls

Christian Cortes – Skulls Cluster

App. 132

Christian Cortes – Up High Orange Skulls

Christian Cortes – Up High Skulls

App. 133

Esteban Del Valle – Beauty and the Beast

Francisco Fernandez – Dream of Oil

App. 134

James Cochran – Subway Rider

James Rocco – Bull Face

App. 135

James Rocco – Face on Jackson

App. 136

James Rocco – Lord Paz

App. 137

Jonathan Cohen – 7-Angle Illusion

App. 138

Jonathan Cohen - Character

App. 139

Jonathan Cohen – Clown with Bulbs

Jonathan Cohen – Drunken Bulbs

App. 140

Jonathan Cohen – Eleanor RIP

Jonathan Cohen - Inside Wildstyle

App. 141

Jonathan Cohen – Outdoor Wildstyle

Jonathan Cohen – Patience

App. 142

Jonathan Cohen and Maria Castillo – Burner and Love
Girl

Jonathan Cohen and Rodrigo Henter de Rezende – Halloween Pumpkins

Jonathan Cohen, Luis Lamboy, and Thomas Lucero – Angry Orchard

App. 143

Kenji Takabayashi – Starry Night

Luis Gomez – Inside King Kong

App. 144

Luis Lamboy – Blue Jay Wall

App. 145

Luis Lamboy – Electric Fish

App. 146

Luis Lamboy – Inside 4th Floor

Luis Lamboy – Clothing Brand aka Monopoly Man

App. 147

Luis Lamboy – World Traveler

App. 148

Nicholai Khan – Dos Equis Man

App. 149

Nicholai Khan – Orange Clockwork

Richard Miller – Monsters I

App. 150

Richard Miller – Monsters II

Rodrigo Henter de Rezende – Fighting Tree

App. 151

Sandra Fabara – Green Mother Earth

App. 152

Steven Lew – Crazy Monsters

Thomas Lucero – Black Creature

App. 153

William Tramonitozzi and James Rocco – Jimi Hendrix
Tribute

App. 154
United States Constitution, Amendment V
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a presentment or indictment of a grand jury, except in cases arising in the land or
naval forces, or in the militia, when in actual service in
time of war or public danger; nor shall any person be subject for the same offense to be twice put in jeopardy of life
or limb; nor shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall private
property be taken for public use, without just compensation.

App. 155
17 U.S.C. § 106A. Rights of certain authors to attribution and integrity
(a)

RIGHTS OF ATTRIBUTION AND INTEGRITY. Subject to
section 107 and independent of the exclusive rights
provided in section 106, the author of a work of visual
art—
(1)

shall have the right—
(A) to claim authorship of that work, and
(B) to prevent the use of his or her name as the
author of any work of visual art which he or
she did not create;

(2)

shall have the right to prevent the use of his or
her name as the author of the work of visual art
in the event of a distortion, mutilation, or other
modification of the work which would be prejudicial to his or her honor or reputation; and

(3)

subject to the limitations set forth in section
113(d), shall have the right—
(A) to prevent any intentional distortion, mutilation, or other modification of that work
which would be prejudicial to his or her
honor or reputation, and any intentional
distortion, mutilation, or modification of
that work is a violation of that right, and
(B) to prevent any destruction of a work of recognized stature, and any intentional or
grossly negligent destruction of that work is
a violation of that right.

(b)

SCOPE AND EXERCISE OF RIGHTS. Only the author of
a work of visual art has the rights conferred by subsection (a) in that work, whether or not the author is
the copyright owner. The authors of a joint work of
visual art are coowners of the rights conferred by subsection (a) in that work.

App. 156
(c)

(d)

EXCEPTIONS.
(1)

The modification of a work of visual art which is
a result of the passage of time or the inherent nature of the materials is not a distortion, mutilation, or other modification described in subsection (a)(3)(A).

(2)

The modification of a work of visual art which is
the result of conservation, or of the public presentation, including lighting and placement, of the
work is not a destruction, distortion, mutilation,
or other modification described in subsection
(a)(3) unless the modification is caused by gross
negligence.

(3)

The rights described in paragraphs (1) and (2) of
subsection (a) shall not apply to any reproduction, depiction, portrayal, or other use of a work
in, upon, or in any connection with any item described in subparagraph (A) or (B) of the definition of “work of visual art” in section 101, and any
such reproduction, depiction, portrayal, or other
use of a work is not a destruction, distortion, mutilation, or other modification described in paragraph (3) of subsection (a).

DURATION OF RIGHTS.
(1)

With respect to works of visual art created on or
after the effective date set forth in section 610(a)
of the Visual Artists Rights Act of 1990, the
rights conferred by subsection (a) shall endure
for a term consisting of the life of the author.

(2)

With respect to works of visual art created before
the effective date set forth in section 610(a) of the
Visual Artists Rights Act of 1990, but title to
which has not, as of such effective date, been
transferred from the author, the rights conferred
by subsection (a) shall be coextensive with, and
shall expire at the same time as, the rights conferred by section 106.

App. 157

(e)

(3)

In the case of a joint work prepared by two or
more authors, the rights conferred by subsection
(a) shall endure for a term consisting of the life of
the last surviving author.

(4)

All terms of the rights conferred by subsection (a)
run to the end of the calendar year in which they
would otherwise expire.

TRANSFER AND WAIVER.
(1)

The rights conferred by subsection (a) may not be
transferred, but those rights may be waived if the
author expressly agrees to such waiver in a written instrument signed by the author. Such instrument shall specifically identify the work, and
uses of that work, to which the waiver applies,
and the waiver shall apply only to the work and
uses so identified. In the case of a joint work prepared by two or more authors, a waiver of rights
under this paragraph made by one such author
waives such rights for all such authors.

(2)

Ownership of the rights conferred by subsection
(a) with respect to a work of visual art is distinct
from ownership of any copy of that work, or of a
copyright or any exclusive right under a copyright in that work. Transfer of ownership of any
copy of a work of visual art, or of a copyright or
any exclusive right under a copyright, shall not
constitute a waiver of the rights conferred by subsection (a). Except as may otherwise be agreed by
the author in a written instrument signed by the
author, a waiver of the rights conferred by subsection (a) with respect to a work of visual art
shall not constitute a transfer of ownership of any
copy of that work, or of ownership of a copyright
or of any exclusive right under a copyright in that
work.

App. 158
17 U.S.C. § 501. Infringement of copyright
(a)

Anyone who violates any of the exclusive rights of the
copyright owner as provided by sections 106 through
122 or of the author as provided in section 106A(a), or
who imports copies or phonorecords into the United
States in violation of section 602, is an infringer of the
copyright or right of the author, as the case may be.
For purposes of this chapter (other than section 506),
any reference to copyright shall be deemed to include
the rights conferred by section 106A(a). As used in this
subsection, the term “anyone” includes any State, any
instrumentality of a State, and any officer or employee
of a State or instrumentality of a State acting in his or
her official capacity. Any State, and any such instrumentality, officer, or employee, shall be subject to the
provisions of this title in the same manner and to the
same extent as any nongovernmental entity.

App. 159
17 U.S.C. § 504. Remedies for infringement: Damages
and profits
(a)

IN GENERAL. Except as otherwise provided by this title, an infringer of copyright is liable for either—
(1)

the copyright owner’s actual damages and any
additional profits of the infringer, as provided by
subsection (b); or

(2)

statutory damages, as provided by subsection (c).

(b)

ACTUAL DAMAGES AND PROFITS. The copyright
owner is entitled to recover the actual damages suffered by him or her as a result of the infringement,
and any profits of the infringer that are attributable
to the infringement and are not taken into account in
computing the actual damages. In establishing the infringer’s profits, the copyright owner is required to
present proof only of the infringer’s gross revenue, and
the infringer is required to prove his or her deductible
expenses and the elements of profit attributable to factors other than the copyrighted work.

(c)

STATUTORY DAMAGES.
(1)

Except as provided by clause (2) of this subsection, the copyright owner may elect, at any time
before final judgment is rendered, to recover, instead of actual damages and profits, an award of
statutory damages for all infringements involved
in the action, with respect to any one work, for
which any one infringer is liable individually, or
for which any two or more infringers are liable
jointly and severally, in a sum of not less than
$750 or more than $30,000 as the court considers
just. For the purposes of this subsection, all the
parts of a compilation or derivative work constitute one work.

(2)

In a case where the copyright owner sustains the
burden of proving, and the court finds, that infringement was committed willfully, the court in
its discretion may increase the award of statutory damages to a sum of not more than

App. 160
$150,000. In a case where the infringer sustains
the burden of proving, and the court finds, that
such infringer was not aware and had no reason
to believe that his or her acts constituted an infringement of copyright, the court in its discretion may reduce the award of statutory damages
to a sum of not less than $200. The court shall
remit statutory damages in any case where an infringer believed and had reasonable grounds for
believing that his or her use of the copyrighted
work was a fair use under section 107, if the infringer was: (i) an employee or agent of a nonprofit educational institution, library, or archives
acting within the scope of his or her employment
who, or such institution, library, or archives itself, which infringed by reproducing the work in
copies or phonorecords; or (ii) a public broadcasting entity which or a person who, as a regular
part of the nonprofit activities of a public broadcasting entity (as defined in section 118(f)) infringed by performing a published nondramatic
literary work or by reproducing a transmission
program embodying a performance of such a
work.
(3)

(A) In a case of infringement, it shall be a rebuttable presumption that the infringement was
committed willfully for purposes of determining
relief if the violator, or a person acting in concert
with the violator, knowingly provided or knowingly caused to be provided materially false contact information to a domain name registrar, domain name registry, or other domain name registration authority in registering, maintaining,
or renewing a domain name used in connection
with the infringement.
(B) Nothing in this paragraph limits what may
be considered willful infringement under this
subsection.
(C) For purposes of this paragraph, the term “domain name” has the meaning given that term in

App. 161
section 45 of the Act entitled “An Act to provide
for the registration and protection of trademarks
used in commerce, to carry out the provisions of
certain international conventions, and for other
purposes” approved July 5, 1946 (commonly referred to as the “Trademark Act of 1946”; 15
U.S.C. 1127).

